                    The Office of Inspector General's report on the RRB's financial statements
OIG REPORT #10-02   begins on page 99 of the Railroad Retirement Board's FY 2009 Performance and
                    Accountability Report.
BLANK PAGE FOR PRINTING PURPOSES
 

                                            Railroad Retirement Board 
 

                                      Performance and Accountability Report 
 

                                                 Fiscal Year 2009 
 




                                                     TABLE OF CONTENTS
                                                                                                                                         PAGE

Message from the Board Members .........................................................................                                      3
 


Management’s Discussion and Analysis................................................................                                          7
 

     Overview of the Railroad Retirement Board.......................................................................                         7
 

         Mission .........................................................................................................................    7
 

         Major Program Areas ...................................................................................................              7
 

             Railroad Retirement Act .........................................................................................                8
 

             Railroad Unemployment Insurance Act..................................................................                            9
 

         Reporting Components ................................................................................................               10
 

         RRB Organizational Structure ......................................................................................                 10
 

         Financial Highlights ......................................................................................................         13
 

             Comparison of Net Cost of Operations and Financing Sources.............................                                         15
 

             Railroad Retirement Investments at Treasury........................................................                             19
 

             National Railroad Retirement Investment Trust .....................................................                             20
 

     Program, Operations, and Financial Performance and Results.........................................                                     21
 

     Strategic Goals and Objectives ..........................................................................................               22
 

         Future Plans/Objectives ...............................................................................................             32
 

             Program Improvements..........................................................................................                  32
 

             Systems and Controls ............................................................................................               33

                 Management Assurances.................................................................................                      35
 

             Summary of Actuarial Forecast ..............................................................................                    36
 

     Limitations of the Financial Statements .............................................................................                   36
 

     American Recovery and Reinvestment Act of 2009...........................................................                               36
 


Performance Section – Government Performance and Results Act (GPRA) 

 Report.............................................................................................................................         41
 


Financial Section ......................................................................................................                     63
 

     Message from the Chief Financial Officer ..........................................................................                     63

     Financial Statements..........................................................................................................          64
 

        Consolidated Balance Sheet ........................................................................................                  64
 

        Consolidated Statement of Net Cost ............................................................................                      65
 


                                                                     I
 

                                                    TABLE OF CONTENTS
 

                                                                                                                                      PAGE

        Consolidated Statement of Changes in Net Position ...................................................                              66
 

        Combined Statement of Budgetary Resources ............................................................                             68
 

        Statement of Social Insurance .....................................................................................                69
 

     Notes to the Financial Statements .....................................................................................               70
 

     Required Supplementary Information ................................................................................                   89
 

        Social Insurance...........................................................................................................        89

            Program Financing .................................................................................................            89

            Benefits ..................................................................................................................    90
 

            Program Finances and Sustainability.....................................................................                       90
 

        Disaggregate of Budgetary Resources ........................................................................                       98

     Auditor’s Reports................................................................................................................     99
 


Other Accompanying Information........................................................................... 111
 

     Inspector General’s Statement on Management and Performance Challenges ................                                              111

     Management’s Comments .................................................................................................              116
 

     Improper Payments Information Act (IPIA) Reporting Details............................................                               119
 

     Summaries of Financial Statement Audit and Management Assurances ..........................                                          124
 


Appendices ............................................................................................................... 127
 

     Glossary of Acronyms and Abbreviations .......................................................................... 127
 

     RRB Board Members, Inspector General, and Executive Committee ............................... 130
 




RRB’s fiscal year 2009 Performance and Accountability Report is available on the Internet at: www.rrb.gov




                                                                   II
 

MESSAGE FROM THE BOARD MEMBERS
PAGE INTENTIONALLY LEFT BLANK 
 

                          Message from the Board Members


This fiscal year 2009 Performance and Accountability Report highlights the goals and
accomplishments of the Railroad Retirement Board (RRB) in achieving its mission of
administering the retirement, disability, and survivor benefit program provided under the
Railroad Retirement Act (RRA) and the unemployment and sickness insurance benefit program
provided under the Railroad Unemployment Insurance Act (RUIA). This report describes our
continuing efforts to provide timely and useful information to RRB managers, the Office of
Management and Budget (OMB), the Congress, and our constituents. We are proud of the
agency’s dedicated employees whose achievements are reflected in this report.

The RRB has a long and distinguished tradition of excellence in serving our customers and
safeguarding the agency’s trust funds. In recent years, we have achieved high levels of
accuracy and timeliness in the benefit programs we administer. This year, we introduced a
Nationwide Toll Free Phone Service which provides customers a single access point to claims
representatives in the agency’s field offices and to our interactive voice response (IVR) system.
We also implemented two provisions of the American Recovery and Reinvestment Act (ARRA)
of 2009. The ARRA provided a one-time economic recovery payment of $250 to most adult
RRA beneficiaries; it also provided an appropriation of $20 million to be used for up to 65 days
of additional extended unemployment benefits under the RUIA.

We believe the performance and financial data presented in this report are complete and
reliable in accordance with OMB guidance. The adequacy and effectiveness of our
management controls and the compliance of our financial management systems with
governmentwide requirements are delineated in the Systems and Controls part of the
Management’s Discussion and Analysis section. That part also provides the status of the
actions we are taking and progress we are making to correct Office of Inspector General
identified material weaknesses in information technology security, financial reporting, and
non-integrated subsystems.

We will continue to apply information technology and innovation to provide excellent customer
service to the railroad employers, railroad employees, and the beneficiaries whom we serve.
We are also committed to prudent stewardship over the agency trust funds and the
administrative resources entrusted to us.




                                                                               Original signed by:

                                                                Michael S. Schwartz, Chairman
                                                            V. M. Speakman, Jr., Labor Member
                                                         Jerome F. Kever, Management Member

                                                                               November 9, 2009




                                               -3-
PAGE INTENTIONALLY LEFT BLANK 
 

MANAGEMENT’S DISCUSSION AND ANALYSIS
PAGE INTENTIONALLY LEFT BLANK 
 

                        Management’s Discussion and Analysis

Overview of the Railroad Retirement Board (RRB)

Mission

The RRB is an independent agency in the executive branch of the Federal Government. The
agency’s mission statement is as follows:

       The RRB’s mission is to administer retirement/survivor and unemployment/sickness insurance
       benefit programs for railroad workers and their families under the Railroad Retirement Act and the
       Railroad Unemployment Insurance Act. These programs provide income protection during old
       age and in the event of disability, death or temporary unemployment and sickness. The RRB
       also administers aspects of the Medicare program and has administrative responsibilities under
       the Social Security Act and the Internal Revenue Code. In carrying out its mission, the RRB will
       pay benefits to the right people, in the right amounts, in a timely manner, and will take appropriate
       action to safeguard our customers’ trust funds. The RRB will treat every person who comes into
       contact with the agency with courtesy and concern, and respond to all inquiries promptly,
       accurately and clearly.


Major Program Areas

The RRB was created in the 1930’s by legislation establishing a retirement benefit program for
the nation’s railroad workers. Private industrial pension plans had been pioneered in the
railroad industry; the first industrial pension plan in North America was established on a railroad
in 1874. By the 1930’s, pension plans were far more developed in the rail industry than in most
other businesses or industries, but these plans had serious defects which were magnified by the
Great Depression.

The economic conditions of the 1930’s demonstrated the need for retirement plans on a national
basis because few of the nation’s elderly were covered under any type of retirement program.
While the social security system was in the planning stage, railroad workers sought a separate
railroad retirement system which would continue and broaden the existing railroad programs
under a uniform national plan. The proposed social security system was not scheduled to begin
monthly benefit payments for several years and would not give credit for service performed prior
to 1937, while conditions in the railroad industry called for immediate benefit payments based
on prior service.

Legislation was enacted in 1934, 1935, and 1937 to establish a railroad retirement system
separate from the social security program legislated in 1935. Such legislation, taking into
account particular circumstances of the rail industry, was not without precedent. Numerous
laws pertaining to rail operations and safety had already been enacted since the Interstate
Commerce Act of 1887. Since passage of the Railroad Retirement Acts of the 1930’s,
numerous other railroad laws have subsequently been enacted.

While the railroad retirement system has remained separate from the social security system, the
two systems are closely coordinated with regard to earnings credits, benefit payments, and


                                                   - 7 -
 

taxes. The financing of the two systems is linked through a financial interchange under which,
in effect, the portion of railroad retirement annuities that is equivalent to social security benefits
is coordinated with the social security system. The purpose of this financial coordination is to
place the social security trust funds in the same position they would be in if railroad service were
covered by the social security program instead of the railroad retirement program.

Legislation enacted in 1974 restructured railroad retirement benefits into two tiers, so as to
coordinate them more fully with social security benefits. The first tier is based on combined
railroad retirement and social security credits, using social security benefit formulas. The
second tier is based on railroad service only and is comparable to the private pensions paid
over and above social security benefits in other industries.

The railroad unemployment insurance system was also established in the 1930’s. The Great
Depression demonstrated the need for unemployment compensation programs, and State
unemployment programs had been established under the Social Security Act in 1935. While the
State unemployment programs generally covered railroad workers, railroad operations which
crossed State lines caused special problems. Unemployed railroad workers were denied
compensation by one State because their employers had paid unemployment taxes in another
State. Although there were cases where employees appeared to be covered in more than one
State, they often did not qualify in any.

A Federal study commission, which reported on the nationwide State plans for unemployment
insurance, recommended that railroad workers be covered by a separate plan because of the
complications their coverage had caused the State plans. The Congress subsequently enacted
the Railroad Unemployment Insurance Act (RUIA) in June 1938. The RUIA established a
system of benefits for unemployed railroad workers, financed entirely by railroad employers and
administered by the RRB. Sickness insurance benefits were added in 1946.

   Railroad Retirement Act

Under the Railroad Retirement Act (RRA), retirement and disability annuities are paid to railroad
workers with at least 10 years of service. Such annuities are also payable to workers with
5 years of service if performed after 1995.

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on the year
of birth. Disability annuities can be paid on the basis of total or occupational disability.
Annuities are also payable to spouses and divorced spouses of retired workers and to
widow(er)s, surviving divorced spouses, remarried widow(er)s, children, and parents of
deceased railroad workers. Qualified railroad retirement beneficiaries are covered by Medicare
at age 65, or earlier if disabled, in the same way as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and the
Social Security Administration (SSA). The RRB has jurisdiction over the payment of retirement
benefits if the employee had at least 10 years of railroad service, or 5 years if performed after
1995; for survivor benefits, there is an additional requirement that the employee’s last regular
employment before retirement or death was in the railroad industry. If a railroad employee or
his or her survivors do not qualify for railroad retirement benefits, the RRB transfers the
employee’s railroad retirement credits to SSA, where they are treated as social security credits.



                                                - 8 -
 

Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement and survivor benefit programs. By law, railroad retirement taxes are
coordinated with social security taxes. Employees and employers pay tier 1 taxes at the same
rate as social security taxes. In addition, both employees and employers pay tier 2 taxes which
are used to finance railroad retirement benefit payments over and above social security levels.
Tier 2 taxes are based on the ratio of certain asset balances to the sum of benefit payments and
administrative expenses. Historically, railroad retirement taxes have been considerably higher
than social security taxes.

Revenues in excess of benefit payments are invested to provide additional trust fund income,
and the legislation enacted in 2001 allows for Railroad Retirement Account funds transferred to
the National Railroad Retirement Investment Trust (NRRIT) to be invested in non-governmental
assets, as well as in governmental securities. Funds transferred from the Social Security
Equivalent Benefit (SSEB) Account to the NRRIT are allowed to be invested only in
governmental securities. The legislation also established the NRRIT, whose Board of seven
trustees oversees these investments. The Board of Trustees is comprised of three members
selected by rail labor; three members selected by rail management; and one independent
member selected by a majority of the other six members.

Another major source of income to the railroad retirement and survivor benefit program consists
of transfers from the social security trust funds under a financial interchange between the two
systems. The financial interchange is intended to place the social security trust funds in the
same position in which they would have been had railroad employment been covered by the
Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2009, the
RRB trust funds realized a net of $4.0 billion, representing 43 percent of RRB financing sources
(excluding transfers to/from the NRRIT and the decrease in NRRIT net assets), through the
financial interchange.

Other sources of income currently include revenue resulting from Federal income taxes on
railroad retirement benefits (tier I, tier II and vested dual benefits), and appropriations from
general Treasury revenues provided after 1974 as part of a phase-out of certain vested dual
benefits.

   Railroad Unemployment Insurance Act

Under the RUIA, unemployment insurance benefits are paid to qualified railroad workers who
are unemployed but ready, willing, and able to work and sickness insurance benefits to railroad
workers who are unable to work because of illness, injury, or pregnancy. The RRB also
operates a placement service to assist unemployed railroad workers in securing employment.

A new unemployment and sickness insurance benefit year begins every July 1, with eligibility
generally based on railroad service and earnings in the preceding calendar year. Up to
26 weeks of normal unemployment and 26 weeks of sickness insurance benefits are payable to
an individual in a benefit year. Additional extended benefits are payable for up to 13 weeks to
persons with 10 or more years of service.

The railroad unemployment and sickness insurance benefit program is financed by taxes on
railroad employers under an experience rating system initiated in 1991. Each employer’s
payroll tax rate is determined annually by the RRB on the basis of benefit payments to the
railroad’s employees.



                                                - 9 -

Reporting Components

The RRB, as an independent agency in the executive branch of the U.S. Government, is
responsible for administering the RRA and the RUIA. The financial statements include the
accounts of all funds under the control of the RRB and the Office of Inspector General (OIG).
These funds consist of two administrative funds, three trust funds, two general funds,
one deposit fund, and six American Recovery and Reinvestment Act of 2009 (ARRA) funds.

RRB Organizational Structure

The RRB is headed by three Board Members appointed by the President of the United States,
with the advice and consent of the Senate. One member is appointed upon recommendation of
railroad employers; one is appointed upon recommendation of railroad labor organizations; and
the third, who is the Chairman, is appointed to represent the public interest. The Board
Members’ terms of office are 5 years and are scheduled to expire in different years. The
Chairman of the Board is Michael S. Schwartz, the Labor Member is V. M. Speakman, Jr., and
the Management Member is Jerome F. Kever. The President also appoints an Inspector
General for the RRB; the Inspector General is Martin J. Dickman.

The primary function of the RRB is the determination and payment of benefits under the railroad
retirement and survivor and the unemployment and sickness insurance programs. To this end,
the RRB employs field representatives to assist railroad personnel and their families in filing
claims for benefits, examiners to adjudicate the claims, and information technology staff,
equipment, and programs to maintain earnings records, calculate benefits, and process
payments. The RRB also employs actuaries to predict the future income and outlays of the
agency’s trust funds and accounts, statisticians and economists to provide vital data, and
attorneys to interpret legislation and represent the RRB in litigation. Internal administration
requires a procurement staff, a budget and accounting staff, quality assurance staff, and
personnel specialists. The Inspector General employs auditors and investigators to detect
waste, fraud, or abuse in the benefit programs.

The RRB’s headquarters is located at 844 North Rush Street in Chicago, Illinois. The RRB field
structure is comprised of 53 offices located throughout the United States as shown on page 12.




                                             - 10 -
 

                                                                        U.S. RAILROAD RETIREMENT BOARD
 


                                                                                        THE BOARD
                                               OFFICE OF                                                                      CHIEF ACTUARY*
           OFFICE OF                          INSPECTOR                          Chairman, Michael S. Schwartz
                                               GENERAL                                                                           BUREAU OF
             EQUAL                                                             Labor Member, V.M. Speakman, Jr.
         OPPORTUNITY                        Martin J. Dickman                                                                   THE ACTUARY
                                                                              Management Member, Jerome F. Kever                 Frank J. Buzzi
         Lynn E. Cousins



                                                                                    EXECUTIVE COMMITTEE

             MEMBER                                MEMBER                            SENIOR EXECUTIVE
 
                  MEMBER                        MEMBER
         Kenneth P. Boehne                     Steven A. Bartholow                       OFFICER
 
                 Dorothy A. Isherwood              Terri S. Morgan
                                                                                      Henry M. Valiulis
 



         CHIEF FINANCIAL                           OFFICE OF                            OFFICE OF
 
                   OFFICE OF
 
               CHIEF INFORMATION
 

             OFFICER
 
                       GENERAL COUNSEL                        ADMINISTRATION                    PROGRAMS
 
                     OFFICER
 

                                               Steven A. Bartholow                    Henry M. Valiulis            Dorothy A. Isherwood
- 11 -




           BUREAU OF
 
                                                                                                                              BUREAU OF
 

              FISCAL
 
                                                              ACQUISITION                                                    INFORMATION
 

                                                 OFFICE OF                                                           OPERATIONS
           OPERATIONS                                                                MANAGEMENT                                                       SERVICES
 

                                                LEGISLATIVE                                                          Robert J. Duda
         Kenneth P. Boehne                                                            Paul T. Ahern                                                 Terri S. Morgan
                                                  AFFAIRS
                                              Margaret S. Lindsley                  REAL PROPERTY
                                                                                     MANAGEMENT                      POLICY AND
 

                                                 BUREAU OF                             Scott Rush                     SYSTEMS
 

                                                HEARINGS AND                                                         Ronald Russo
                                                  APPEALS
                                                  Karl Blank                        PUBLIC AFFAIRS                    RESOURCE
 

                                                                                      Anita Rogers                  MANAGEMENT
 

                                               SECRETARY TO                                                            CENTER
 

                                                 THE BOARD                                                          Janet M. Hallman
                                               Beatrice E. Ezerski                    BUREAU OF
 

                                                                                         HUMAN
 
                   ASSESSMENT
                                                                                      RESOURCES
 
                  AND TRAINING
                                                                                      Keith B. Earley              Catherine A. Leyser

            The Inspector General reports administratively to the Chairman.                                         FIELD SERVICE
            The Director of Equal Opportunity reports administratively to the 
 

                                                                                                                   Martha M. Barringer
             Director of Administration and programmatically to the Board.
 


          * Non-voting member of the Executive Committee.                                                                                                       October 2009
                                                                          U.S. RAILROAD RETIREMENT BOARD
 

                             WAS
                                HING
                                                                                    District Office Map
 

                                    TON

                                                         MONTA                                                                                                                                                                                                                                   MAINE
                           Bellevue                           NA
                                          Spokane

                                                                                                        NORTH DAKOTA
                                                                                                                                    MINNESOTA


                Portland
                                      OREGON                                                                                                           Duluth
                                                                                                                                                                                                                                                                                  V.T.
                                                                                                                            Fargo                                              MICHIGAN
                                                                               Billings                                                                                                                                                                                RK
                                                                                                                                                                                                                                                                     YO
                                                                                                                                                              WISCONSIN                                                                                          W
                                                                                                       SOUTH DAKOTA                                                                                                                                            NE

                                                                          WYOMING                                                               St. Paul                                                                                                                                  N.H.    Boston
                                                                IDAHO                                                                                                                           MICHIGAN
                                                                                                                                                                                                                                                                         Albany            .
                                                                                                                                                                                                                                                                                      MASS
         CAL                                                                                                                                                                                                                                      Buffalo                                 .
            IFOR                                                                                                                                                                                                                                                                      CONN
                NIA
                            NEVA
                                DA                                                                                                                                                                                                                                                            Westbury
                                                                                                                                                                            Milwaukee
                                                                                                                                        IOWA                                                                 Detroit                            ANIA           Scranton
                                                                                                                                                                                                                                            SYLV                             NJ       New York
                                                                                                      NEBRASKA                                                                                                                          PENN
                                                         UTAH                                                                                                                                                                                                                       Newark
                                                                                                                                                                                Chicago                                                                     Harrisburg
                                                                                                                                                                                                               OHIO         Cleveland                                                 lphia
                                                                                                                                                                                              INDIANA                                                                       Philade
                                                                                                                                                                                Joliet                                                           Altoona
                                                                                                                                                Des Moines                                                                                Pittsburgh               D
          Sacramento                                     Salt Lake City       COLORADO                                                                                                                                                                      MAR
                                                                                                                                                                                                                                                               YLANBaltimore
                                                                                                                                Omaha                                        ILLINOIS                                                                                       DE

                                                                                                                                           MISSOURI                                           Indianapolis       Cincinnati           WEST
                                                                                                                                                                               Decatur
                                                                                                                                                                                                                                     VIRGINIA
          Oakland                                                                                           KANSAS
                                                                                             Denver                                                                                                                                                 VIRGINIA
                                                                                                                                                  Kansas City
                                                                                                                                                                                                                                 Huntington
                                                                                                                                                                St. Louis                                                                              Richmond
                                                                                                                                                                                                         Louisville




- 12 -
                                                                                                                                                                                                                                         Roanoke
                                                    ARIZO
                                                         NA                                                                                                                                                                                         INA
                                                                                                                          Wichita                                                                                                              CAROL
                                                                                                                                                                                                KENTUCKY                                 NORTH
                                                                            NEW MEXICO
                                                                                                                                                                                                                                        Charlotte
                                                                                                                       OKLAHOMA
                                                                                                                                                                                    TENNESSEE      Nashville
                                                                                                        TEXAS                                       ARKANSAS

                                                                               Albuquerque                                                                                                                                        SOUTH CAROLINA
                           Covina
                                                                                                                                                                                                                 GEORGIA
                                                                                                                                                                                              ALABAMA
                                                                                                                                                                                MISSISSIPPI
                                                                                                                                                             Little Rock
                                                        Mesa                                                                                                                                                           Atlanta
                                                                                                                                                                                               Birmingham


                                                                                                                                                           LOUISIANA
                                                                                                                            Ft. Worth



                                                                                                                                                                                                    FLORIDA                        Jacksonville



                                                                                                                                        Houston
                                                                                                                                                                           New Orleans

                                                                                                                                                                                                                                              Tampa

                           LEGEND

                           District Office




                                                                                                                                                                                                                                                                                                 10- 09 

Financial Highlights

Amounts in the Railroad Retirement (RR) Account not needed to pay current benefits and
administrative expenses are transferred to the NRRIT whose Board of seven trustees is
empowered to invest NRRIT assets in non-governmental assets, such as equities and debt, as
well as in governmental securities. Amounts in the SSEB Account not needed to pay current
benefits and administrative expenses are transferred to either the RR Account or the NRRIT.
Amounts transferred from the SSEB Account to the NRRIT may be used only to pay benefits or
to purchase obligations that are backed by the full faith and credit of the United States.

On February 17, 2009, President Obama signed the ARRA. Under the ARRA, the RRB has two
major benefit programs to administer, economic recovery payments, and extended
unemployment insurance benefits. For additional information on the ARRA, see page 36.

Shown on the following page are snapshots of the net position, financing sources, and benefit
payments (before elimination of inter-fund transactions) for the RRB accounts. All dollar
amounts are in millions.




                                             - 13 -
                               Net Position, Financing Sources, and Benefit Payments
                                                     (In millions)

                                                                                                           2009              2008

 NET POSITION AT SEPTEMBER 30
   Social Security Equivalent Benefit Account                                                          $      577.6      $      456.8
   Railroad Retirement Account 1/                                                                          23,399.6          25,610.8
   Railroad Retirement Administration Fund                                                                      4.2               3.5
   Railroad Unemployment Insurance Trust Fund --
     Benefit Payments 	                                                                                       27.8               99.9
     Administrative Expenses                                                                                   8.7               10.0
   Limitation on the Office of Inspector General                                                               1.3                 .5
   Dual Benefits Payments Account                                                                              7.2 	              5.7
   Federal Payments to the Railroad Retirement Accounts                                                         .5                 .5

    American Recovery and Reinvestment Act of 2009
    Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act, RRB, no year                        9.7                -
    Economic Recovery Payments – Recovery Act, RRB                                                                5.5                -
    Administrative Expenses – Recovery Act, RRB, no year                                                            -                -
    Administrative Expenses – Recovery Act, RRB                                                                     -                -
    Limitation on Administration – Recovery Act, RRB, no year                                                       -                -
    Limitation on Administration – Recovery Act, RRB                                                               .9                -

       Total 	                                                                                         $24,043.0         $26,187.7

 FINANCING SOURCES FOR FISCAL YEAR
    Social Security Equivalent Benefit Account                                                         $ 6,523.0         $ 6,130.5
    Railroad Retirement Account 2/                                                                       2,022.1          (3,305.7)
    Railroad Retirement Administration Fund                                                                113.2             109.2
    Railroad Unemployment Insurance Trust Fund --
      Benefit Payments 	                                                                                      82.0              79.2
      Administrative Expenses                                                                                 (1.3)               .9
    Limitation on the Office of Inspector General                                                              8.2               7.4
    Dual Benefits Payments Account                                                                            69.5              77.7
    Federal Payments to the Railroad Retirement Accounts 3/                                                  321.1             359.1

    American Recovery and Reinvestment Act of 2009
    Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act, RRB, no year                    10.3                   -
    Economic Recovery Payments – Recovery Act, RRB                                                           129.5                   -
    Administrative Expenses – Recovery Act, RRB, no year                                                        .1                   -
    Administrative Expenses – Recovery Act, RRB                                                                1.4                   -
    Limitation on Administration – Recovery Act, RRB, no year                                                   .1                   -
    Limitation on Administration – Recovery Act, RRB                                                           1.4                   -

       Total 	                                                                                         $ 9,280.6         $ 3,458.3

 BENEFIT PAYMENTS FOR FISCAL YEAR 4/
   Social Security Equivalent Benefit Account                                                          $ 6,241.5         $ 5,945.2
   Railroad Retirement Account                                                                           4,232.8           4,036.2
   Railroad Unemployment Insurance Trust Fund --
    Unemployment Insurance                                                                                   106.0              35.3
    Sickness Insurance                                                                                        48.1              44.7
   Dual Benefits Payments Account                                                                             69.5              77.7

    American Recovery and Reinvestment Act of 2009
    Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act, RRB, no year                    10.3                   -
    Economic Recovery Payments – Recovery Act, RRB 	                                                         129.5                   -

       Total 	                                                                                         $10,837.7         $10,139.1


1/ NRRIT-held net assets are a financing source and are included in the Railroad Retirement Account above.
2/ Change in NRRIT-held net assets is included in the Railroad Retirement Account above.
3/ 	 Includes funds subsequently transferred to other accounts. Such inter-fund transfers are eliminated in the preparation of the
     consolidated statements.
4/ 	 Net of recoveries and excludes SSA benefit payments.




                                                              - 14 -
The RRB’s financial statements are comprised of: Balance Sheet and Statements of Net Cost,
Changes in Net Position, Budgetary Resources, and Social Insurance and notes which are an
integral part of the statements. We also present as required supplementary information a
discussion of the actuarial outlook for the railroad retirement program and the Disaggregate of
Budgetary Resources.

   Comparison of Net Cost of Operations and Financing Sources

The net cost of operations for fiscal years 2009 and 2008 was $11,119.5 million and
$10,438.6 million, respectively. The details of the net cost of operations by type, amount,
increase or decrease, and percentage change from fiscal year 2008 to fiscal year 2009 are
shown below. Additional information regarding the net cost of operations and financing sources
for fiscal years 2009 and 2008 is shown on the following pages.


                                  NET COST OF OPERATIONS
                                        (In millions)

                                                                      Amount of       Percent of
                                                                       Increase        Increase
                                          FY 2009       FY 2008      (Decrease)      (Decrease)

 Interest expense – Treasury borrowing     $    160.2    $   177.1        ($16.9)          (9.5%)

 Salaries and expenses                          122.5        120.0           2.5            2.1%

 Benefit payments – RRB                    10,861.2      10,163.6          697.6            6.9%

 Other expenses                                   9.9         11.9           (2.0)        (16.8%)

  Subtotal                                 11,153.8      10,472.6          681.2            6.5%

 Less: Earned revenues                           34.3         34.0           0.3            0.9%

  Net cost of operations                  $11,119.5     $10,438.6         $680.9            6.5%




                                               - 15 -
                               FY2009
                       NET COST OF OPERATIONS
                                     (In millions)                   Benefit
                                                                    Payments
                                                                    $10,861.2
                                                                     97.37%




                                                              Other
         Salaries                                           Expenses
           and               Interest                         $9.9
        Expenses            Expense                          0.09%
          $122.5             $160.2
          1.10%               1.44%


Totals $11,153.8 million, excluding reimbursements and earned revenues of $34.3 million.




                               FY2008
                       NET COST OF OPERATIONS
                                     (In millions)                   Benefit
                                                                    Payments
                                                                    $10,163.6
                                                                     97.05%




                                                              Other
         Salaries                                           Expenses
           and               Interest                         $11.9
        Expenses            Expense                           0.1%
          $120.0             $177.1
          1.15%               1.7%


Totals $10,472.6 million, excluding reimbursements and earned revenues of $34 million.




                                        - 16 -
The following table shows financing sources (excluding changes in unexpended appropriations)
by type, amount, increase or decrease, and percentage change from fiscal year 2008 to fiscal
year 2009.


                                            FINANCING SOURCES
                                                (In millions)

                                                                           AMOUNT            PERCENT
                                                                             OF                OF
                                                                          INCREASE          INCREASE
                                               FY 2009      FY 2008      (DECREASE)        (DECREASE)

Appropriations used                             $ 531.8      $ 436.7        $     95.1           21.8

Taxes and other non-exchange revenues:
 Payroll taxes                                   4,710.5      4,938.9         (228.4)             (4.6)
 Interest revenue and other income                  38.9         45.3           (6.4)            (14.1)
 Carriers refunds – principal                       (1.2)       (15.5)          14.3             (92.3)
 RUI revenue                                        92.8         93.9           (1.1)             (1.2)
   Subtotal                                     $4,841.0     $5,062.6        ($221.6)             (4.4)

Imputed financing (amount to be provided
 by the Office of Personnel Management to
 pay future retirement benefits to RRB
 employees)                                          8.8          8.6               0.2            2.3

Transfers in:
  Financial Interchange, net                     4,003.7      3,633.2         370.5              10.2
  NRRIT                                          1,553.0      1,298.0         255.0              19.6
    Subtotal                                    $5,556.7     $4,931.2       $ 625.5              12.7

Other:
 Change in NRRIT net assets                     (1,975.2)    (7,339.9)          5,364.7          (73.1)

 Subtotal                                       $8,963.1     $3,099.2       $5,863.9            189.2

Less: Transfers out to NRRIT                         0.0          0.0               0.0              -
  Loss Contingency                                  (5.0)         0.0              (5.0)             -
    Subtotal                                        (5.0)         0.0              (5.0)             -

 Total                                          $8,958.1     $3,099.2       $5,858.9            189.0




The most significant difference between the RRB’s financial statements for fiscal year 2008 and
fiscal year 2009 was the change in NRRIT net assets. The decrease in NRRIT net assets of
$1,975.2 million is due to market fluctuations during the past year. There is a section on
page 20 that describes the NRRIT, and the NRRIT net assets balances for 2008 and 2009 are
shown in the RRB’s Financial Section of this publication.




                                                   - 17 -
                               FINANCING SOURCES (In Millions)
 

                                         FY 2009
 

      $ 6,000
                  $5,556.7

                                                $4,841.0


       4,000



       2,000

                                 $531.8
                                                               $8.8
           0
                 Transfers   Appropriations    Taxes and      Imputed    Change in
                    In           Used            Other       Financing     NRRIT
                                              Non-Exchange               Net Assets
       (2,000)                                  Revenues
                                                                          ($1,975.2)




       (4,000)



Total Financing Sources $8,963.1 million, excluding $5 million loss contingency.




                               FINANCING SOURCES (In Millions)
 

                                         FY 2008
 

      $ 6,000
                  $4,931.2                      $5,062.6


       4,000


       2,000

                                 $436.7
                                                               $8.6
           0
                 Transfers   Appropriations    Taxes and      Imputed    Change in
                    In           Used            Other       Financing     NRRIT
       (2,000)                                Non-Exchange               Net Assets
                                                Revenues

       (4,000)


       (6,000)

                                                                          ($7,339.9)
       (8,000)



                        Total Financing Sources $3,099.2 million




                                               - 18 -
   Railroad Retirement Investments at Treasury

The book value of all railroad retirement investments, including accrued interest, decreased to
$1,191.2 million as of September 30, 2009, from $1,407.3 million on September 30, 2008
(excludes NRRIT net assets). The graph below reflects the book value of the railroad retirement
investments from September 30, 2005, through September 30, 2009.



              INVESTMENT BALANCES HELD AT TREASURY (AT BOOK VALUE)
 

                           AT SEPTEMBER 30, 2005 - 2009
 


                                   (In millions, excluding NRRIT net assets)




        $1,500.0                                                         $1,407.3
 

        $1,400.0
 
                                        $1,323.6
                      $1,265.2
        $1,300.0
 
                    $1,203.7                                            $1,191.2
        $1,200.0
 

        $1,100.0
        $1,000.0
                        2005             2006                2007              2008            2009



The following chart shows the portfolio of the railroad retirement investments as of
September 30, 2009.

                  RAILROAD RETIREMENT INVESTMENTS HELD AT TREASURY
                                AS OF SEPTEMBER 30, 2009
                                   (In millions, excluding NRRIT net assets)

                                                                                  RR Account
                                                                                    $406.2
                                                                                     34%




                          SSEB
                         Account
                          $785.0
                           66%


                         AT BOOK VALUE
                            Total $1,191.2




                                                  - 19 -
     Railroad Retirement Account

On September 30, 2009 and 2008, the book values of the RR Account investments, excluding
NRRIT assets, including accrued interest, totaled $406,196,122 and $624,855,271, respectively.
The balance on September 30, 2009, consisted of $405,445,000 in 3.000 percent par value
specials (with market value equal to face value) maturing on October 1, 2009, and $751,122 in
accrued interest. The balance on September 30, 2008, consisted of $623,809,000 in
3.125 percent par value specials (with market value equal to face value) maturing on October 1,
2008, and $1,046,271 in accrued interest. Par value specials mature on the first working day of
the month following the month of issue and have a yield based on the average yield of
marketable Treasury notes with maturity dates at least 3 years away.

     Social Security Equivalent Benefit Account

On September 30, 2009 and 2008, the book values of the SSEB Account investments, including
accrued interest, totaled $784,981,660 and $782,456,367, respectively. The balance on
September 30, 2009, consisted of $783,717,000 in 3.000 percent par value specials maturing
on October 1, 2009, and $1,264,660 in accrued interest. The balance on September 30, 2008,
consisted of $781,162,000 in 3.125 percent par value specials maturing on October 1, 2008,
and $1,294,367 in accrued interest.

   National Railroad Retirement Investment Trust

The NRRIT was established by the Railroad Retirement and Survivors’ Improvement Act of
2001 (RRSIA). The sole purpose of the NRRIT is to manage and invest railroad retirement
assets. The NRRIT is a tax-exempt entity, independent from the Federal government and not
subject to Title 31, United States Code. The NRRIT is domiciled in and subject to the laws of
the District of Columbia.

The NRRIT is comprised of a Board of seven Trustees, three selected by railroad labor unions
and three by railroad companies. The seventh Trustee is an independent Trustee selected by
the other six. Members of the Board of Trustees are not considered officers or employees of
the Government of the United States.

The RRSIA authorizes the NRRIT to invest railroad retirement assets in a diversified investment
portfolio in the same manner as those of private sector retirement plans. Prior to the RRSIA,
investment of railroad retirement assets was limited to U.S. Government securities.

The NRRIT and the RRB are separate entities. The RRB remains a Federal agency and
continues to have full responsibility for administering the railroad retirement program, including
eligibility determinations and the calculation of benefit payments. The NRRIT has no powers or
authority over the administration of benefits under the railroad retirement program. Under the
RRSIA, the NRRIT is required to act solely in the interest of the RRB, and through it, the
participants and beneficiaries of the programs funded under the Railroad Retirement Act. The
RRSIA does not delegate any authority to the RRB with respect to day-to-day activities of the
NRRIT, but the RRSIA provides that the RRB may bring a civil action to enjoin any act or
practice of the NRRIT that violates the provisions of the RRSIA or to enforce any provision of
the RRSIA.




                                                  - 20 -
Under the RRSIA, the financial statements of the NRRIT are required to be audited annually by
an independent public accountant. In addition, the NRRIT must submit an annual management
report to the Congress on its operations, including a Statement of Financial Position, a
Statement of Cash Flows, a Statement on Internal Accounting and Administrative Control
Systems, the independent auditor’s report, and any other information necessary to inform the
Congress about the operations and financial condition of the NRRIT. A copy of the annual
report must also be submitted to the President, the RRB, and the Director of the Office of
Management and Budget.

Program, Operations, and Financial Performance and Results

During fiscal year 2009 (ended September 30, 2009), railroad retirement and survivor benefit
payments totaled $10.5 billion, net of recoveries. Unemployment and sickness insurance
benefit payments totaled $154.1 million in fiscal year 2009, net of recoveries. During fiscal year
2009, the RRB also paid benefits on behalf of SSA (for which the RRB is reimbursed)
amounting to $1.3 billion to about 115,000 beneficiaries.

In fiscal year 2009, the RRB continued to focus its efforts on providing excellent customer
service to current and former railroad workers and their family members. Our regular workloads
in fiscal year 2009 included:

      Providing payments to 589,000 retirement and survivor beneficiaries.
      Providing payments to 24,000 unemployment insurance beneficiaries.
      Providing payments to 18,000 sickness insurance beneficiaries.
      Processing 28,158 retirement, survivor, and disability applications for benefits and then
       determining eligibility (through May 2009).
      Processing 250,366 applications and claims for unemployment and sickness insurance
       benefits (through May 2009).
      Issuing 276,983 certificates of employee railroad service and compensation (mailed by
       the contractor on June 12, 2009).

During fiscal year 2009, the RRB used 46 specific program performance objectives, including
several with multiple indicators, to manage and track progress in meeting its long-term strategic
plan goals. These objectives were accomplished with direct appropriations of $105,463,000 for
administration of the RRB. (A breakdown of administrative expenses by strategic goal is not
available at the time of this report.) Agency performance with respect to the key performance
indicators is covered in the following section. For most performance measures, actual full-year
performance results for fiscal year 2009 were not available at the time this report was published.
For those objectives, we reported part-year performance information for fiscal year 2009, if
available. We also reported actual results from prior years, as applicable.

Summary of Achievement by Strategic Goal

Strategic Goal I: Provide Excellent Customer Service. We aim to satisfy our customers’
expectations for quality service both in terms of service delivery options and levels and manner
of performance. For fiscal year 2009, we expect that benefit payment accuracy rates will
exceed 99 percent, and we are striving to meet or exceed the timeliness goals by year-end.




                                              - 21 -
Strategic Goal II: Serve as Responsible Stewards for Our Customers’ Trust Funds and
Agency Resources. The RRB is committed to fulfilling its fiduciary responsibilities to the rail
community. For fiscal year 2009, we expect to meet or exceed our performance goals.

Strategic Goals and Objectives

The RRB has a long and distinguished tradition of excellence in serving our customers, and we
will strive to continue that tradition in the coming years. We have achieved high levels of
accuracy and timeliness in the processing of retirement and survivor benefits, while embracing
new technology, especially in areas where it can improve customer service and efficiency. We
have also achieved very high scores for customer service in independent assessments of our
operations related to initial railroad retirement applications, unemployment and sickness
insurance benefits, survivor applications and disability applications.

The two overriding strategic issues for the upcoming planning period relate to customer service
and trust fund stewardship. The service issue involves our ability to continue to meet our
customers’ expectations for personal, high quality service, and our ability to position the agency
to meet rising customer expectations for new and improved services in the future. The
stewardship issue has multiple aspects, some of which arise from legislative changes and
others which relate to our ongoing ability to meet our program integrity responsibilities and to
maintain effective, efficient and secure agency operations. To effectively address these issues,
we have established two strategic goals on which we will focus our efforts.

 Provide excellent customer service

We aim to satisfy our customers’ expectations for quality service both in terms of service
delivery options and levels and manner of performance. Our Annual Performance Budget for
Fiscal Year 2009 reflects four strategic objectives that focus on the specifics of achieving this
goal.

      Pay benefits accurately and timely.
      Provide relevant, timely, and accurate information which is easy to understand.
      Provide a range of choices in service delivery methods.
      Ensure efficient and effective business interactions with covered railroad employers.

 Serve as responsible stewards for our customers’ trust funds and agency resources

The RRB is committed to fulfilling its fiduciary responsibilities to the rail community. Our
performance budget reflects four objectives that direct our focus on this goal.

      Ensure that trust fund assets are projected, collected, recorded and reported
       appropriately.
      Ensure the integrity of benefit programs.
      Ensure effectiveness, efficiency, and security of operations.
      Effectively carry out the responsibilities of the RRB under the RRSIA with respect to the
       activities of the NRRIT.

The RRB of the future will continue to be customer-focused, quality-driven, and fiscally
responsible. Our overall mission and responsibilities as a Federal agency will remain
unchanged, even though our organization may be smaller in terms of staff and budget



                                               - 22 -
resources. We will use creativity, automation and innovation to continue to deliver best-in-class
service while ensuring cost-effective and efficient operations.

Our customers will have a broad range of choices for conducting their business with the agency,
including more Internet options that will allow for private, secure transactions from their homes
at any time of the day. Railroad employers will be able to conduct most, if not all, of their routine
transactions with the RRB through secure and efficient electronic systems. Direct customer
feedback will shape our planning efforts and enhance our responsiveness. Our customer
service levels will serve as a standard of excellence for the rest of the Federal community.

The agency’s internal culture will reflect a strong commitment to its employees, and a drive to
ensure continual learning at all levels. Given the large percentage of employees who will be
eligible for retirement in the near future, senior employees will engage in knowledge transfer
and sharing as a top priority.

Our ultimate measures of success will be the sustained satisfaction level of our customers and
our ability to respond to their needs and concerns.

Validation of Performance Information. RRB has implemented comprehensive administrative
procedures to ensure that reported performance information is accurate and valid.
Administrative Circular RRB-2 establishes standards and assigns responsibility for collecting,
documenting, validating, certifying, reporting and retaining information related to the actual
performance data reported for objectives in RRB’s Annual Performance Budget and
Government Performance and Results Act Report.

The procedures require that reporting managers develop and maintain written procedures for:

      Collecting data related to each objective,
      Testing and validating performance data to ensure accuracy,
      Retaining source documents for future reference, and
      Attesting to the accuracy of performance information reported.

Members of RRB’s Planning Council review the certified performance data and attestations for
completeness and to identify any problems. The Planning Council also compiles the
performance data for agency reports, and monitors compliance with the requirements of
Administrative Circular RRB-2.

Members of RRB’s Executive Committee review performance issues related to their areas of
responsibility and assign follow-up action, as necessary. The Executive Committee also
reviews and approves performance reports before releasing the drafts for approval by the Board
Members.

                            __________     __________      __________


The following begins a discussion of our key performance indicators.




                                               - 23 -
Discussion of Key Performance Indicators

The RRB has identified the following 10 key performance indicators, which represent our most
important responsibilities.

Key performance indicator 1: Initial recurring retirement payment accuracy
(Objective I-A-1a)

Our overall strategic goal is to achieve a railroad retirement benefit payment recurring accuracy
rate of at least 99 percent on our initial processing of applications for retirement (employee,
spouse and widow) benefits.

FY 2009 goal:            99.75% 
 

Our FY 2009 performance: Not available 
 
                     Initial Retirement Payment Accuracy

Full-year data will be available in fiscal year               100%
2010.

FY 2008 goal:            99.50%
Our FY 2008 performance: 99.75%                               98%
                                                                     FY 06    FY 07   FY 08    FY 09

We met our goal. Automation plays a key         Goal      99.00% 99.00% 99.50% 99.75%
role in assuring initial benefit payment        Actual 99.91% 99.82% 99.75%        N/A
accuracy by reducing the number of
erroneous payments. Automation will become more critical in this area as experienced
personnel retire in the coming years.

Data definition: This is the percentage of the dollar value of initial recurring retirement benefit
payments paid correctly as a result of adjudication actions performed, based on a review of a
sample of cases.




                                                  - 24 -
 

Key performance indicator 2: Unemployment insurance payment accuracy
(Objective I-A-2a)

Our overall strategic goal is to achieve a railroad unemployment insurance benefit payment
accuracy rate of at least 99 percent.

FY 2009 goal:              99.25%
Our FY 2009 performance: 99.89%                             Unemployment Insurance Payment
              through the 2nd quarter                                 Accuracy
                                                                 (FY 09 actual is through 3/31/09.)
We are achieving our goal. Automation plays
a key role in assuring benefit payment accuracy          100%
by reducing the number of erroneous
payments.                                                 98%


FY 2008 goal:            99.00%                           96%
                                                                   FY 06      FY 07      FY 08        FY 09
Our FY 2008 performance: 99.71%
                                                         Goal     98.00%     98.00%     99.00%       99.25%
Data definition: This is the percentage of the        Actual 99.08% 99.64%              99.71%       99.89%
dollar value of unemployment insurance benefit
payments paid correctly as a result of 
 

adjudication actions performed, based on a review of a sample of cases. 
 



Key performance indicator 3: Sickness insurance payment accuracy (Objective I-A-2b)

Our overall strategic goal is to achieve a railroad sickness insurance benefit payment accuracy
rate of at least 99 percent.

FY 2009 goal:              99.80%
Our FY 2009 performance: 99.76%                                 Sickness Insurance Payment
 

              through the 2nd quarter                                    Accuracy
 

                                                                (FY 09 actual is through 3/31/09.)

We are near our goal. Automation plays a key
role in assuring benefit payment accuracy by             100%
reducing the number of erroneous payments.
                                                          98%

FY 2008 goal:            99.70%                           96%
Our FY 2008 performance: 99.89%                                    FY 06      FY 07      FY 08        FY 09

                                                         Goal      98.00%    98.00%     99.70%       99.80%
Data definition: This is the percentage of the        Actual 99.78% 100.00%             99.89%       99.76%
dollar value of sickness insurance benefit
payments paid correctly as a result of
adjudication actions performed, based on a review of a sample of cases.




                                             - 25 -
 

Key performance indicator 4: Timeliness of initial Railroad Retirement annuity payments,
when advanced filed (Objective I-A-5)

FY 2009 goal:               92.75%
Our FY 2009 performance: 93.40%                            The RRB makes a decision to pay or
              through the 2 nd quarter                     deny a railroad retirement employee
                                                           or spouse initial annuity application
We are exceeding our goal. Automation plays a             within 35 days of the annuity beginning
key role in assuring benefit payment timeliness           date, if advanced filed. (FY 09 actual is
                                                                      through 3/31/09.)
for this performance indicator.

FY 2008 goal:            92.00%                           100%
Our FY 2008 performance: 92.40%                           95%

Data definition: This goal is included in the RRB           90%
Customer Service Plan. Prior to fiscal year 2008,           85%
the goal was stated from the customer’s                           FY 06   FY 07   FY 08    FY 09
perspective and attempted to measure timeliness           Goal   92.00% 92.00% 92.00% 92.75%
to the point of delivery by reporting performance         Actual 92.90% 92.80% 92.40% 93.40%
as the percent of retirement age and service
applications for which all RRB processing was
completed within 30 days, allowing 5 days to account for handling by the Department of the
Treasury or U.S. Postal Service (USPS). An audit by the RRB’s OIG (05-05, dated May 17,
2005), however, found technical problems with the data, specifically, the time to voucher the
case for payment was not included in the measure. Since that time, we qualified the
performance report to indicate that, due to system limitations, our tracking did not include all
internal processing time, but only measured to 30 days adjudicative processing time. In its
audit, the RRB’s OIG also found a reporting flaw in our measurement process for 3rd party
payment cases, which affected 2 out of 150 cases in the sample. For fiscal years before 2009,
the performance level reported is inaccurate for the few cases of this type processed during the
reporting period, and is measured as 30 days to the end of the adjudicative process.

In fiscal year 2008, we reworded the goal to express performance from RRB’s perspective. The
new goal is stated in the chart above.

Effective October 1, 2008, the system problems described above were corrected allowing us to
track performance for the entire internal processing time. Due to the complexity of the system
revisions, the system is not to the efficiency level we expect and the data generated still
requires some manual adjustment. Therefore, while we are still reviewing system data and will
continue to do so through fiscal year 2009, we believe that performance reported for fiscal year
2009 now accurately reflects the percentage of applications processed to the point of payment
or denial within 35 days of the annuity beginning date, if advanced filed. Beginning with fiscal
year 2009, there is no longer a need to qualify the measure for this objective to refer to
“adjudicative processing days.” The other errors found by the OIG have also been corrected.

We will continue to disclose the previous problems until the point where the performance for
fiscal year 2008 and earlier is no longer included in this report.




                                              - 26 -
 

Key performance indicator 5: Timeliness of initial Railroad Retirement annuity payments,
if not advanced filed (Objective I-A-6)

FY 2009 goal:               96.80% 

Our FY 2009 performance: 96.90%                             The RRB makes a decision to pay or

              through the 2 nd quarter                    deny a retirement employee or spouse
                                                             initial annuity application within 60
We are achieving our goal. Automation plays a               days of the date the application was
                                                          filed. (FY 09 actual is through 3/31/09.)
key role in assuring benefit payment timeliness
for this performance indicator.
                                                          100%
FY 2008 goal:            96.00%                           98%
Our FY 2008 performance: 96.10%                           96%
                                                          94%
Data definition: This goal is included in the RRB           92%
Customer Service Plan. Prior to fiscal year 2008,           90%
the goal was stated from the customer’s                            FY 06  FY 07   FY 08    FY 09
perspective and attempted to measure timeliness            Goal   94.00% 95.00% 96.00% 96.80%
to the point of delivery by reporting performance
                                                           Actual 96.20% 96.80% 96.10% 96.90%
based the percent of retirement age and service
applications for which all RRB processing was
completed within 60 days, allowing 5 days to account for handling by the Department of the
Treasury or U.S. Postal Service (USPS). An audit by the RRB’s OIG (05-05, dated May 17,
2005), however, found technical problems with the data, specifically the time to voucher the
case for payment was not included in the measure. Since that time, we qualified the
performance report to indicate that, due to system limitations, our tracking did not include all
internal processing time, but only measured to 60 days adjudicative processing time. While the
issues described in detail for Key Indicator 4 apply to these non-advanced filed cases as well,
the net impact on actual performance levels was not as significant.

In fiscal year 2008, we reworded the goal to express performance from RRB’s perspective. The
new goal is stated in the chart above.

Effective October 1, 2008, the system problems described above were corrected allowing us to
track performance for the entire internal processing time. Due to the complexity of the system
revisions, the system is not to the efficiency level we expect and the data generated still
requires some manual adjustment. Therefore, while we are still reviewing system data and will
continue to do so through fiscal year 2009, we believe that performance reported for fiscal year
2009 now accurately reflects the percentage of applications processed to the point of payment
or denial within 60 days of the date the application was filed. Beginning with fiscal year 2009,
there is no longer a need to qualify the measure for this objective to refer to “adjudicative
processing days.” The other errors found by the OIG have also been corrected.

We will continue to disclose the previous problems until the point where the performance for
fiscal year 2008 and earlier is no longer included in this report.




                                              - 27 -
 

Key performance indicator 6: Timeliness of new survivor benefit payments
(Objective I-A-7)
                                                               RRB m akes a decision to pay, deny or
FY 2009 goal:               94.00%
                                                            transfer to SSA an initial annuity application
Our FY 2009 performance: 94.50%                                for a retirem ent survivor not already
              through the 2 nd quarter                        receiving a benefit w ithin 60 days of the
                                                                annuity beginning date or date filed
We are achieving our goal. Automation                          (w hichever is later). (FY09 is through
plays a key role in assuring benefit payment                                   3/31/09.)
timeliness for this performance indicator.                 100%

FY 2008 goal:            94.00%                            90%
Our FY 2008 performance: 92.90%                            80%

Data definition: This goal is included in the          70%
RRB Customer Service Plan. Prior to fiscal
                                                       60%
year 2008, the goal was stated from the                       FY 06    FY 07    FY 08    FY 09
customer’s perspective and attempted to
                                                      Goal   80.00% 90.00% 94.00% 94.00%
measure timeliness to the point of delivery by
reporting performance based on the percent            Actual 93.20% 93.30% 92.90% 94.50%
of applications where all RRB processing was
completed within 60 days, allowing 5 days to account for Treasury or USPS handling. In fiscal
year 2008, we reworded the goal to more precisely measure only RRB internal processing time.
 The indicator was again restated in our final performance budget for fiscal year 2010 to more
accurately describe how timeliness is measured. The new goal is stated in the chart above.




                                               - 28 -
 

Key performance indicator 7: Timeliness of spouse to survivor benefit payment
conversions (Objective I-A-8)

FY 2009 goal:               95.10%
Our FY 2009 performance: 94.20%                              RRB makes a decision to pay, deny or
              through the 2 nd quarter                    transfer to SSA an initial annuity application
                                                         for a survivor already receiving benefits as a
We have not yet achieved our goal.                         spouse within 30 days of the RRB's receipt
Automation plays a key role in assuring                      of first notice of the employee's death.
benefit payment timeliness for this                              (FY 09 actual is through 3/31/09.)
performance indicator.
                                                     100%
FY 2008 goal:            94.00%
Our FY 2008 performance: 95.10%                          95%

                                                         90%
Data definition: This goal is included in the
RRB Customer Service Plan. Prior to fiscal            85%
year 2008, the goal was stated from the
                                                      80%
customer’s perspective and attempted to                      FY 06     FY 07    FY 08     FY 09
measure timeliness to the point of delivery by
reporting performance based on the percent           Goal   90.00%    93.00%   94.00%    95.10%
of applications where all RRB processing             Actual 95.70%    94.80%   95.10%    94.20%
was completed within 30 days, allowing
5 days to account for Treasury or USPS handling. In fiscal year 2008, we reworded the goal to
more precisely measure only RRB internal processing time. The indicator was again restated in
our final performance budget for fiscal year 2010 to more accurately describe how timeliness is
measured. The new goal is stated in the chart above.




                                             - 29 -
 

Key performance indicator 8: Timeliness of unemployment or sickness insurance
payments (Objective I-A-12)

FY 2009 goal:               99.80%
Our FY 2009 performance: 99.70%                                   RRB certifies a payment or releases a
              through the 2 nd quarter                              letter of denial of UI or SI benefits
                                                                   within 10 days of the date the RRB
We are near our goal. Automation plays a key                                receives the claim.
role in assuring benefit payment timeliness for this                 (FY 09 actual is through 3/31/09.)
performance indicator.
                                                                 100%
 

FY 2008 goal:            99.70%
Our FY 2008 performance: 99.70%                                   99%
 


                                                           98%
 

Data definition: This goal is included in the RRB
Customer Service Plan. Prior to fiscal year 2008,          97%
 

the goal was stated from the customer’s                             FY 06
 
 FY 07
 
 FY 08
 
 FY 09
 

perspective and attempted to measure timeliness to       Goal
 
   98.00%
 
 99.00%
 
 99.70%
 
 99.80%
 

the point of delivery by reporting performance
                                                         Actual
 
 9
9.80%
 
 99.70%
 
 99.70%
 
 99.70%
 

based on the percent of applications where all RRB
processing was completed within 10 days, allowing
5 days to account for Treasury or USPS handling. In fiscal year 2008, we reworded the goal to
more precisely measure only RRB internal processing time. The new goal is stated in the chart
above.


Key performance indicator 9: Timeliness of disability decisions (Objective I-A-13)

FY 2009 goal:               70.00%
Our FY 2009 performance: 62.80%                                  The RRB makes a decision to pay or
              through the 2 nd quarter                          deny a benefit for a disabled applicant
                                                                 or family member within 100 days of
                                                                    the date the application is filed.
We have not yet achieved our goal. Loss of
                                                                   (FY 09 actual is through 3/31/09.)
staff and reassignment of some examiners to
special projects impacted the timeliness of
disability decisions this fiscal year. We are taking           100%

actions to improve performance including
                                                                80%
expanded efforts to monitor aging cases,
reassignment of staff and use of overtime.                      60%

FY 2008 goal:            68.00%                                 40%
                                                                       FY 06    FY 07     FY 08    FY 09
Our FY 2008 performance: 70.40%
                                                              Goal     55.00%   63.00%   68.00%    70.00%
Data Definition: This goal is included in the           Actual 65.90% 69.60% 70.40% 62.80%
RRB Customer Service Plan. Prior to fiscal year
2008, the goal was stated from the customer’s
perspective and attempted to measure timeliness to the point of delivery by reporting
performance based on the percent of applications where all RRB processing was completed
within 100 days, allowing 5 days to account for Treasury or USPS handling. In fiscal year 2008,
we reworded the goal to more precisely measure only RRB internal processing time. The new
goal is stated in the chart above.


                                                  - 30 -
 

Key performance indicator 10: Return on investment in program integrity activities
(Objective II-B-1)

FY 2009 goal:            $5.36 : $1
Our FY 2009 performance: Not available                       Achieve a return of at least $3.60 for
                                                            each dollar spent on program integrity
FY 2009 data will be available in FY 2010.                                activities.


FY 2008 goal:            $5.00 : $1                        $8.00
Our FY 2008 performance: $5.76 : $1                        $6.00
                                                           $4.00
We exceeded our goal. Our fiscal year 2008
                                                           $2.00
goal was to achieve a return of $5.00 for each
dollar spent on program integrity activities. We           $0.00
                                                                    FY 06   FY 07     FY 08    FY 09
achieved a rate of return of $5.76 for each dollar
spent.                                                     Goal     $3.80   $3.80     $5.00    $5.36
                                                           Actual   $5.36   $5.48     $5.76     N/A
As part of our fiduciary responsibilities to the rail
community, we must ensure that the correct benefit amounts are being paid to the right people.
We match our benefit payments against SSA’s earnings and benefits database, the Centers for
Medicare and Medicaid Services’ utilization and death records, the Office of Personnel
Management’s benefit records, and State wage reports, usually via computer tapes, and
administer other benefit monitoring programs to identify and prevent erroneous payments. We
also refer some cases to the RRB’s OIG for investigation. After investigation, the OIG may
pursue more aggressive collection methods, which include civil and criminal prosecution.

Data definition: This is the ratio of the sum of the dollar recoveries and savings, to the labor
dollars spent.




                                               - 31 -
 

Future Plans/Objectives

       Program Improvements

	 	     Medicare Modernization Act (MMA) The Medicare Prescription Drug, Improvement and
         Modernization Act of 2003, otherwise known as the Medicare Modernization Act (MMA),
         added a prescription drug benefit (Part D) to the Medicare program effective January
         2006. The MMA provides beneficiaries the option to pay Parts C (Medicare Advantage
         plan) and D premiums directly to their plans or to have premiums withheld from benefits
         paid by the Social Security Administration (SSA), the Office of Personnel Management, or
         the Railroad Retirement Board.

         The RRB renewed working with the Centers for Medicare & Medicaid Services (CMS) in
         June 2008 to implement Medicare Parts C and D premium withholding from RRB benefits.
         Work on Parts C and D premium withholding had been suspended while we focused
         available resources on implementing provisions of the MMA that require certain
         beneficiaries to pay income-related monthly adjustment amounts (IRMAAs) for their
         Medicare Part B coverage, and to allow time for CMS to review and resolve problems with
         the withholding of Parts C and D premiums from benefits paid by SSA.

         A joint RRB and CMS workgroup issued a report in January 2009 that provided a process
         concept and high level requirements to enable Parts C and D premium withholding from
         RRB benefits. Along with CMS, we have established a target implementation date of July
         2010.

	 	     Nationwide Toll-Free Service In fiscal year 2009, the agency successfully implemented
         a national toll-free telephone service based upon a contract awarded through
         GSA-Networx Universal to Qwest Government Services, Inc. The features include a
         single nationwide toll-free number, automatic distribution of customer calls, interactive
         voice response (IVR) functionality, an upgrade of the existing data network, and
         implementation of Voice over Internet Protocol (VoIP) telephone service at all RRB field
         offices. The toll-free number provides a single access point to claims representatives in
         the agency’s field service offices and to IVR services. Future improvements to the toll-free
         system will include better data collection and analysis regarding customer usage trends.
         We also have long-term plans to enhance the system to provide additional interactive
         voice services for various customer transactions.

	 	     Internet Unemployment and Sickness Insurance Benefit Services In 2004, the RRB
         made applications and claims for unemployment insurance benefits available online at
         www.rrb.gov. In calendar year 2005, the RRB completed a project to automate the
         processing of unemployment insurance benefit claims that pass mechanical screening for
         eligibility. In 2005, the RRB also implemented a service enabling unemployment and
         sickness insurance beneficiaries to view their account statements online. The account
         statement lists recent forms filed and unemployment and sickness insurance benefit
         payments. In 2009, the RRB plans to implement a process to allow beneficiaries to submit
         online biweekly claims for sickness insurance benefits. To increase efficiency, we will then
         implement an automated eligibility screening process so those claims that pass will be
         automatically forwarded to employers for prepayment verification.




                                                 - 32 -
	 	     Employer Reporting System (ERS) – Internet Site In February 2009, we completed
         the automation of the pre-payment and post-payment verification notices (Forms ID-4k
         and ID-4e) sent to employers for benefits we pay under the Railroad Unemployment
         Insurance Act (RUIA).

         There are many opportunities to further enhance the system and add functionality to
         streamline the business interactions with rail employers and improve timeliness and
         accuracy of benefit payments. The sequence and schedule for developing these have not
         yet been determined.

         Currently, the agency is working toward converting the current system and forms to a
         software language which is compatible with existing standards, and which should enable
         in-house staff to add new functionality to the system without the need to obtain contractor
         support.

         In addition, the ERS Internet-based version of Form BA-3, Annual Report of Service and
         Compensation, will be developed, yielding 7 additional services and replacing several
         post-reporting requests for information from employers. We also plan to provide additional
         functionality including automated referrals, alerts, notifications, and electronic information
         exchanges with employers.

       Systems and Controls

The RRB continually evaluates the effectiveness and efficiency of its operations using ongoing
assessments and reviews of management controls, internal and external audits, quality control
and assurance reviews, program integrity activities, and customer satisfaction surveys.

Under the direction of a Management Control Review Committee (MCRC) composed of senior
managers from its program, information services, administrative, and financial operations, the
RRB has divided these operations functionally into 43 assessable units. The number of
assessable units can vary from year to year as operations are restructured to accommodate
changes precipitated by such factors as new and revised missions, reduced resources, and
increased automation.

The mission, key performance indicators, workflow, control objectives and techniques,
guidance, automated systems support, impact, and vulnerability of each assessable unit are
documented. The RRB maintains and annually updates a 5-year plan for review of the
assessable units. The official responsible for each assessable unit prepares an annual
assessment of key indicators and open or new issues requiring management’s attention. High
impact and vulnerable assessable units are scheduled for more frequent, in-depth reviews as
deemed necessary by the MCRC in consultation with senior management. During fiscal year
2009, responsible officials performed in-depth reviews of 13 assessable units, assessed all 43,
and certified 41.

The RRB reported a material weakness relating to deficiencies in Information Technology
Security in fiscal year 2002; the remaining action needed to address these deficiencies is
implementation of access control recommendations. In fiscal year 2005, the OIG reported on
Information Technology Security as a material weakness in the fiscal year 2005 Performance
and Accountability Report. It reported on deficiencies in meeting FISMA requirements for risk
assessments, and testing and evaluation. The Responsible Official certification for fiscal year
2009 includes information about actions underway to address these deficiencies.


                                                  - 33 -
In fiscal year 2008, the OIG identified Financial Reporting as a material weakness. The agency
has implemented actions to improve the financial reporting process in fiscal year 2009 and will
continue to work with the OIG to implement any necessary additional enhancements to that
process.

For fiscal year 2009, the OIG recently identified Non-Integrated Subsystems as a material
weakness.

The agency is committed to resolving these reported weaknesses and will closely monitor
progress during fiscal year 2010.




                                             - 34 -
                                   Management Assurances

The Railroad Retirement Board states and assures that to the best of our knowledge:

1. 	 In accordance with Office of Management and Budget Circular No. A-123, Section VI (B),
     we are issuing a qualified statement of assurance considering the OIG-identified material
     weaknesses indicated under paragraph (4). Except as indicated under (4), the system of
     internal control of this agency is functioning and provides reasonable assurance as to the:
     efficiency and effectiveness of programs and operations; reliability of financial and
     performance information; and compliance with laws and regulations. These controls satisfy
     the requirements of the Federal Managers’ Financial Integrity Act §2.

2. 	 The financial management systems of this agency maintain accountability for assets and
     provide reasonable assurance that obligations and costs are in compliance with applicable
     law, and that performance data and proprietary and budgetary accounting transactions
     applicable to the agency are properly recorded and accounted for to permit the timely
     preparation of accounts and reliable performance information. The financial management
     systems at this agency satisfy the requirements of the Federal Managers’ Financial Integrity
     Act §4.

3. 	 The financial management systems of this agency provide the agency with reliable, timely,
     complete, and consistent performance and other financial information to make decisions and
     efficiently operate and evaluate programs and substantially satisfy the requirements of the
     Government Performance and Results Act and OMB Circular No. A-11.

4. 	 The RRB’s Inspector General, in his auditor’s report, identifies Information Technology
     Security, Financial Reporting, and Non-Integrated Subsystems as material weaknesses.


                     Description of OIG-Identified Material Weaknesses

1. 	 Information technology security at the RRB is weakened by deficiencies in risk assessment,
     testing and evaluation, and access controls in both the general support and major
     application systems.

   In fiscal year 2010, the plan is to focus on resolving the most significant audit
   recommendations. We will then evaluate the Information Technology Security material
   weakness to determine whether it has been eliminated.

2. 	 The OIG also identified Financial Reporting as a material weakness. The Bureau of Fiscal
     Operations will continue to work with the OIG to implement any necessary enhancements to
     the financial reporting process.

3. 	 The OIG recently identified Non-Integrated Subsystems as a material weakness. The
     agency will evaluate this area and determine what action is necessary to address the
     reported material weakness.

                                                                              Original signed by:

                                                                Michael S. Schwartz, Chairman
                                                            V. M. Speakman, Jr., Labor Member
                                                         Jerome F. Kever, Management Member


                                              - 35 -
   Summary of Actuarial Forecast

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2009, under our intermediate employment
assumption. The Required Supplementary Information presents sensitivity analyses showing
the impact of changes in employment and investment return assumptions. Although under our
intermediate assumption no cash flow problems arise over the period 2009-2083, the sensitivity
analyses show that, under the current financing structure, actual levels of railroad employment
and investment return over the coming years will determine whether additional corrective action
is necessary.

Section 7105 of the Technical and Miscellaneous Revenue Act of 1988 requires the RRB to
submit an annual report to Congress on the financial status of the railroad unemployment
insurance system. Projections were made for the various components of income and outgo
under each of 3 employment assumptions for the 11 fiscal years 2009-2019. The results
indicate that the Railroad Unemployment Insurance (RUI) Account will be solvent during the
11-year projection period except for small, short-term cash-flow problems in fiscal years 2010
and 2011 under the intermediate and pessimistic assumptions. Full repayment of the loans is
expected by the end of fiscal year 2011 for the intermediate assumption or during fiscal year
2012 for the pessimistic assumption.

Limitations of the Financial Statements

The limitations of the principal financial statements are as follows:

   1. The principal financial statements have been prepared to report the financial position and
      results of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515(b).

   2. While the statements have been prepared from the books and records of the entity in
      accordance with U.S. generally accepted accounting principles for Federal entities and
      the formats prescribed by OMB, the statements are in addition to the financial reports
      used to monitor and control budgetary resources which are prepared from the same
      books and records.

   3. The statements should be read with the realization that they are for a component of the
      U.S. Government, a sovereign entity.

American Recovery and Reinvestment Act of 2009

Under the ARRA, the RRB has two major benefit programs to administer. These are:

   	 	Economic Recovery Payments (ERP). This program, authorized by Section 2201 of the
       ARRA, provides for one-time payments of $250 to eligible adult beneficiaries under the
       RRA. The RRB paid $128,718,500 to 514,874 individuals in late May 2009. We are
       planning to pay approximately 3,000 additional people through 6 quarterly catch-up runs
       scheduled through the end of 2010.

       In accordance with guidance from OMB, we have conducted a risk assessment of this
       program to ensure that funds are being awarded and distributed as authorized by law
       and that risks of waste, fraud and abuse are mitigated through reasonable and effective
       management controls. The risk assessment includes descriptions of possible events


                                               - 36 -

      that could occur in the payment and post-payment process and corresponding
      descriptions of how those events would be resolved. It also includes a risk matrix to
      describe the most probable errors that could occur in the ERP program and what
      controls are in place to mitigate those risks.

      The results of the risk assessment indicated that the risks associated with the ERP
      program are low. This is primarily due to the following factors:

          we are able to use many previously existing, tested and reliable systems to assist in
           making these payments;
          we have experienced staff in place who are familiar with claims adjudication;
          the benefit to be paid is a standard, fixed amount for all beneficiaries; and
          we are working with other agencies who also have experienced staff and existing
           systems in place to assist with the overall program.

   	 	Extended Unemployment Benefits. This program, authorized by Section 2006 of the
       ARRA, provides for up to 13 weeks of additional extended unemployment benefits to rail
       employees who have already exhausted their unemployment benefits under the RUIA.
       An appropriation of $20 million is available to fund this program. The RRB began
       making payments and mailing claims for these special extended unemployment benefits
       on June 30, 2009.

      Because the Extended Unemployment Benefits program is directly related to the regular
      unemployment insurance program, it will be assessed as part of our normal quality
      assurance process for the RUIA program, which will be conducted in fiscal year 2010.

For more detailed information on the RRB’s ARRA programs, see
http://www.rrb.gov/recovery/default.asp.




                                            - 37 -
 

PAGE INTENTIONALLY LEFT BLANK 
 

            PERFORMANCE SECTION –

GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA)
                  REPORT
PAGE INTENTIONALLY LEFT BLANK 
 

Performance Section - Government Performance and Results Act (GPRA) Report


The following performance report is based on the major goals and objectives from the RRB's
Annual Performance Budget for Fiscal Year 2009. The indicators we developed support our
mission and communicate our intentions to meet challenges and seek opportunities for greater
efficiency, effectiveness, and economy.

To achieve our performance goals, the RRB holds managers accountable for achieving program
results and improving program effectiveness by focusing on results, service quality, and
customer satisfaction. In addition, the annual performance budget is used to help managers
improve service delivery by requiring that they plan for meeting program objectives and by
providing them with information about program results and service quality. To provide
reasonable assurance that the reported performance information is relevant and reliable,
performance goals are incorporated into performance standards for managers and supervisors,
and monitored on an agency-wide basis. We have also implemented an initiative to conduct
validation studies on selected indicators, and developed an administrative circular regarding
documentation, validation and retention of performance data.

The RRB’s two benefit programs (the RRA and the RUIA) were evaluated in fiscal year 2007
under the Program Assessment and Rating Tool (PART) process. Each program earned an
overall performance rating of “Effective,” which is the highest rating a program can achieve. As
a result of the PART process, the agency set more ambitious annual performance targets,
defined several long-term goals and laid out three program improvement initiatives which are
discussed below. The agency’s Performance Improvement Officer, appointed in fiscal year
2008 in response to Executive Order 13450: “Improving Government Program Performance,”
monitors the progress of those initiatives as well as reviews and evaluates ongoing program
performance.

PART program improvement plans

   Data optimization – During 2008 and 2009, the RRB developed a new database
   representing master data for all lines of business. We also used business intelligence
   software to synchronize the agency’s legacy databases with the new master data. The data
   optimization project was completed in February 2009, and we are now going forward with a
   long-term systems modernization initiative, under which applications will be adapted to
   address the master database and the individual legacy databases will be retired.

   Expansion of field imaging – In 2007, the RRB conducted a pilot project to image documents
   in 4 of the 53 field offices. The purpose of the project was to determine the feasibility of
   using the technology to make field office documents available online to all RRB staff for
   processing benefit payments and responding to inquiries from our beneficiaries. The pilot
   was successful and the new technology was expanded to 25 more field offices in 2008.
   Imaging was implemented in the remaining 24 offices by the end of September 2009.

   Nationwide toll-free service – In 2007, the RRB awarded a contract to Qwest Government
   Services for a managed nationwide toll-free telephone service. This contract was one of the
   first in the Federal government under the GSA-Networx Universal program. The features of
   the new service include a single nationwide toll-free number, automatic distribution of
   incoming customer calls to available field claims representatives, interactive voice response
   (IVR) functionality, an upgrade of the existing data network, and implementation of Voice


                                             - 41 -
   over Internet Protocol (VoIP) telephone service in all RRB field offices. The design of the
   nationwide toll-free service supports all of the self-service options and features of the former
   RRB HelpLine which it replaced. System development began in 2008, and was fully
   implemented in all RRB field offices by February 2009.

Automation and e-Government initiatives

In addition to the initiatives being tracked under the PART, over the last several years, the RRB
has also implemented significant automation initiatives and other improvements. Because of
these accomplishments, the RRB is able to operate with reduced resources and continue to
streamline its operations with the assistance of information technology. We believe that
significant new investments in information technology and further management improvements
will help us to meet or exceed our customer service goals efficiently.

In 2009, the RRB implemented a reference identification number in its RRAILS correspondence
system to replace the use of the social security number (SSN) in many instances. The unique
reference number, derived from the SSN by a complex algorithm, helps to protect personally
identifiable information and enables RRB staff to quickly identify the correct SSN and to take
action on returned correspondence.

In 2009, we completed improvements to the System to Process Excess Earnings Deductions
(SPEED) which allow users to enter any annuitant’s earnings information online, and store the
information in a database. The system allows the RRB to adjust annuity payments for earnings
on a timely basis, which minimizes potential underpayments or overpayments that may result
from changes in earnings. Future improvements are also planned to automatically record and
adjust the annuity as a result of changes in the beneficiary’s working status and earnings.

Work continued during fiscal year 2009 on an enhanced automated retirement payment system
which will replace the current legacy system that processes retirement applications. The
enhanced process will improve the accuracy and efficiency of retirement initial claims, as it will
automatically interface with the Social Security Administration’s (SSA) benefit payment system
to provide real-time offset data. The new system will also allow for the payment of such
application types as divorced spouse annuitants, which previously could not be processed
automatically. The target for completion of the enhanced system is fall of 2010. Future
enhancements include the development of a system interface to ensure the accurate use of
military service in the calculation of benefits.

Work began during fiscal year 2009 on an initiative to convert an outdated dBase overpayment
recovery correspondence application to automatically interface with other online and mainframe
applications. The streamlined process will provide for online data retrieval of pertinent
information that was previously entered manually. We also plan to create a letter writing module
which will improve the timeliness and accuracy of the overpayment process. This initiative is
targeted for completion in 2010.

During fiscal year 2009, we completed the automation of the pre-payment and post-payment
verification notices (Forms ID-4k and ID-4e) sent to employers for benefits we pay under the
Railroad Unemployment Insurance Act (RUIA).

The RRB expanded its web-based training facility during fiscal year 2008 in order to provide
brief presentations to the public and to rail employers on www.rrb.gov. Through June 2009,
there were 20 presentations available for viewing on topics of interest to those applying for


                                              - 42 -
benefits, filing reports, or anticipating retirement. To validate the success of the presentations,
monthly reports are collected to track the number of views per presentation. We have also
started to add a simple survey to the newest presentations to get some basic customer
feedback. We are also in the process of upgrading our equipment and recording software. The
upgrade will provide enhanced features for recording, tracking and reporting, and broader post
production editing capabilities.

Succession planning

The agency has continued to make good progress on workforce and succession planning. The
Executive Committee completed workforce planning documents that identified the current
staffing levels, projected attrition and planned hiring in fiscal years 2008, 2009 and 2010. We
are currently in the process of updating the workforce planning documents for fiscal years 2009,
2010 and 2011.

Because the agency’s current budget was approved late in fiscal year 2009, and due to the
overwhelming need to fill a large number of mission-critical positions, the Executive Committee
agreed to plan from a broader perspective, one that spans two fiscal years. The Board
Members approved the Executive Committee’s hiring plan on April 2, 2009. We are in the
process of aggressively implementing the plan, completing 46 new hires in fiscal year 2009 and
projecting 42 new hires in fiscal year 2010, pending available funds.

Systems security

Information security is a critical consideration for government agencies where maintaining the
public’s trust is essential. The RRB relies extensively on computerized systems to support its
mission operations and store the sensitive information that it collects. The RRB’s information
security program is established and maintained to reasonably protect systems data and
resources against internal failures, human errors, attacks and natural catastrophes that might
cause improper disclosure, modification, destruction, or denial of services.

To ensure mission continuity, plans and procedures exist to maintain continuity of operations in
the event of a calamity affecting information systems that support the operations and assets of
the RRB. The RRB’s Continuity of Operations Plan consists of a number of components,
including an Occupant Emergency Plan, a Business Continuity Plan, a Crisis Communication
Plan, and technically specific plans for mainframe, local area network (LAN), data
communications, and desktop recovery. The agency regularly conducts semi-annual off-site
disaster recovery exercises. System programmers restore the systems and applications of the
agency from back-ups retrieved from an alternate data storage facility. Program libraries are re-
created and production databases established. Finally, business analysts verify that the
systems recovered correctly.

Federal agencies are required to provide annual computer security awareness training for
employees and contractors. Security awareness efforts are designed to change behavior or
reinforce good security practices by focusing attention on security. We continue to develop new
approaches for refreshing the awareness initiative by providing updated and innovative
presentations for the agency staff. The Information Systems Security Awareness Training for
the Railroad Retirement Board pamphlet was updated and expanded with additional information
to make it a comprehensive computer security-training document. We have a full training
program that combines a security awareness presentation with additional role-based training
appropriate to the RRB’s information technology environment. Every employee and contractor


                                               - 43 -
with computer network access participates in this annual event. Individuals who do not use a
computer receive physical security awareness information. In addition to the awareness
presentation, computer analysts, software developers and network/system engineers also
receive specialized technical education necessary to maintain their skills and enhance
proficiency. The formal awareness-training program is supplemented by a weekly Security
News feature story, prominently headlined on the Intranet’s home page, reminding employees
to protect their computers and information throughout the year. In June 2009, the Chief
Information Officer issued a special security memorandum emphasizing RRB policy prohibiting
computer games. Every year, the RRB awareness program has been able to report exemplary
levels of participation. In 2009, the agency reached 100% compliance with more than 1,000
agency employees and contractors completing security awareness training.

Faced with an increasingly dangerous threat environment, the RRB relies on a sophisticated
hardware and software defense that utilizes carefully monitored and maintained firewall
technology, anti-virus software and intrusion detection systems to prevent viruses, worms, spam
and malicious content from infiltrating the network, as well as to ensure that critical data and
sensitive information are not compromised. To buttress these proactive threat management
resources in the event of a successful malware attack, the agency has implemented a robust
incident response capability. Utilizing the capabilities of a special forensic analysis workstation,
the RRB Computer Emergency Response Team has the ability to conduct forensic collection
and analysis of electronic evidence from almost any type of digital media in use today. The
RRB has also established an Agency Core Response Group to determine if there is a
reasonable expectation that an incident may be a data breach with the potential for identity
theft, and notifies the Board Members who will make final decisions regarding breach
notification.

The RRB continued to strengthen its security posture by addressing access-control audit
recommendations. The RRB completed migrating all LAN-based programs to newer computer
servers with upgraded operating systems. Network engineers redesigned the architecture for
the Active Directory, an operating system database that controls the resources, services and
functions on the network domain, to improve LAN security. Also, owners of all LAN applications
re-examined access rights to ensure only appropriate users have specific privileges.

Another access-control requirement is the OMB Federal Desktop Core Configuration directive to
limit the granting of workstation administrative rights. The project to accomplish this began with
test implementations of operating system settings and was first expanded to a cross-selection of
agency workstations. Now, most of the RRB workstations are in compliance, and before the
end of fiscal year 2009, every agency workstation will conform to the standards of the directive.

Certification and Accreditation are important activities integral to the information security
programs of Federal agencies. Performing certification and accreditation helps provide an
understanding of the risks and other factors that could adversely affect agency missions. In
fiscal year 2007, the RRB LAN/PC general support system underwent security certification, an
assessment of the information system’s management, operational and technical security
controls, to determine whether controls are implemented properly, operating as intended and
satisfy system security requirements. After evaluating the certification results, the Chief
Information Officer, as the designated accrediting authority, authorized operation of the LAN/PC
system through a formal accreditation decision that affirmed the operation of that system was an
acceptable risk to agency operations, agency assets, or individuals based upon the
implementation of the defined set of security controls. In fiscal year 2008, the RRB’s mainframe
general support system and four of the major applications of the agency were assessed in a


                                               - 44 -
similar certification and accreditation process. In fiscal year 2009, the Financial Interchange
and Financial Management major applications complete the initial certification and accreditation
process, and post-accreditation control monitoring is starting on other appropriate systems.
Achievement of accreditation for all general support systems and major applications, together
with the initiation of the periodic control assessment process, positions the RRB in full
compliance with a major provision of the Federal Information Security Management Act, a fiscal
responsibility law holding agencies to a high degree of responsibility and accountability for the
information resources they manage.




                                              - 45 -
Program Evaluations

   Program Evaluation                              Results in Fiscal Year 2009
Federal Managers’
                             See “Systems and Controls” in the “Management’s Discussion and
Financial Integrity Act
                             Analysis” section.
Reports

                             The Chief Actuary’s report describes the results of three valuations,
Twenty-fourth actuarial      each valuation differing from the others as to the employment
valuation of the railroad    assumption on which it is based. Cash flow problems occur only under
retirement system            the most pessimistic employment assumption. Even under that
                             assumption, the cash flow problems do not occur until the year 2031.

Railroad Unemployment        The report, which was released in June 2009, indicates that with the
Insurance System, annual     exception of small, short-term cash flow problems in 2010 and 2011,
report required by section   experience-based contributions rates maintain solvency. Projections
7105 of the Technical and    show quick repayment of the loans even under the most pessimistic
Miscellaneous Revenue Act    assumption. The report did not include any recommendations for
of 1988                      financing changes.
                             In fiscal year 2007, the Office of Management and Budget conducted a
                             comprehensive assessment of RRB programs and operations through
                             the PART review. The PART review resulted in a rating of “effective” for
                             both the railroad retirement/survivor program and the unemployment/
Program Assessment and
                             sickness insurance program. During 2008, the RRB established long-
Rating Tool (PART) Review
                             term performance targets through 2013 and short-term goals through
                             2010. We also posted the fiscal year 2008 results against the goals, and
                             updated the funding and the status of our performance improvement
                             plans.
                             The RRB continuously monitors the timeliness and accuracy of our
Customer service             performance in managing program workloads. These results are
performance reports          reflected in the performance objectives shown in the chart on the
                             following pages.

                             The RRB’s program integrity report for fiscal year 2008, released in
                             October 2008, showed that program integrity activities resulted in the
Program integrity report     establishment of about $12.7 million in recoverables, recovery of
                             $11 million, benefit savings of $794,000, and referral of 141 cases to the
                             Office of Inspector General.

                             RRA adjudicative and payment accuracy is measured in regular
                             diagnostic reviews conducted by quality assurance staff within the
Quality assurance reviews    RRB’s Assessment and Training (A&T) component. A&T also evaluates
and special studies          policies and processes through special studies, as needed. A&T reports
                             to the Director of Programs and is independent of the organizations it
                             assesses.
                             Advisory doctors, representing the rail industry (labor and management),
                             are authorized by law to review agency medical decisions. An audit was
Occupational disability      done in 2000; another audit was completed in 2008. In addition,
reviews                      consulting physicians from Consultative Examinations, Ltd. perform a
                             quarterly quality review of disability documentation to ensure it is
                             adequate to support medical decisions.




                                               - 46 -
    Program Evaluation                             Results in Fiscal Year 2009
                            See “Inspector General’s Statement on Management and Performance
 RRB Office of Inspector
                            Challenges” and “Management’s Comments” in the “Other
 General audits
                            Accompanying Information” section.
                            Results of performance budget monitoring are shown in the chart of
                            performance objectives on the following pages. Actual performance
 Performance budget
                            data are reviewed, validated and certified prior to inclusion in this report.
 monitoring
                            Validation and certification processes are documented as part of the
                            RRB’s management control review process.
 Enterprise architecture    The RRB completed an enterprise architecture assessment in February
 assessment                 2009, reporting a total assessment value of 2.98 out of a possible 5.00.

                            See performance goals II-C-2, II-C-3, II-C-4 and II-C-13 in the chart of
 Computer security and      performance objectives on the following pages. We have completed
 privacy assessment         certification and accreditation of the RRB‘s general support systems and
                            five of six major applications. The sixth major application is in progress.

 Electronic government      See “Program Improvements” in the “Management’s Discussion and
 (E-Gov) activities         Analysis” section.

 Improper payment           See “Improper Payments Information Act (IPIA)” in the “Other
 evaluation                 Accompanying Information” section.



The next page begins a consolidated presentation of our actual performance in fiscal year 2006
through March 31, 2009 (except as noted), followed by a discussion of our unmet performance
goals and objectives for fiscal year 2008. At the time this report was prepared, we had
incomplete information on our fiscal year 2009 performance. The discussion of any unmet fiscal
year 2009 performance goals and indicators will be presented in next year’s report. This
performance report was prepared by RRB employees.




                                               - 47 -
         RAILROAD RETIREMENT BOARD
                                                                  2006 Actual       2007 Actual       2008 Actual      2009 Projected     2009 Actual
         FY 2009 ANNUAL
                                                                 (At $101.5m) 1/   (At $103.7m) 1/   (At $101.9m) 1/   (At $105.5m) 1/   (At $105.5m) 1/
         PERFORMANCE REPORT

         Strategic Goal I: Provide Excellent Customer Service

         Performance Goal I-A: Pay benefits accurately and timely.

         I-A-1. Achieve a railroad        a) Initial recurring
         retirement benefit                        payments:         99.91%            99.82%            99.75%            99.75%        Data not available
                                 2/
         payment accuracy rate
         of at least 99%.
         (Measure: % accuracy
         rate)                           recurring payments:         99.94%             100%             99.97%            99.80%        Data not available


         I-A-2. Achieve a railroad
         unemployment/sicknessb) Samplea)post
                                          Unemployment:              99.08%            99.64%            99.71%            99.25%             99.89%
         insurance benefit payment
                      2/
         accuracy rate of at
- 48 -




         least 99%.
         (Measure: % accuracy rate)           b) Sickness:           99.78%             100%             99.89%            99.80%             99.76%


         I-A-3. Achieve a railroad                  a) Initial       94.5%             94.9%             96.1%              94.0%        Data not available
         retirement case accuracy
              2/
         rate of at least 94%.
         (Measure: % of case accuracy)
                                                                     96.3%             98.7%             96.8%              96.0%        Data not available


         I-A-4. Achieve a railroad        a) Unemployment:           97.5%             98.01%            98.55%             97.5%             99.06%
         unemployment/sickness
                                   cases:
         insurance case accuracy
              2/
         rate of at least 98%.                 b) Sickness:
                                                                     99.03%             100%             99.03%             99.0%             98.08%
         (Measure: % of case accuracy)

         I-A-5. Railroad retirement employee or spouse
         receives initial annuity payment, or a decision,
         within 35 days of annuity beginning date, if                92.9%             92.8%
         advanced filed. (Measure: %  30 adjudicative
                            3/ 4/
         processing days )



         b) Post
         cases:
         RAILROAD RETIREMENT BOARD
                                                                   2006 Actual       2007 Actual       2008 Actual      2009 Projected     2009 Actual
         FY 2009 ANNUAL
                                                                  (At $101.5m) 1/   (At $103.7m) 1/   (At $101.9m) 1/   (At $105.5m) 1/   (At $105.5m) 1/
         PERFORMANCE REPORT
         Revised goal for 2008 and later

         I-A-5. RRB makes a decision to pay or deny a
         railroad retirement employee or spouse initial
         annuity application within 35 days of the annuity                                                                  92.75%            93.4%
         beginning date, if advanced filed.
         (Measure for fiscal year 2008: % ≤ 30 adjudicative
         processing days. Measure starting with fiscal year
                              3/
         2009: % ≤ 35 days. )

         I-A-6. Railroad retirement employee or spouse
         receives initial annuity payment, or notice of denial,
         within 65 days of the date the application was filed,        96.2%             96.8%
         if not advanced filed. (Measure: %  60
                                       3/ 4/
         adjudicative processing days )                                                    92.4%
         Revised goal for 2008 and later
         I-A-6. The RRB makes a decision to pay or deny a
         railroad retirement employee or spouse initial
- 49 -




         annuity application within 60 days of the date the                                                                                   96.9.%
                                                                                                                             96.8%
         application was filed. (Measure for fiscal year
         2008: % ≤ 60 adjudicative processing days.
         Measure starting with fiscal year 2009: % ≤ 60
                3/
         days. )

         I-A-7. Survivor annuitant not already receiving a
         benefit receives initial payment, a decision, or
         notice of transfer to SSA within 65 days of the              93.2%             93.3%
         annuity beginning date, or date filed (whichever is
         later). (Measure: %  60 processing days )
                                                      4/
                                                                                           96.1%

         Revised goal for 2008 and later

         I-A-7. RRB makes a decision to pay, deny or
         transfer to SSA an initial annuity application for a
         railroad retirement survivor not already receiving a                                                                94.0%            94.5%
         benefit within 60 days of the annuity beginning date
         or date filed (whichever is later).
                                  5/
         (Measure: % ≤ 60 days )

         I-A-8. Survivor annuitant receiving benefits as
         spouse receives payment as survivor, notice of
         denial, or notice of application transfer to SSA,            95.7%             94.8%
         within 35 days of RRB receipt of the notice of
         employee's death.                                                                 92.9%
         (Measure: %  30 processing days )
                                                4/
         RAILROAD RETIREMENT BOARD
                                                                   2006 Actual       2007 Actual       2008 Actual      2009 Projected     2009 Actual
         FY 2009 ANNUAL
                                                                  (At $101.5m) 1/   (At $103.7m) 1/   (At $101.9m) 1/   (At $105.5m) 1/   (At $105.5m) 1/
         PERFORMANCE REPORT

         Revised goal for 2008 and later
         I-A-8. RRB makes a decision to pay, deny or
         transfer to SSA an initial annuity application for a
         railroad retirement survivor already receiving the                                                                  95.1%            94.2%
         benefits as a spouse within 30 days of the RRB’s
                                                          5/
         receipt of first notice of the employee’s death.
         (Measure: % ≤ 30 days.)

         I-A-9. Applicant for any railroad retirement death
         benefit receives payment, or notice of denial, within
                                                                      97.5%             97.5%
         65 days of date filed. (Measure: %  60
                           4/
         processing days )
                                                                                           95.1%
         Revised goal for 2008 and later
         I-A-9. RRB makes a decision to pay or deny a
         lump sum death benefit within 60 days of the date                                                                  97.25%            96.96%
                                    5/
         the application was filed.
         (Measure: % ≤ 60 days)
- 50 -




         I-A-10. Unemployed railroad worker receives UI
         claim form, or notice of denial, within 15 days of the       99.5%             99.5%
         date application filed. (Measure: %  10
                           4/
         processing days )

         Revised goal for 2008 and later                                                   97.0%
         I-A-10. RRB releases a UI claim form or letter of                                                                                    99.0 %
                                                                                                                             99.5%
         denial within 10 days of receiving an application for
         unemployment benefits. (Measure: % ≤ 10 days.)


         I-A-11. Railroad employee unable to work due to
         temporary illness or injury receives SI claim form,
         or notice of denial, within 15 days of the date              99.5%             99.2%
         application filed. (Measure: %  10 processing
               4/
         days )
                                                                                           99.5%
         RAILROAD RETIREMENT BOARD
                                                                  2006 Actual       2007 Actual       2008 Actual      2009 Projected     2009 Actual
         FY 2009 ANNUAL
                                                                 (At $101.5m) 1/   (At $103.7m) 1/   (At $101.9m) 1/   (At $105.5m) 1/   (At $105.5m) 1/
         PERFORMANCE REPORT

         Revised goal for 2008 and later
         I-A-11. RRB releases an SI claim form or letter of
         denial within 10 days of receiving an application for                                                             99.25%            99.03%
         sickness insurance benefits. (Measure: % ≤ 10
         days.)


         I-A-12. Railroad employee, unemployed or unable
         to work due to temporary illness or injury, receives
         a payment for unemployment or sickness insurance
                                                                     99.8%             99.7%
         benefits, or a decision, within 15 days of claim
         receipt.
         (Measure: %  10 processing days )
                                               4/                                         99.2%


         Revised goal for 2008 and later
         I-A-12. RRB certifies a payment or releases a letter
                                                                                                         99.7%             99. 8%            99.7%
         of denial of UI or SI benefits within 10 days of the
- 51 -




         date RRB receives the claim. (Measure: % ≤ 10
         days)

         I-A-13. Disabled applicant or family member
         receives notice of decision to pay or deny within
         105 days of the date application for disability is          65.9%             69.6%
         filed.
         (Measure: %  100 processing days )
                                                4/




         Revised goal for 2008 and later
         I-A-13. RRB makes a decision to pay or deny a
         benefit for a disabled applicant or family member                                                                  70.0%            62.8%
         within 100 days of the date the application is filed.
         (Measure: % ≤ 100 days)

         I-A-14. Disabled applicant receives payment within
         25 days of decision or earliest payment date
                                                                     95.2%             95.3%             94.8%
         (whichever is later). (Measure: %  20 processing
              4/ 6/
         days      )

                                                                                          70.4%
         RAILROAD RETIREMENT BOARD
                                                                2006 Actual               2007 Actual             2008 Actual             2009 Projected            2009 Actual
         FY 2009 ANNUAL
                                                               (At $101.5m) 1/           (At $103.7m) 1/         (At $101.9m) 1/          (At $105.5m) 1/          (At $105.5m) 1/
         PERFORMANCE REPORT
         Revised goal for 2009 and later
         I-A-14. The RRB makes a payment to a disabled
         applicant within 25 days of the date of decision or                                                                                    95.0%                    96.4%
         earliest payment date, whichever is later.
                                  6/
         (Measure: % ≤ 25 days )


         I-A-15. Reduce the number of days elapsed
         between the date the appeal is filed and a decision      Not available            Not available          239 (Estimated)                190                 212 (Estimated)
                                                         7/
         is rendered. (Measure: average elapsed days)


         Performance Goal I-B: Provide relevant, timely, and accurate information which is easy to understand.

                                                               Completed a survey
         I-B-1. Achieve quality and accuracy of                 of initial disability                                                                             Recent retirees to be
         correspondence, publications, and voice                                        ACSI survey deferred    ACSI survey deferred    Conduct an ACSI survey
                                                                decisions. RRB’s                                                                                   surveyed in 9/09
         communications. (Measure: surveys and reviews;           score was 85.
         number of valid challenges to published data)
- 52 -




                                                                                                                                        No more than two valid
                                                                No challenges to          No challenges to        No challenges to                                No valid challenges to
                                                                                                                                        challenges to published
                                                                 published data            published data          published data                                    published data
                                                                                                                                           data in FY 2009
         Performance Goal I-C: Provide a range of choices in service delivery methods.

         I-C-1. Offer electronic options to our customers,
         allowing them alternative ways to perform primary         16 services
         services via the Internet or interactive voice                                 16 services available   17 services available    18 services available    18 services available
                                                                    available
         response systems. (Measure: # of services
         available through electronic media)

         Performance Goal I-D: Ensure efficient and effective business interactions with covered railroad employers.

         I-D-1. Improve timeliness and efficiency in posting
         service and compensation data to agency records.                                                                                      90.0%
                                                                                                                                                       8/
                                                                      99.6%                   99.81%                   67.5%                                             97.0%
         (Measure: % of service and compensation records
         posted by April 15)

         I-D-2. Improve accuracy in posting service and
         compensation data to agency records. (Measure:                                                                                        95.0%
                                                                                                                                                       8/
                                                                                                                                                                         91.0%
                                                                      99.9%                    99.5%                   96.3%
         % of service and compensation records posted
         accurately)
         RAILROAD RETIREMENT BOARD
                                                                     2006 Actual           2007 Actual           2008 Actual          2009 Projected           2009 Actual
         FY 2009 ANNUAL
                                                                    (At $101.5m) 1/       (At $103.7m) 1/       (At $101.9m) 1/       (At $105.5m) 1/         (At $105.5m) 1/
         PERFORMANCE REPORT

         I-D-3. Covered employer annual reports of
         employees filed electronically, or on magnetic                   97.8%                 98.2%                 98.7%                 98.0%                   99.0%
         media. (Measure: % of employee records filed
         electronically, or on magnetic media)

         I-D-4. Enable employers to use the Internet to
         conduct business with the RRB, in support of the                 58.0%                 62.0%                 69.0%                 73.0%                   68.0%
         Government Paperwork Elimination Act.
         (Measures: % of employers who use the new                  6 Internet services   7 Internet services   8 Internet services   18 Internet services    10 Internet services
         online reporting process; # of services available               available             available             available              available               available
         through electronic media)

         Strategic Goal II: Serve as Responsible Stewards for Our Customers’ Trust Funds and Agency Resources

         Performance Goal II-A: Ensure that trust fund assets are projected, collected, recorded and reported appropriately.

         II-A-1. Debts will be collected through billing, offset,
         reclamation, referral to outside collection programs
- 53 -




                                                                           62%                   59%                   58%                   55%                     37%
         and a variety of other collection efforts. (Measure:
         funds collected vs. total debts outstanding)

         II-A-2. Release quarterly and annual notices
         accurately and timely to employers regarding their                                                                                   Yes                     Yes
                                                                           Yes                   Yes                   Yes
         experience rating-based contributions. (Measure:
         Yes/No)

         II-A-3. Complete compensation reconciliations at
         least 1 year before the statute of limitations expires.
         (Compensation reconciliations involve a                    100% of the 2003      100% of the 2004      100% of the 2005       100% of the 2006        100% of the 2006
         comparison of compensation reported by railroad            reconciliations by    reconciliations by    reconciliations by     reconciliations by     reconciliations were
         employers to the RRB for benefit calculation                   12/15/05              12/11/06              2/26/08                 2/28/09          completed by 1/27/09.
         purposes with compensation reported to the IRS for
         tax purposes.) (Measure: % completed)

         II-A-4. Perform monthly reasonableness tests
         comparing railroad retirement taxes deposited
         electronically, which represent over 99 percent of
         all railroad retirement taxes, against tax receipts
         transferred to the RRB trust funds by the                         Yes                   Yes                   Yes                    Yes                     Yes
         Department of the Treasury (Treasury) to provide
         reasonable assurance the RRB trust funds are
         receiving appropriate tax funds. (Measure:
         reasonableness test performed and anomalies
         reconciled with Treasury (Yes/No))
         RAILROAD RETIREMENT BOARD
                                                                2006 Actual                2007 Actual                 2008 Actual                 2009 Projected                  2009 Actual
         FY 2009 ANNUAL
                                                               (At $101.5m) 1/            (At $103.7m) 1/             (At $101.9m) 1/              (At $105.5m) 1/                (At $105.5m) 1/
         PERFORMANCE REPORT

         II-A-5. Prepare annual Performance and                 Yes. The FY 2005          Yes. The FY 2006            Yes. The FY 2007
                                                                                                                                                                                  Yes. The FY 2008
         Accountability Report (including audited financial     Performance and           Performance and             Performance and
                                                                                                                                                                                   Performance and
         statements and other financial and performance           Accountability         Accountability Report       Accountability Report                 Yes
                                                                                                                                                                               Accountability Report was
         reports) by the required due dates. (Measure:         Report was released         was released on             was released on
                                                                                                                                                                                released on 11/17/08.
         Yes/No)                                                  on 11/10/05.                11/15/06.                   11/15/07.


         II-A-6. Take prompt corrective action on audit
         recommendations. (Measure: % of audit                        97.2%                     93.2%                       94.0%                         95.0%                          95.0%
         recommendations implemented by target date)


         Performance Goal II-B: Ensure the integrity of benefit programs.

         II-B-1. Achieve a return of at least $3.60 for each
                                                                   $5.36 : $1.00             $5.48 : $1.00               $5.76 : $1.00                 $5.36 : $1.00          Data will be not be available
         dollar spent on program integrity activities.
                                                                                                                                                                                 until November 2009.
         (Measure: $ recoveries & savings per $ spent)
- 54 -




         Performance Goal II-C: Ensure effectiveness, efficiency, and security of operations.

         II-C-1. Continue succession planning by ensuring
         there is a cadre of highly skilled employees
         available for key positions.                                  Yes                       Yes                          Yes                          Yes                            Yes
         (Measure: structured succession planning activities
         are continuing. (Yes/No))


         II-C-2. Annually assess/update all computer           No. The BCP was         Yes. RRB met its            Yes. With contractor         Yes. All systems will be      Yes. Certification and
         security, disaster recovery, and business             updated with            performance goal for        assistance, the              certified and accredited.     accreditation of both RRB
         resumption plans for the agency. (Measure:            alternate non-IT site   fiscal year 2007. RRB       certification and            Self-assessments will be      general support systems
         Yes/No)                                               information in          certified and accredited    accreditation of the         performed on selected         and 5 of 6 major
                                                               January 2006, and       one general support         Mainframe General            control components of the     applications was completed.
                                                               Appendix H of the       system. The agency          Support System and 5 of      systems. The business         The 6th is in progress and
                                                               BCP, the                also hired an information   6 major applications         impact assessment reports     nearing completion.
                                                               Emergency               availability analyst and    were completed. The 6th      will be examined and          Updated disaster recovery
                                                               Management              completed a training test   was in progress at the       revised as necessary. The     information provided by
                                                               Organization, was       and exercise of the         end of the fiscal year. An   Business Continuity Plan      agency business
                                                               updated in February     Continuity of Operations    assessment of agency-        will be updated to maintain   components was used to
                                                               2006. An IT             Plan.                       wide common controls         currency with the             prepare the RFP for
                                                               Disaster Recovery                                   was performed.               organizational structure.     recompeting the alternate IT
                                                               Plan was in draft                                   Contingency planning                                       recovery site contract.
                                                               status at the end of                                was tested and disaster                                    Proposals are being
                                                               the fiscal year.                                    recovery training was                                      evaluated.
                                                                                                                   conducted off-site.
         RAILROAD RETIREMENT BOARD
                                                              2006 Actual               2007 Actual              2008 Actual             2009 Projected     2009 Actual
         FY 2009 ANNUAL
                                                             (At $101.5m) 1/           (At $103.7m) 1/          (At $101.9m) 1/          (At $105.5m) 1/   (At $105.5m) 1/
         PERFORMANCE REPORT

         II-C-3. Develop and implement new procedures for    Yes. The               Yes. The Intrusion       Yes. Components of the
         responding to and reporting computer security       Department of          Detection System was     Core Intrusion Detection/
         incidents. (Measure: Yes/No)                        Energy’s Computer      upgraded to Intrusion    Prevention System were
                                                             Incident Advisory      Prevention. A network    updated to improve the
                                                             Center began           access control device    stability and uptime of
                                                             vulnerability          was installed on the     back-end processes.
                                                             assessment testing     agency LAN/WAN           Tuning of network
                                                             in January 2006,       general support system   access control was
                                                             and completed          to provide increased     competed. A
                                                             testing of the RRB’s   security management      Vulnerability
                                                             LAN general support    capabilities.            Remediation Task Force
                                                             system.                                         was formed to improve
                                                                                                             the RRB’s security
                                                                                                             incident response
                                                                                                             capability.
         Revised goal for 2009 and later

         II-C-3. Maintain an incident response program for
                                                                                                                                               Yes              Yes
- 55 -




         responding to and reporting computer security
         incidents. (Measure: All cyber security incidents
         will be reported to US-CERT. Yes/No)
         RAILROAD RETIREMENT BOARD
                                                                 2006 Actual                 2007 Actual                  2008 Actual                   2009 Projected                   2009 Actual
         FY 2009 ANNUAL
                                                                (At $101.5m) 1/             (At $103.7m) 1/              (At $101.9m) 1/                (At $105.5m) 1/                 (At $105.5m) 1/
         PERFORMANCE REPORT

         II-C-4. Assess computer security training              Yes. A total of 181      Yes. All staff with          Yes. The annual RRB           Yes. The two-track training     Yes. The annual FISMA
         requirements and implement an ongoing training         RRB employees            computer security            computer security             concept will be maintained.     computer security
         program for agency staff. (Measure: Yes/No)            with computer            responsibilities received    awareness program was         All agency staff with           awareness training and
                                                                security                 role-based security          launched in March 2008.       computer security               specialized security training
                                                                responsibilities         training at OPM;s            As of 7/02/08, the OPM        responsibilities will receive   was completed. This
                                                                received Web-based       GoLearn.gov. Technical       GoLearn.gov role-based        role-based security training    training program had 100%
                                                                training at the OPM      IT specialists participate   security training program     with a second training track    participation with 1,013
                                                                USALearning site,        in a track that requires     was completed.                for specialized technical       employees and contractors
                                                                with a second            security-specific            Specialized technical         education. Also, all RRB        accounted for.
                                                                training track for       technical education          education was approved        staff will complete a
                                                                specialized technical    associated with their job.   for all training designated   computer security
                                                                education. All RRB       The annual computer          as critical or vital for      awareness program.
                                                                staff annually           awareness program for        achieving performance
                                                                complete a               all employees and            goals.
                                                                computer security        contractors with network
                                                                awareness program.       access was completed.

         II-C-5. Implement a methodology to successfully        A post-
                                                                implementation           This objective has been
- 56 -




         estimate, track and monitor total costs and time                                completed with full
         schedules for information technology investments       review was
                                                                completed in FY          implementation of the
         through the project life cycle, incorporating both                              project management
         web and mainframe investments. (Measure:               2006 to tune the
                                                                system to ensure         system in the Bureau of
         Yes/No)                                                                         Information Services.               Completed                      Completed                        Completed
                                                                that project
                                                                measures were
                                                                working in the IT
                                                                environment. Some
                                                                best practices were
                                                                developed.

         II-C-6. Assemble and publicize an annual inventory
         of RRB commercial activities on the RRB Website.               Yes                         Yes                          Yes                            Yes                             Yes
         (Measure: Yes/No)


         II-C-7. Complete public-private competitions on the         OMB did not         OMB did not establish a      OMB did not establish a
         required activities listed on the Federal Activities   establish a target for   target for FY 2007. RRB       target for 2008. RRB
                                                                FY 2006. RRB has                                                                        Meet target level             OMB did not establish a
         Inventory Reform (FAIR) Act inventory. (Measure:                                has competed about 5%          has competed about
                                                                competed about 5%                                                                      established by OMB              target for FY 2009.
         % of the FTEs listed on the FAIR Act inventory for                              of the FTEs on the FAIR      3.5% of the FTEs on the
         which competitions completed)
                                           9/                    of the FTEs on the      Act inventory.                 FAIR Act inventory.
                                                                FAIR Act inventory.

         II-C-8. Meet government percentage goal for use of
         performance-based contracting techniques for                   Yes                         Yes                          Yes                            Yes                             Yes
         eligible service contract funds. (Measure: Yes/No)
         RAILROAD RETIREMENT BOARD
                                                                2006 Actual           2007 Actual               2008 Actual               2009 Projected                   2009 Actual
         FY 2009 ANNUAL
                                                               (At $101.5m) 1/       (At $103.7m) 1/           (At $101.9m) 1/            (At $105.5m) 1/                 (At $105.5m) 1/
         PERFORMANCE REPORT

         II-C-9. Support government-wide procurement of
         E-Government initiatives using the point of entry                                                             Yes                         Yes                           Yes
                                                                     Yes                    Yes
         vehicle of www.FedBizOpps.gov for all eligible
         actions. (Measure: Yes/No)

         II-C-10. Complete migration from the agency’s
         current mainframe database management system                                Yes. The IDMS/DB2
         (IDMS) to DB2, and initiate efforts to optimize the   New indicator for   database conversion was         Completed                   Completed                      Completed
         performance of those databases and further reduce        FY 2007           successfully completed
         data redundancy. (Measure: Meet target dates for                               as of 8/18/07.
         the migration. Yes/No)

         II-C-11. Complete data optimization to optimize the
         performance of DB2 databases for future                                   Yes. RRB contracted for                                                               Yes. The project was
                                                               New indicator for                                       Yes                         Yes
         developmental efforts, and to further reduce and                                this effort.                                                                  completed by the revised
                                                                  FY 2007
         document the data. (Measure: Meet target dates                                                                                                                  target date of 2/28/09
         for the project. Yes/No)
- 57 -




         II-C-12. Complete modernization of RRB                                                                                                                        Yes. The project is in the
         processing systems in accordance with long-range      New indicator for      New indicator for         New indicator for                                     analysis and planning phase
                                                                                                                                                   Yes
         planning goals. (Measure: Meet target dates for          FY 2009                FY 2009                   FY 2009                                               and is on schedule as
         each phase of the project. Yes/No)                                                                                                                                    anticipated.

         II-C-13. Complete 16 corrective actions to correct                                                                                                             Seven corrective actions
         the RRB’s material weakness related to information    New indicator for      New indicator for      Three corrective actions   All corrective actions will   are completed, one is under
         security. (Measure: Meet target dates for the            FY 2008                FY 2008                were completed.               be completed.           OIG review and eight are in
         project. Yes/No)                                                                                                                                                      progress.

         Performance Goal II-D: Effectively carry out the responsibilities of the Railroad Retirement Board under the Railroad Retirement and Survivors’ Improvement Act
         of 2001 with respect to the activities of the National Railroad Retirement Investment Trust.

         II-D-1. Review monthly reports submitted by the                                                                                                                         Yes
                                                                     Yes                    Yes                        Yes                         Yes
         Trust. (Measure: Yes/No)

         II-D-2. Review annual management reports
                                                                     Yes                    Yes                        Yes                         Yes                           Yes
         submitted by the Trust. (Measure: Yes/No)

         II-D-3. Review annual audit reports of the Trust’s
                                                                     Yes                    Yes                        Yes                         Yes                           Yes
         financial statements. (Measure: Yes/No)



         Footnotes begin on the following page.
         1/
               Dollar amounts shown are funds obligated or appropriated for the fiscal year. Actual results for fiscal year 2009 represent status as of 3/31/09 unless otherwise noted.
         2/
               Payment Accuracy Rate – the percentage of dollars paid correctly as a result of adjudication actions performed. Case Accuracy Rate – the percentage of cases that
               	




               do not contain a material payment error. Case accuracy rates reflect only those errors that are detected as a result of reviewing award actions performed during the
               fiscal year being studied. (A material error is (1) an incorrect payment of $5.00 or more at the point the error is identified, (2) an incorrect payment of less than $5.00
               totaling 1 percent or more of the monthly rate, or (3) any situation in which a non-entitled benefit is paid.)
         3/	
               In audit report 05-05, dated May 17, 2005, the RRB’s OIG found problems with the performance data for these indicators. One significant problem was resolved
               immediately, allowing us to report performance for fiscal year 2005, and later. However, there were still some system limitations that prevented inclusion of all internal
               processing time in the performance data prior to fiscal year 2009. Another program error caused a small number (less than 1 percent) of spouse applications to be
               calculated incorrectly. Effective October 1, 2008, these system problems were corrected. As a result of these system changes, beginning in fiscal year 2009, we
               measure timeliness by calendar days rather than adjudicative processing days as in previous years.
         4/
               Measure does not include the time for customer receipt (from U.S. Treasury or Postal Service).
         5/	
               This objective was restated as of April 2009, to more accurately describe how timeliness is measured. For objective I-A-9, the term “railroad retirement death benefit”
               was changed to “lump sum death benefit” to correspond with references to this benefit in the RRB’s regulations.
         6/
               This indicator includes both retirement and survivor disability payments. The employee payments are impacted by the system limitations identified in footnote 3 above.
               Effective October 1, 2008, these system problems were corrected.
         7/
               In fiscal year 2009, system testing disclosed inaccuracies in the computer program used to calculate the average time from the filing of an appeal to decision. Due to
               	
- 58 -




               these errors, timeliness data is not available for fiscal years 2006 and 2007. Estimated actual data reported for fiscal years 2008 and 2009, reflects the latest output
               available from the program in question, although further system corrections are still pending.
         8/
               The target for 2009 was adjusted from the level shown in the RRB’s Final Annual Performance Budget for Fiscal Year 2009, which was released in February 2008.
               	




               Actual performance fell below the target in 2008 due to significant changes in annual reporting formats required of the rail employers and corresponding internal
               processing changes. As a result, the 2009 target was adjusted to reflect more realistic expectations based on 2008 experience.
         9/
               This objective was discontinued, and the following objectives were renumbered, effective with the annual performance budget for fiscal year 2010, released on May 8,
               	




               2009.
    Discussion of Unmet Performance Goals and Indicators for Fiscal Year 2008


                  INDICATOR                                    DISCUSSION OF VARIANCE

Performance indicator I-A-7. RRB makes a              We were unable to meet our goal for processing
decision to pay, deny or transfer to SSA an           initial applications for recurring survivor benefits
initial annuity application for a railroad            due to reduced staffing levels and limited
retirement survivor not already receiving a           automation. Less than 50 percent of all initial
benefit within 60 days of the annuity beginning       recurring applications are processed
date.                                                 automatically, leaving a significant volume that
(Measure: % ≤ 60 days)                                must be processed manually by claims
                                                      examiners. In fiscal year 2008, we had an initial
Our goal for fiscal year 2008 was 94.0% and the       survivor staffing level of only 6.5 full-time
actual was 92.9%.                                     equivalent staff years (FTEs).

                                                      We have established a Survivor Processing
                                                      Improvement Team to discuss and implement
                                                      enhancements to the survivor automated
                                                      systems. We are hiring additional survivor
                                                      claims examiners to fill vacancies.

Performance indicator I-A-15. Reduce the              In fiscal year 2008, actual performance fell
number of days elapsed between the date the           below the target level due to staff vacancies
appeal is filed and a decision is rendered.           resulting from medical leave and retirements.
(Measure: average elapsed days)                       Employees formerly on leave have returned,
                                                      and one of the vacancies due to retirement has
Our goal for fiscal year 2008 was 190 days.           since been filled, and timeliness is improving.
The estimated actual was 239 days.

Performance indicator I-C-1. Offer electronic         Implementation of a process to allow
options to our customers, allowing them               beneficiaries to submit biweekly claims for
alternative ways to perform primary services via      sickness insurance benefits online (web SI-3) is
the Internet or interactive voice response            now scheduled for fiscal year 2010. The delay
systems.                                              is due to staff working on higher priority
(Measure: number of services available through        projects.
electronic media)

Our goal for fiscal year 2008 was to offer 18
services. We provided 17.

Performance indicator I-D-1. Improve                  In fiscal year 2008, actual performance fell
timeliness and efficiency in posting service and      below the target level due to significant changes
compensation data to agency records.                  in the annual reporting formats required of the
(Measure: % of service and compensation               rail employers and corresponding internal
records posted by April 15)                           processing changes. We are working with the
                                                      rail employers to avoid future problems.
Our goal for fiscal year 2008 was 99.0% and the
actual was 67.5%.




                                                  - 59 -
                  INDICATOR                                  DISCUSSION OF VARIANCE

Performance indicator I-D-2. Improve                Fiscal year 2008 was the first year using an
accuracy in posting service and compensation        expanded format for the BA-3, Annual Report of
data to agency records.                             Service and Compensation. Employers had
(Measure: % of service and compensation             some difficulty with the changes. We are
records posted accurately)                          working with them to avoid future problems.

Our goal for fiscal year 2008 was 99.0% and the
actual was 96.3%.


Performance indicator I-D-4. Enable                 Phase 3 of the Employment Reporting System
employers to use the Internet to conduct            (ERS) project to implement pre-payment and
business with the RRB, in support of the            post-payment verification (ID-4K and ID-4E)
Government Paperwork Elimination Act.               notices was delayed due to additional
(Measure: % of employers who use the new            unanticipated programming needs for notices
online reporting process; # of services available   that are released to multiple employers for the
through electronic media)                           same employee. Phase 3 was implemented in
                                                    February 2009.
Our goal for fiscal year 2008 was 9 Internet
services available and the actual was 8 Internet
services available.

Performance indicator II-A-6. Take prompt           The agency implemented 63 recommendations
corrective action on audit recommendations.         out of 67 with target dates in fiscal year 2008.
(Measure: % of audit recommendations                Had one additional recommendation been
implemented by target date)                         completed before the end of the fiscal year, the
                                                    agency would have exceeded the target. Of the
Our goal for fiscal year 2008 was 95.0% and the     four not completed, three were extended into
actual was 94.0%.                                   fiscal year 2009, and one was closed in January
                                                    2009.




                                                - 60 -
FINANCIAL SECTION
PAGE INTENTIONALLY LEFT BLANK 
 

                                        Financial Section

Message from the Chief Financial Officer

I am pleased to present the RRB’s Performance and Accountability Report for fiscal year 2009. This
report incorporates the annual performance report under the Government Performance and Results
Act of 1993, the internal control report under the Federal Managers’ Financial Integrity Act, and
audited consolidated financial statements under OMB guidance.

The RRB is committed to integrated and automated financial management systems that focus on the
agency’s mission and accountability. RRB strives to maintain an environment in which program and
financial managers work in partnership to ensure the integrity of financial information and use that
information to make decisions, measure performance, and monitor outcomes. In this environment,
we envision integrated financial management systems with appropriate internal review and controls
that provide agency managers with timely, accurate, and easily accessible information. We expect
managers throughout the agency to use that information to achieve program objectives in a
cost-effective manner and to ensure accountability.

The RRB continued to provide high quality financial management and financial reporting during fiscal
year 2009. The RRB:

    	 	 Achieved an unqualified, or clean, audit opinion on its consolidated financial statements for
         fiscal year 2009. We also continued to prepare unaudited quarterly financial statements and
         met the accelerated schedule of releasing these statements to OMB.

    	 	 Implemented audit recommendations as follows:

        At the beginning of fiscal year 2009, the agency’s audit follow-up tracking system reported
        164 audit recommendations as being open. During the fiscal year, audit reports containing
        another 75 recommendations were issued. As a result, the total number of open
        recommendations during the year was 239. At the same time, final action was completed on
        51 audit recommendations and 8 audit recommendations were rejected, resulting in a
        balance at the end of the fiscal year of 180 open recommendations. Many of the open
        recommendations deal with information technology, including several security-related
        recommendations, and require ongoing, long-term corrective actions to bring them to
        closure. Additionally, the status of the OIG-identified material weaknesses and planned
        corrective action are presented in the Management’s Discussion and Analysis’ Management
        Assurance section.

In fiscal year 2010, the RRB plans to contract for a requirements analysis to evaluate potential
and/or actual performance gaps in our financial system. The analysis will be used to provide the
basis for estimating the cost of any changes required, if any actual or potential performance gaps
call for modernization.

The RRB will continue to provide financial information that is timely, accurate and useful in the
coming years. We are committed to continuing our tradition of providing high quality financial
services to agency management, the Congress, OMB, and the constituents we serve.



                                                                                    Original signed by:

                                                                                   Kenneth P. Boehne
                                                                                 Chief Financial Officer



                                                 - 63 -

RAILROAD RE1"IREMENT BOARD
CONSOLlDA"rED BALANCE SHEET
AS OF SEP"rEMBER 30, 2009 AND 2008
(in dollars)

                                                                          FY 2009                    FY 2008

ASSETS

 Intragovernmental: 

  Fund Balance with Treasury (Note 3) 
                                   $81,044,123                  $40,683,215
  Investments (Note 4) 
                                                1,191,177,782               1 ,407,311 ,638
  Accounts Receivable (Note 6) 
                                        4,349,093,749               4,047,203,316

Totallntragovernmental                                                  5,621,315,654               5,495,198,169

  NRRIT Net Assets (Note 5) 
                                          23,345,568,274              25,320,737,474
  Accounts Receivable, Net (Note 6) 
                                      36,674,092                  32,248,714
  Inventory and Related Property, Net (Note 7) 
                               97,803                      97,452
  General Property, Plant and Equipment, Net (Note 8) 
                     1,504,964                   1,432,927
  Other 
                                                                      36,955                      32,936

TOTAL ASSETS                                                          $29,005,197,742             $30,849,747,672

LIABILITIES (Note 9)

Intragovernmental: 

 Accounts Payable 
                                                     $493,138,638                $509,991,700
 Debt 
                                                                 3,416,875,148               3,164,768,904
 Other 
                                                                    1,252,314                   1,094,480

Totallntragovernmental                                                  3,911,266,100               3,675,855,084

 Accounts Payable 
                                                           642,061                     619,370
 Benefits Due and Payable 
                                               928,291,008                 874,547,337
 Other 
                                                                  122,027,274                 111,055,144

TOTAL LIABILITIES 
                                                     4,962,226,443               4,662,076,935

COMMITMENTS AND CONTINGENCIES (Note 10) 


NET POSn"ION 


Unexpended Appropriations - Earmarked Funds (Note 17) 
                       522,250                     504,921
Unexpended Appropriations - Other Funds 
                                  22,376,577                   5,699,982
Cumulative Results of Operations - Earmarked Funds (Note 17) 
         24,019,150,744              26,181,465,834
Cumulative Results of Operations - Other Funds 
                              921,728


TOTAL NET POSI'TION 
                                                  24,042,971,299              26,187,670,737

TOTAL LIABILITIES AND NET POSITION 
                                  $29,005,197,742             $30,849,747,672


                     The accompanying notes are an integral part of these financial statements.




                                                          - 64­
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF NET COST
FOR THE YEARS ENDED SEPTE'MBER 30, 2009 AND 2008
(In dollars)
                                                                    FY 2009 
             FY 2008

Program Costs
 Rallroa'd Retirement Program 

      Gross Costs (Note 11) 
                                   $10;948,154,773       $10,350,267.40'9
      Less: ~arned Revenue 
                                         ,10,9'87,532,          9,663,267
      Net Program Costs 
                                        10,937,167,241        10,340,604,142


 Railroad Unemployment and Sickness Insurance Program
     Gross Costs (Note 11)                                          205,640,078           122,293,690
     Less: EamedRevenue                                              22,969,207            24.054 i 840
     Net Program Costs                                              182,650,871            98,238,850


Costs Not As'slgned to Programs                                                 o                    ()
Less: Earned Revenues Not Atttibuted to Programs                         346,558              290.031

NET COST OF OPERATIONS                                          $11 ;119.411 ,554 
   $10,431'$,552,961

                   The accompanying notes are an integral part of these financial statements.




                                                   - 65­
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
FOR THE YEAR ENDED SEPTEMBER 30, 2009
(In dollars)

                                                                             FY2009




                                                 Earmarked          All Other                         Consolidated
                                                   Funds             Funds          Eliminations         Total

Cumulative Results of Operations:

      Beginning Balances                      $26,181,465,834                                       $26,181,465,834

Budgetary Financing Sources:
     Appropriations Used                          321 ,053,337     210,780,989                          531 ,834,326
      Non-Exchange Revenue                      5,161,946,484            1,485     (321,053,337)      4,840,894,632
     Transfers in from NRRIT (Note 12)          1,553,000,000                                         1,553,000,000
     Transfers in/out Without Reimbursement     4,003,733,000         1,480,000       (1,480,000)     4,003,733,000

Other Financing Sources (Non-Exchange):
       Imputed Financing                             8,786,495                                            8,786,495
       Change in NRRIT Assets                   (1,975,169,200)                                      (1,975,169,200)
       Loss Contingency                             (5,000,000)                                          (5,000,000)
      Other                                             {1,061}                                              {1,061}

      Total Financing Sources                   9,068,349,055      212,262,474     (322,533,337)      8,958,078,192
      Net Cost of Operations                   11,230,664,145      211,340,746     {322,533,337}     11,119,471,554
      Net Change                               (2,162,315,090)         921,728                       (2,161,393,362)

      Cumulative Results of Operations         24,019,150,744          921,728                       24,020,072,472

Unexpended Appropriations:

      Beginning Balances                              504,921        5,699,982                            6,204,903

Budgetary Financing Sources:
     Appropriations Received                     $321,150,000     $228,480,000                        $549,630,000
      Other Adjustments                               (79,334)      ( 1,022,416)                        (1,101,750)
     Appropriations Used                         (321,053,337}    (210,780,989)                       (531,834,326)

      Total Budgetary FinanCing Sources                17,329       16,676,595                           16,693,924

      Total Unexpended Appropriations                 522,250       22,376,577                           22,898,827 


      Net Position                            $24,019,672,994      $23,298,305                      $24,042,971,299 



                     The accompanying notes are an integral part of these financial statements.




                                                       - 66­
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF CHANGES IN NET POSn"ION
FOR THE. YEAR ENDED SEPTEMBER 30, 2008
(in dollars)

                                                                             FY2008



                                                  Earmarked         All Other                        Consolidated
                                                    Funds            Funds         Eliminations         Total

Cumulative Results of Operations:

      Beginning Balances                       $33,520,774,182                                     $33,520,774,182

Budgetary Financing Sources:
     Appropriations Used                           359,073,113      77,657,616                         436,730,729
      Non-Exchange Revenue                       5,421,697,351           1,915     (359,073,113)     5,062,626,153
     Transfers in from NRRIT (Note 12)           1,298,000,000                                       1,298,000,000
     Transfers in/out Without Reimbursement      3,633,185,000                                       3,633,185,000

Other Financing Sources (Non-Exchange):
       Imputed Financing                             8,559,257                                           8,559,257
       Change in NRRIT Assets                   !7,339,856,526}                                     !7,339,856,526)

      Total Financing Sources                    3,380,658,195      77,659,531     (359,073,113)     3,099,244,613
      Net Cost of Operations                    10,719,966,543      77,659,531     (359,073,113}    10,438,552,961
      Net Change                                (7,339,308,348)                                     (7,339,308,348)

      Cumulative Results of Operations          26,181,465,834                                      26,181,465,834

Unexpended Appropriations:

      Beginning Balances                              495,477        6,132,482                           6,627,959

Budgetary Financing Sources:
     Appropriations Received                     $359,150,000     $80,404,670                         $439,554,670
      Other Adjustments                               (67,443)     (3,179,554 )                         (3,246,997)
     Appropriations Used                         {359,073,113)    {77,657,6161                        {436,730,729)

      Total Budgetary Financing Sources                  9,444        !432,500}                           {423,0561

      Total Unexpended Appropriations                 504,921        5,699,982                           6,204,903 


      Net Position                            $26,181,970,755      $5,699,982                      $26,187,670,737 



                     The accompanying notes are an Integral part of these financial statements.




                                                       - 67­
RAILROAD RETIREMENT BOARD
COMBINED STATEMENT OF BUDGETARY RESOURCES
FOR THE YEARS ENDED SEPTEMBER 30, 2009 AND 2008
(in dollars)


                                                                          FY 2009           FY2008
BUDGETARY RESOURCES

Unobligated balance, brought forward, October 1                               $9,638,020        $10,693,589
 Beginning Balance Adjustment                                                       $214                 $0
Adjusted unobligated balance, brought forward, October 1                      $9,638,234        $10,693,589

Recoveries of prior year unpaid obligations                                      588,678             315,745
Budget authority
 Appropriation                                                            11,494,637,575     11,082,467,857
 Borrowing authority                                                       3,661,300,000      3,385,800,000
 Spending authority from offsetting collections
  Earned 

    Collected 
                                                               34,312,055         34,065,154
    Change in receivables from Federal sources 
                                  52,119               (776)
 Expenditure transfers from trust funds                                      114,749,000        108,930,154
Subtotal                                                                  15,305,050,749     14,611,262,389

Nonexpenditure transfers, net, anticipated and actual                             (7,565)           (13,514)
Temporarily not available pursuant to Public Law                            (305,916,734)      (445,444,583)
Pennanently not available                                                 (3,395,018,713)    !3,232,812,162}

TOTAL BUDGETARY RESOURCES                                                $11,614,334,649    $10,944,001,464

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 18)
 Direct                                                                  $11,573,730,354    $10,925,290,386
 Reimbursable                                                                  9,578,424          9,073,058
 Subtotal                                                                 11,583,308,778     10,934,363,444
Unobligated balan~
 Apportioned                                                                  22,405,143          1,489,724
Unobligated balance not available                                              8,620,728          8,148,296

TOTAL STATUS OF BUDGETARY RESOURCES                                      $11,614,334,649    $10,944,001,464

CHANGE IN OBLIGATED BALANCE
Obligated balance, net
 Unpaid obligations, brought forward, October 1                            $926,432,936       $910,619,388
  Uncollected customer payments from Federal sources, brought
  forward, October 1                                                         (1,000,000)        {5,794,654}
Total unpaid obligated balance, net                                        $925,432,936       $904,824,734

Obligations incurred, net                                               $11.583,308,778     $10,934,363,444
Gross outlays                                                           (11,537,323,798)    (10,912,440,273)
Recoveries of prior year unpaid obligations, actual                            (588.fr78)          (315,745)
Change in uncollected customer payments from Federal sources                 (1,773,591 )          (999,224)

Obligated balance, net, end of period
 Unpaid obligations (Note 13)                                              $971,829,238       $926,432,936
 Uncollected customer payments from Federal sources                          (2,773,591 )       !1.000,OOO}
Total, unpaid obligated balance, net, end of period                        $969,055,647       $925,432,936

NET OUTLAYS (Note 14)
 Gross outlays                                                          $11,537,323,798     $10,912,440,273
 Offsetting collections                                                     (147.339.583)      (141.995,308)
 Distributed offsetting receipts                                         ( 4.324.733,000)    (3.992,185.000}

 Net Outlays                                                             $7,065,251,215      $6,778,259,965


               The accompanying notes are an integral part of these financial statements.



                                                    - 68­
                                          Statement of Social Insurance (Note 15, Note 16)

                                                    Actuarial Surplus or (Deficiency)

                                                75-year Projection as of January 1, 2009

                                                  (Present values in billions of dollars)

                                                                                                                          Unaudited
                                                                               1/1/2009     1/1/2008   1/1/2007   1/1/2006 1/1/2005

Estimated future income (excluding interest) received from or on behalf of:

   Current participants not yet having attained retirement age                    $75.9       $69.6      $66.7      $65.0    $56.8
   Current participants who have attained retirement age                           69.0        66.2       63.4       62.5     56.9
   Those expected to become participants                                           57.2        43.3       43.1       44.3     31.3
   Subtotal - future income for the 75-year period                                202.1       179.1      173.1      171.8    145.0


Estimated future expenditures:

   Current participants not yet having attained retirement age                     91.2        88.4       86.0       84.1     72.9
   Current participants who have attained retirement age                          102.1        97.0       92.8       91.7     84.1
   Those expected to become participants                                           29.5        26.0       25.5       25.0     15.8
   Subtotal - future expenditures for the 75-year period                          222.8       211.5      204.2      200.8    172.8


Estimated future excess of income over expenditures:                              (20.7)      (32.3)     (31.1)     (29.0)   (27.8)


Fund balance:                                                                      21.8        33.2       32.0       30.0     28.6


Fund balance plus estimated future excess of income over expenditures:               1.1        0.9        0.9        1.0      0.8




                                                                 - 69 -
Notes to the Financial Statements: Fiscal Years Ended September 30, 2009 and 2008


1. 	Summary of Significant Accounting Policies

A. 	Basis of Presentation

Public Law 107-289, the Accountability of Tax Dollars Act of 2002, added the Railroad
Retirement Board (RRB) as an agency required to prepare audited financial statements for
fiscal year 2003 and subsequent years. Office of Management and Budget (OMB) guidance
requires that Performance and Accountability Reports (P&AR) for fiscal year 2009 are to be
submitted to the President, the Congress, and the Director of OMB by November 16, 2009. As
required by law, OMB has also prescribed the form and content of financial statements under
OMB Circular A-136. The RRB’s financial statements were prepared in accordance with the
form and content prescribed by OMB and with generally accepted accounting principles and
standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).

The principal statements (prepared on a consolidated basis, except for the Statement of
Budgetary Resources which was prepared on a combined basis, and eliminating all significant
interfund balances and transactions) are comprised of the Balance Sheet and Statements of Net
Cost, Changes in Net Position, Budgetary Resources, and Social Insurance. These statements
are different from the financial reports, also prepared by the RRB pursuant to OMB directives,
used to monitor and control the RRB's use of budgetary resources.

B. 	Reporting Entity

The railroad retirement and the railroad unemployment and sickness insurance programs are
financed through the following accounts:

●	 Railroad Retirement (RR) Account, 60X8011, funds retirement, survivor, and disability
   benefits in excess of social security equivalent benefits from payroll taxes on employers and
   employees and other income sources. Account 60X8011 is considered an earmarked fund.
   Our authority to use these collections is 45 United States Code (USC) §231(F)(c)(1).

●	 Social Security Equivalent Benefit (SSEB) Account, 60X8010, funds the portion of railroad
   retirement benefits equivalent to a social security benefit from various income sources
   related to these benefits. Account 60X8010 is considered an earmarked fund. Our authority
   to use these collections is 45 USC §231N-1(c)(1).

●	 Dual Benefits Payments (DBP) Account, 60 0111, funds the phase-out costs of certain
   vested dual benefits from general appropriations. Account 60 0111 is considered a general
   fund. Our authority to use these collections is 45 USC §231(N)(d).

●	 Federal Payments to the Railroad Retirement Accounts, 60X0113, was established by OMB,
   not by legislation, and is used as a conduit for transferring certain income taxes on benefits
   and receiving credit for the interest portion of uncashed check transfers. Account 60X0113
   is considered an earmarked fund. This account has no basis in law.

●	 Limitation on Administration Account, 60 8237, pays salaries and expenses to administer
   the railroad retirement program and the railroad unemployment and sickness insurance
   program. This account is financed by the RR Account, the SSEB Account, and the Railroad


                                             - 70 -
   Unemployment Insurance Trust Fund, Administrative Expenses. Account 60 8237 is 

   considered an earmarked fund. Our authority to use these collections is 

   45 USC §231N-1(c) and 45 USC §231N-(H). 


●	 Limitation on Administration Account, 60X8237, Public Law 107-217, Sec. 121(d)(3),
   authorizes Federal agencies to retain indefinitely as “no-year money” any unexpended
   portion of the fiscal year appropriated funds, up to the estimated cost of the operation and
   maintenance (O&M) of the delegated properties. Funds carried over may only be expended
   for O&M and repair of the facility. Account 60X8237 is considered an earmarked fund.

●	 Railroad Unemployment Insurance Trust Fund, Benefit Payments, 60X8051.001, funds
   railroad unemployment and sickness insurance benefits from contributions by railroad
   employers. Account 60X8051.001 is considered an earmarked fund. Our authority to use
   these collections is 45 USC §360.

●	 Railroad Unemployment Insurance Trust Fund, Administrative Expenses, 60X8051.002, was
   established to pay salaries and expenses to administer the program. Account 60X8051.002
   is considered an earmarked fund. This fund is financed by contributions from railroad
   employers. Monies are transferred from this fund, based on cost accounting estimates and
   records, to the Limitation on Administration Account (60 8237) from which salaries and
   expenses are paid for both the railroad retirement program and the railroad unemployment
   and sickness insurance program. Our authority to use these collections is 45 USC §361.

●	 Limitation on the Office of Inspector General, 60 8018, was established to fund the
   administration of the Inspector General's Office. Account 60 8018 is considered an
   earmarked fund. Our authority to use these collections is Public Law 111-8.

●	 City and State Taxes (6275) was established as a holding account for amounts withheld
   from employees' salaries but not yet paid to the appropriate institutions.

●	 Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act, 60X0114:
   Funds provided under Public Law 111-5, American Recovery and Reinvestment Act of
   2009.

●	 Economic Recovery Payments – Recovery Act, 60 0115: Funds provided under Public Law
   111-5, American Recovery and Reinvestment Act of 2009.

●	 Administrative Expenses – Recovery Act, 60X0116: Funds provided under Public Law
   111-5, American Recovery and Reinvestment Act of 2009.

●	 Administrative Expenses – Recovery Act, 60 0116: Funds provided under Public Law
   111-5, American Recovery and Reinvestment Act of 2009.

●	 Limitation on Administration – Recovery Act, 60X8262: Funds provided under Public Law
   111-5, American Recovery and Reinvestment Act of 2009.

●	 Limitation on Administration – Recovery Act, 60 8262: Funds provided under Public Law
   111-5, American Recovery and Reinvestment Act of 2009.




                                             - 71 -
C. Budgets and Budgetary Accounting

Budget requests are prepared and submitted by the RRB in accordance with OMB Circular A-11
and other specific guidance issued by OMB. The RRB prepares and submits to OMB
Apportionment and Reapportionment Requests (SF-132) in accordance with OMB Circular A-11
for all funds appropriated by the Congress or permanently appropriated. Although OMB may
apportion funds by category, time period, or object class of expense, the RRB controls and
allocates all apportioned funds by three-digit object class codes of expense. For budgetary
accounting, all receipts are recorded on a cash basis of accounting and obligations are recorded
against the object class codes when they are incurred, regardless of when the resources
acquired are to be consumed. Obligations are amounts of orders placed, contracts awarded,
services received, and similar transactions during a given period that will require payments
during the same or a future period. Quarterly, the RRB prepares and submits Reports on
Budget Execution (SF-133) to OMB, reporting all obligations incurred against the amounts
apportioned.

D. Basis of Accounting

As required by law, the DBP Account is on a cash basis of accounting. Payroll taxes and
unemployment contributions are recorded on a modified cash basis in accordance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 7. All other transactions are
recorded on an accrual basis of accounting and a budgetary basis. Under the accrual method,
revenues (except payroll taxes and unemployment contributions which are on a modified cash
basis) are recognized when earned and expenses are recognized when a liability is incurred.
For budgetary accounting, financial transactions are recorded when obligations are incurred,
regardless of when the resources acquired are to be consumed.

The accompanying consolidated financial statements of the RRB include all funds maintained
by the RRB, after elimination of all significant interfund balances and transactions.

E. Concepts

The Fund Balance with Treasury (FBWT) is the aggregate amount of funds on deposit with the
Treasury, excluding seized cash deposited. The FBWT is increased by (1) receiving
appropriations, reappropriations, continuing resolutions, appropriation restorations, and
allocations; and (2) receiving transfers and reimbursements from other agencies. It also is
increased by amounts borrowed from the Bureau of the Public Debt (BPD), the Federal
Financing Bank, or other entities, and amounts collected and credited to appropriation or fund
accounts. The FBWT is reduced by (1) disbursements made to pay liabilities or to purchase
assets, goods, and services; (2) investments in U.S. securities (securities issued by BPD or
other Federal Government agencies); (3) cancellation of expired appropriations; (4) transfers
and reimbursements to other entities or to the General Fund of the Treasury; and,
(5) sequestration or rescission of appropriations.

F. Earmarked Funds

SFFAS No. 27, Identifying and Reporting Earmarked Funds, requires separate presentation and
disclosure of earmarked funds balances in the financial statements. Earmarked funds are
financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. Earmarked funds meet the following criteria:



                                             - 72 -
   	 	 A statute committing the Federal Government to use specifically-identified revenues and
        other financing sources only for designated activities, benefits, or purposes;
   	 	 Explicit authority for the earmarked fund to retain revenues and other financing sources
        not used in the current period for future use to finance the designated activities, benefits,
        or purposes; and
   	 	 A requirement to account for and report on the receipt, use, and retention of the
        revenues and other financing sources that distinguishes the earmarked funds from the
        Government’s general revenues.

Refer to Note 17, Earmarked Funds, for additional information.


2. 	Related Parties

The RRB has significant transactions with the following governmental and nongovernmental
entities:

●	 The Department of the Treasury (Treasury) collects payroll taxes from the railroads on
   behalf of the RRB. The taxes collected are credited by Treasury to the RRB’s trust fund
   account via an appropriation warrant. In fiscal years 2009 and 2008, net payroll taxes
   transferred to the RRB by Treasury were $4.7 billion and $4.9 billion, respectively.

   Treasury provides payment services to Federal agencies and operates collections and
   deposit systems. The RRB invests in government account securities through BPD. In fiscal
   years 2009 and 2008, investments, including accrued interest, totaled $1.2 billion and
   $1.4 billion, respectively. In addition, Treasury advances funds to the RRB for the financial
   interchange which are repaid annually. The amount paid by the RRB to Treasury in fiscal
   year 2009 due to the financial interchange advances during fiscal year 2008 included
   principal of $3.4 billion and interest of $171 million. The amount paid by the RRB to
   Treasury in fiscal year 2008 due to the financial interchange advances during fiscal year
   2007 included principal of $3.2 billion and interest of $181.4 million.

●	 The Social Security Administration (SSA) and RRB participate in an annual financial
   interchange. The financial interchange is intended to place the social security trust funds in
   the same position in which they would have been had railroad employment been covered by
   the Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2009,
   the RRB trust funds realized $4.1 billion through the financial interchange.

   Under Section 7(b)(2) of the Railroad Retirement Act of 1974, the RRB is required to pay
   certain individuals, described in this section, monthly social security benefits on behalf of
   SSA. SSA reimburses the RRB for benefits paid on behalf of SSA. The amounts
   reimbursed in fiscal years 2009 and 2008 were $1.3 billion and $1.2 billion, respectively.

●	 The Centers for Medicare & Medicaid Services (CMS) participates in the annual financial
   interchange in the same manner as described for SSA. The RRB transferred $524 million
   and $526 million to CMS in fiscal years 2009 and 2008, respectively. In addition to the
   financial interchange transactions, CMS reimburses the RRB for certain expenses it incurs
   associated with administering the Medicare program. The amounts reimbursed in fiscal
   years 2009 and 2008 were $10.5 million and $9.2 million, respectively.




                                               - 73 -
●	 The General Services Administration (GSA) provides payroll processing and human
   resources services to the RRB. In addition, the RRB paid rent to GSA in the amount of
   $3.3 million for fiscal year 2009 and $3.4 million in 2008.

●	 The Department of Labor (DOL) invests Railroad Unemployment Insurance Act (RUIA)
   contributions. Accounts receivable with the DOL amounted to $36 million and $110 million
   for fiscal years 2009 and 2008, respectively.

●	 The National Railroad Retirement Investment Trust (NRRIT) transfers funds to the RRB for
   payment of railroad retirement benefits. During fiscal years 2009 and 2008, the NRRIT
   transferred $1,553 million and $1,298 million, respectively, to the RR Account. The NRRIT
   holds and invests funds not immediately needed to pay benefits under the RRA. The net
   assets of the NRRIT are reported on the RRB’s balance sheet as a non-governmental
   investment. The RRB reports this information based on information provided by the NRRIT
   for that purpose.


3. 	Fund Balances with Treasury

Fund balances with Treasury at September 30 consisted of:

                                                                         2009               2008
   A. Fund Balances:
          (1) Trust Funds 	                                          $58,103,826         $34,467,960
          (2) General Funds 	                                         22,940,297           6,204,903
          (3) Other Fund Types 	                                               0              10,352

                    Total           	                                $81,044,123         $40,683,215

   B. Status of Fund Balance with Treasury (FBWT)
           (1) Unobligated Balance
               (a) Available 	                                       $22,405,143         $ 1,489,724
               (b) Unavailable 	                                       8,620,728           8,148,296
           (2) Obligated Balance not yet Disbursed	                   50,018,252          31,034,843
           (3) Non-Budgetary FBWT           	                                  0              10,352

                    Total           	                                $81,044,123         $40,683,215

   C. Other Information: 	The above represents cash held in Treasury. Unobligated and obligated
      funds not held in cash are invested in Treasury securities.


4. 	 Investments

The investments in Treasury securities represent the investments of two of the RRB’s
earmarked funds, the RR and the SSEB Accounts.

                                                      Amounts for Balance Sheet Reporting
                                             Cost             Interest Receivable      Investments Net
Intragovernmental Securities:
    Non Marketable Par Value 2009        $1,189,162,000               $2,015,782        $1,191,177,782

  Non Marketable Par Value 2008          $1,404,971,000               $2,340,638        $1,407,311,638



                                                - 74 -
The balance on September 30, 2009, consisted of investments in 3.000 percent par value
specials (with market value equal to face value) maturing on October 1, 2009. The balance on
September 30, 2008, consisted of investments in 3.125 percent par value specials (with market
value equal to face value) maturing on October 1, 2008. Par value specials mature on the first
working day of the month following the month of issue and have a yield based on the average
yield of marketable Treasury notes with maturity dates at least 3 years away.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with the RR and SSEB Accounts. The cash receipts from the railroads for the RR
and SSEB Accounts are deposited in the Treasury, which uses the cash for general government
purposes. Treasury securities are issued to the RRB as evidence of its receipts. Treasury
securities are an asset to the RRB and a liability to the Treasury. Because the RRB and the
Treasury are both parts of the government, these assets and liabilities offset each other from
the standpoint of the government as a whole. For this reason, they do not represent an asset or
a liability in the U.S. government-wide financial statements.

Treasury securities provide the RRB with authority to draw upon the Treasury to make future
benefit payments or other expenditures. When the RRB requires redemption of these securities
to make expenditures, the government finances those expenditures out of accumulated cash
balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures. This is the same way that the government finances all other
expenditures.


5. NRRIT Net Assets

The balance sheet amounts represent the net asset value of NRRIT assets, at fair value, as of
September 30, 2009 and 2008. These figures were provided to the RRB by the NRRIT for the
fiscal years ended September 30, 2009 and 2008.

Readers of these financial statements should be aware that the RRSIA authorizes the NRRIT to
invest railroad retirement assets in a diversified investment portfolio in the same manner as
those of private sector retirement plans.


6. Accounts Receivable

• Intragovernmental

Accounts receivable - Intragovernmental at September 30 consisted of:

                                                                              2009             2008

  Financial Interchange – Principal                                        $4,186,600,000   $3,826,800,000
  Financial Interchange – Interest                                            122,800,000      109,700,000
  Department of Labor                                                          35,552,013      110,455,311
  CMS – Refund of Medicare Part B Premiums                                      3,946,313                0
  Social Security Administration - OASI/DI Benefits
                  (Old Age and Survivors Insurance/Disability Insurance)         195,423          248,005

    Total                                                                  $4,349,093,749   $4,047,203,316




                                                         - 75 -
• Accounts Receivable, Net

Accounts receivable, net at September 30 consisted of:

                                                                              2009               2008

   Accounts receivable - Benefit overpayments                              $45,632,597        $40,161,656
   Accounts receivable – Past due RUI contributions and taxes                  241,565             54,511
   Accounts receivable – Interest, penalty & administrative costs              315,979            241,736
    Total                                                                  $46,190,141        $40,457,903
   Less: Allowances for doubtful accounts                                    9,516,049          8,209,189

     Net Total                                                             $36,674,092        $32,248,714

The RRB’s September 30, 2009, accounts receivable balance (after deducting currently not
collectible (CNC) receivables but prior to the application of the allowance for doubtful accounts)
of $46,190,141 includes $41,431,006 (90%) in railroad retirement program receivables and
$4,759,135 (10%) in railroad unemployment insurance program receivables. The total
allowance for doubtful accounts is $9,516,049. This includes $8,199,197 (86%) for the railroad
retirement program and $1,316,852 (14%) for the unemployment insurance program
receivables.

The allowance for doubtful accounts for the railroad retirement program was calculated,
excluding debts classified as CNC, as follows: (1) categorizing the accounts receivable by
cause and age, (2) analyzing each category using historical data, (3) determining the
percentage of amounts due the RRB that would probably not be collected, and (4) applying the
determined percentages against accounts receivable.


7. Inventory and Related Property

Operating materials and supplies are valued on the cost basis. The recorded values are
adjusted for the results of physical inventories taken periodically. Expenditures are recorded
when inventories are consumed.


8. General Property, Plant and Equipment

These assets are stated at cost less accumulated depreciation/amortization. Acquisitions are
capitalized if the cost is $5,000 or more and the service life is 2 years or greater.
Depreciation/amortization is computed on the straight-line method. These assets consisted of:

                                                                           At September 30, 2009
                                          Service                               Accumulated         Net
        Classes of Fixed Assets            Lives                Cost            Depreciation     Book Value
Structures, facilities and leasehold
  improvements                              15 years         $ 2,723,731        $ 2,638,317       $      85,414
ADP software                                 5 years          19,601,720         19,562,554              39,166
Equipment                                 5-10 years           5,275,125          5,142,977             132,148
Internal-Use Software in Development                           1,248,236                  0           1,248,236

                                                             $28,848,812        $27,343,848       $1,504,964



                                                    - 76 -
                                                                                At September 30, 2008
                                             Service                                 Accumulated         Net
        Classes of Fixed Assets               Lives                Cost              Depreciation     Book Value
Structures, facilities and leasehold
  improvements                                15 years          $ 2,723,731          $ 2,612,979          $ 110,752
ADP software                                   5 years           19,578,768           19,521,668              57,100
Equipment                                   5-10 years            5,412,577            5,250,276             162,301
Internal-Use Software in Development                              1,102,774                    0           1,102,774

                                                                $28,817,850          $27,384,923          $1,432,927

9. Liabilities

Liabilities at September 30 consisted of:

                                                                                 2009                     2008
  Intragovernmental:
    Other – Unfunded Federal Employees’ Compensation Act
           Liability                                                      $        393,968         $        343,470

  Public:
    Other – Accrued Unfunded Leave                                        $      7,200,668         $      6,888,788

  Total Liabilities Not Covered by Budgetary Resources                    $       7,594,636        $       7,232,258
  Total Liabilities Covered by Budgetary Resources                            4,954,631,807            4,654,844,677

  Total Liabilities                                                       $4,962,226,443           $4,662,076,935

• Debt

Intragovernmental debt results from borrowing from Treasury to fund benefit payments from the
SSEB Account.

                                                                                 2009                     2008

   Beginning Balance, Principal                                           $3,096,200,000           $2,944,600,000
    New Borrowing                                                          3,656,700,000            3,381,000,000
    Repayments                                                            (3,393,700,000)          (3,229,400,000)
    Ending Balance, Principal                                              3,359,200,000            3,096,200,000
    Accrued Interest                                                          57,675,148               68,568,904

     Total                                                                $3,416,875,148           $3,164,768,904

• Benefits Due and Payable

Benefits due and payable are accrued for all benefits to which recipients are entitled for the
month of September, which, by statute, are not paid until October. Also, liabilities are accrued
on benefits for past periods that have not completed processing, such as benefit payments due
but not paid. The amounts include uncashed checks of $11,628,885 and $11,132,404, at
September 30, 2009 and 2008, respectively. Under Public Law 100-86, the amount of RRB
benefits represented by checks which remain uncashed for 12 months after the check issue
date are credited (including interest thereon) to the accounts from which the checks were


                                                       - 77 -
drawn. The principal amount of uncashed checks must remain in a liability account until the
RRB determines that entitlement no longer exists or another check is issued to the beneficiary.
A special workload of approximately 15,000 benefit cases, estimated at $6 million to $10 million,
has been identified and will be processed over the next few years.

• Other Liabilities

Other liabilities at September 30 consisted of:

                                                                                                2009
                                                        Non-Current           Current           Total

   Intragovernmental:
     Employer Contributions & Payroll Taxes Payable      $            0   $      858,346   $      858,346
     Unfunded FECA Liability                                          0          393,968          393,968
      Total Intragovernmental                                         0        1,252,314        1,252,314

   Accrued Unfunded Liabilities                                    0           7,200,668      7,200,668
   Accrued Payroll                                                 0           3,949,442      3,949,442
   Accrued RRB Contributions – Thrift Savings Plan                 0              95,867         95,867
   Withholdings Payable                                            0              41,392         41,392
   Contingent Liability (see Note 10 for details)        105,000,000                        105,000,000
   Capital Lease Liability                                         0                   0              0
   Other                                                           0           5,739,905      5,739,905

      Total Other Liabilities                           $105,000,000      $18,279,588      $123,279,588


                                                                                                2008
                                                        Non-Current           Current           Total

   Intragovernmental:
     Employer Contributions & Payroll Taxes Payable      $            0   $      751,010    $     751,010
     Unfunded FECA Liability                                          0          343,470          343,470
      Total Intragovernmental                                         0        1,094,480        1,094,480

   Accrued Unfunded Liabilities                                    0           6,888,788      6,888,788
   Accrued Payroll                                                 0           3,514,699      3,514,699
   Accrued RRB Contributions – Thrift Savings Plan                 0              74,070         74,070
   Withholdings Payable                                            0              26,618         26,618
   Contingent Liability (see Note 10 for details)        100,000,000                        100,000,000
   Capital Lease Liability                                         0               1,446          1,446
   Other                                                           0             549,523        549,523

      Total Other Liabilities                           $100,000,000      $12,149,624      $112,149,624



10. Commitments and Contingencies

The RRB is involved in the following actions:

●	 Two Class 1 railroads have filed suits claiming a refund of RRTA or FICA taxes paid on
   moving expenses and interest on supplemental annuity taxes. The RRB’s legal counsel has
   determined that it is probable that the RR Account is contingently liable for an estimated
   amount of $5 million and reasonably possible that the RRB is contingently liable for an
   estimated amount of $2 million. The amount of $5 million was recorded in fiscal year 2009
   and is reflected on the Balance Sheet under other liabilities.


                                                      - 78 -
●	 In fiscal year 2005, we recorded a contingent liability in the amount of $100,000,000, for an
   estimated forthcoming adjustment to the financial interchange for military service credits due
   SSA.

The total fiscal year 2009 contingent liability recorded is $105,000,000.

●	 Several Class 1 railroads have filed claims for refund of taxes with the Internal Revenue
   Service (IRS). Of the $2.6 billion in claims, the RRB’s legal counsel has determined that it is
   reasonably possible that the RR and SSEB Accounts are contingently liable for an estimated
   amount of $1.2 billion, and the $1.4 billion is remote. Under the anti-disclosure provision of
   the IRS code, we are not permitted to disclose any details related to these claims. No
   provision has been made in the accompanying financial statements regarding these claims
   other than this disclosure.

As of September 30, 2009, the RRB had contractual arrangements which may result in future
financial obligations of $27.9 million.

11. 	Intragovernmental Costs and Exchange Revenue

                                                                   2009                2008
  Railroad Retirement (RR) Program
   Intragovernmental Costs 	                                   $ 190,456,180       $ 208,857,878
   Public Costs	                                                10,757,698,593      10,141,409,531
       Total RR Program Costs                                  $10,948,154,773     $10,350,267,409
                                                                                        	

   Intragovernmental Earned Revenue                            $    10,545,873     $     9,172,230
   Public Earned Revenue                                               441,659             491,037
       Total RR Program Earned Revenue                         $    10,987,532     $     9,663,267

  Railroad Unemployment and Sickness Insurance (RUIA)
  Program
    Intragovernmental Costs 	                                  $     4,701,258     $     4,689,312
    Public Costs	                                                  200,938,820         117,604,378
        Total RUIA Program Costs 	                             $   205,640,078     $   122,293,690

   Intragovernmental Earned Revenue                            $             0     $             0
   Public Earned Revenue                                            22,989,207          24,054,840
       Total RUIA Program Earned Revenue                       $    22,989,207     $    24,054,840

These totals do not include $346,558 and $290,031 of earned revenues not attributable to either
program for fiscal years 2009 and 2008, respectively.

Intragovernmental costs (exchange transactions made between two reporting entities within the
Federal government) are being reported separately from costs with the public (exchange
transactions made between the reporting entity and a non-Federal entity). Intragovernmental
exchange revenues (exchange transactions made between two reporting entities within the
Federal government) are reported separately from exchange revenues with the public
(exchange transactions made between the reporting entity and a non-Federal entity).
Intragovernmental expenses relate to the source of goods and services purchased by the
reporting entity, not to the classification of related revenue.




                                                 - 79 -
       12. 	Transfers To/From NRRIT

       The RRB received a total of $1,553 million and $1,298 million from the NRRIT during fiscal
       years 2009 and 2008, respectively. These funds were received into the RR Account. Transfers
       were to fund the payment of benefits.


       13. 	Undelivered Orders at the End of the Period

                                                     2009                2008

           Undelivered Orders 	                     $8,447,798         $6,225,572


       14. 	Explanation of Material Differences Between the Combined Statement of Budgetary

            Resources and the Budget of the United States Government
 


       A reconciliation was completed of budgetary resources, obligations incurred, distributed 
 

       offsetting receipts, and outlays, as presented in the Restated Statement of Budgetary 
 

       Resources for the year ended September 30, 2008, to amounts included in the Budget of the 
 

       United States Government. A reconciliation was not performed for the period ended 
 

       September 30, 2009, since the RRB’s Performance and Accountability Report is published in 
 

       November 2009, and OMB’s MAX system will not have actual budget data available until 
 

       mid-December 2009. 
 


       The Budget of the United States Government and the RRB’s Statement of Budgetary 
 

       Resources differ because of the following transaction types: 
 



                                                                       Fiscal Year 2008 (in millions)
                                                                                          Distributed
                                                    Budgetary       Obligations            Offsetting
                                                    Resources        Incurred              Receipts       Net Outlays

1. 	  Combined Statement of Budgetary
        Resources – September 30, 2008                 $10,944          $10,934                 $3,992          $6,778
2. 	  Expenditure Transfers from Trust Funds              (109)
3. 	  Unobligated Balance, Brought Forward
        October 1, 2007                                      (11)
4. 	  Recoveries of Prior Year Unpaid Obligations              0
5. 	  Sickness Insurance Benefit Recoveries                  (24)
6. 	  Administrative Expense Reimbursement                    (9)
7. 	  Cancelled Authority                                      2
8. 	  Interfund Transfers: Federal Payment
        Obligations – Income Taxes Collected
        on Benefits (0113)                                  (359)
9. 	  Intrafund Transfers: Receipts from the
      Old-Age and Survivors Insurance (OASI)
      Trust Fund                                        (3,632)
10. 	 Intrafund Transfers: Receipts from the
      Disability Insurance (DI) Trust Fund                  (418)

                 Financial Interchange

11. 	 Accrued Receipts from the OASI and DI
      Trust Funds                                                                                 (135)            135
12. 	 RRB Transfers to the Federal Hospital
      Insurance Trust Fund                                                                         551            (551)




                                                         - 80 -
                                                                       Fiscal Year 2008 (in millions)
                                                                                          Distributed
                                                      Budgetary     Obligations            Offsetting
                                                      Resources      Incurred              Receipts       Net Outlays

                         NRRIT

13. 	   NRRIT Obligations / Outlays                        1,375           1,375 	                               1,375
14. 	   Intrafund Transfers: NRRIT Transfer to
          RRA                                             (1,298)                                1,298          (1,298)
15. 	   Proprietary Receipts: NRRIT – Gains and
          Losses                                           6,606                                (6,606)          6,606
16. 	   Proprietary Receipts: NRRIT – Interest
          and Dividends                                     (569)                                  569            (569)
17. 	   Rounding                                  	                                                  1
18. 	   Budget of the United States Government
        FY 2008 Actuals                                  $12,498        $12,309                  $(330)        $12,476




   15. 	Social Insurance

   	 	 Actuarial Surplus or (Deficiency) represents combined values for the RR Account, 
 

        SSEB Account, and NRRIT. 
 


   	 	 Estimated future income (excluding interest) includes tier 1 taxes, tier 2 taxes, income taxes
        on benefits, and financial interchange income, where financial interchange income consists
        of financial interchange transfers plus financial interchange advances from general revenues
        less repayment of financial interchange advances from general revenues.

   	 	 Estimated future expenditures include benefit and administrative costs.

   	 	 A closed group estimate of the future excess of income over expenditures using the 

        projected tax rates under employment assumption II may be obtained by subtracting future 

        expenditures for current participants from future income for current participants. 


   	 	 Detail may not add to totals due to rounding. Employee and beneficiary status are 
 

        determined as of 1/1/2008, whereas present values are as of 1/1/2009.
 


   	 	 The figures in the Statement of Social Insurance, rounded to millions of dollars prior to 2008,
        have been rounded to tenths of billions. The practice of displaying the figures in the
        Statement of Social Insurance in millions of dollars implies a degree of accuracy that
        75-year projections do not possess.

         Fund Balance

   The fund balance appears on the face of the statement because the size of the balance directly
   affects projected future cash flows. Lower fund balances lead to higher future tier 2 tax rates
   and consequently higher tax income, while higher fund balances lead to lower tier 2 tax rates
   and lower tax income.

   The tier 2 tax rate is based on the Average Account Benefits Ratio (AABR). At the end of each
   fiscal year (September 30), an Account Benefits Ratio (ABR) is calculated by dividing the fair
   market value of the assets in the RR Account and the NRRIT (and for years before 2002, the
   SSEB Account) as of the close of such fiscal year by the total benefits and administrative
   expenses paid from the RR Account and the NRRIT during such fiscal year. The AABR, with


                                                           - 81 -
respect to any calendar year, is then calculated as the average of the account benefits ratios for
the 10 most recent fiscal years ending before such calendar year.

The January 1, 2007, fund balance does not include less than $0.1 billion of accrued interest
and dividends and miscellaneous adjustments related primarily to operating expenses of the
NRRIT. The January 1, 2006, fund balance was not reduced for certain payables of the NRRIT,
which were estimated to be less than $1 billion.

Prior to 2006, certain accrual adjustments were included in the fund balances. In 2006, they
were excluded to promote clarity and to be consistent with the account benefit ratio calculation,
wherein the asset values do not include these accrual adjustments. If the accrual adjustments
had been made as in prior years, the 1/1/2006 fund balance would have been $0.4 billion
higher.

As stated earlier, a higher fund balance results in lower tax rates and consequently lower future
tax income and a lower balance results in higher rates and income. This self-adjusting tax rate
mechanism mitigates the effects of changes in the fund balance on the program’s net actuarial
position.


16. Significant Assumptions

The estimates used in the Statement of Social Insurance and Required Supplementary 
 

Information are based on the assumption that the program will continue as presently 
 

constructed. The calculations assume that all future transfers required by current law under the 
 

financial interchange will be made. 
 


The estimates are also based on various economic, employment, and other actuarial 
 

assumptions. The ultimate economic assumptions are a 7.5 percent investment return, a 
 

3 percent annual increase in the cost of living, and a 4 percent annual wage increase.
 


The employment assumption for the Statement of Social Insurance is employment 
 

assumption II, the intermediate employment assumption, as used in the 24th Actuarial Valuation.
 

Under employment assumption II, starting with an average 2008 employment of 234,000, 
 

(1) railroad passenger employment is assumed to remain level at 43,000, and (2) the
employment base, excluding passenger employment, is assumed to decline at a constant
annual rate of 2.0 percent for 25 years, at a reducing rate over the next 25 years, and remain
level thereafter.

Actuarial assumptions are those published in the Technical Supplement to the “Twenty-Fourth
Actuarial Valuation of the Assets and Liabilities Under the Railroad Retirement Acts as of
December 31, 2007.” This may be found on the RRB’s website, www.rrb.gov.

Actuarial assumptions published in the Twenty-Fourth Actuarial Valuation include:

Table S-1.     2007 RRB Annuitants Mortality Table
Table S-2.     2007 RRB Disabled Mortality Table for Annuitants with Disability Freeze
Table S-3.     2007 RRB Disabled Mortality Table for Annuitants without Disability Freeze
Table S-4.     2003 RRB Active Service Mortality Table
Table S-5.     2007 RRB Spouse Total Termination Table



                                              - 82 -
Table S-6. 	 	 Probability of a retired employee having a spouse eligible for railroad retirement
                benefits
Table S-7. 	 	 1995 RRB Mortality Table for Widows
Table S-8. 	 	 1997 RRB Remarriage Table
Table S-9. 	 	 2004 RRB Total Termination Table for Disabled Children
Table S-10. 	 	 Calendar year rates of immediate age retirement
Table S-11. 	 	 Rates of immediate disability retirement and of eligibility for disability freeze
Table S-12. 	 	 Calendar year rates of final withdrawal
Table S-13. 	 	 Service months and salary scales
Table S-14. 	 	 Family characteristics of railroad employees assumed for the valuation of
                survivor benefits




                                              - 83 -
   Note 17 Earmarked Funds
                                                       8010                8011              8051_001                0113               8237              8051,002             8018                                Total
                                                       SSEB                RRA                  RUIA           Federal Payments     Limitation on           RUIA           Limitation on      Eliminations       Earmarked
                                                                                          Benefit Payments      to RR Accounts      Administration     Admin Expenses           OIG                                Funds
   Balanc:e Sheet as of Septamber 30, 2009

   Assets

   Fund Balance wilh Treasury                          $20,195,929         $12,530,097         $11,660,815             $522,250        $11,106,990           $403,728          $1,232,924                           $57,652,733
   Investments                                         784,961,660         406,196,122                                                                                                                            1,191,177,782
   NRRIT Net Invesled Assets                                            23,345,568,274                                                                                                                           23,345,568,274
   Taxes and Interest Receivable                      4,309,400;000         37,382,950          29,907,040                                4,008,838          9,060,868            789,159         (4,784,882)     4,385,783,973
   Other AsseIs                                                                                                                           1,510,079                               129,641                             1,639,720

                Total Assets                          5,114,577,589     23,801,877~             41,587,855              522,250         16,825,907           9,464,596          2,151,724         (4,764,882)    28,981,822,482

   Liabilities Due and Payable                        4,437,027,590       391,298,710           13,767,679                                  758,529            736,493             45,782         (4,764,882)      4,838,869,901
   Other Uabilities                                     100,000,000        10,739,904                                                    11,704,892                               834,791                            123,279,587

   Total Liabilitiea                                  4,537,027,590     ~2,038,814              13,787,679                               12,483,421            736,493            880,573         (4,784,882)      4,962,~8


   Unexpended Appropriations                                                                                            522,250                                                                                          522,250
   Cumulative Resulls of Operations                    577,549,999      23,399,638,829          27,800,176                                4,162,486          8,728,103           1,271,151                        24,019,150,744

                Total Liabilities and Net Position   $51114,577,589    $23,801,877,443         $41,567,855             $522,250        $16,625,907          $9,:464,596        $2,151,724        ($4,784,882)    $28,981,822,482


   Statement of Net Cost for the Period
   Ended September 30, 2009

00 Gross Program Costs                               $6,402,297,457     $4,233,755,637        $177,096,228         $321,053,337       $122,561,581                             $8,678,597      ($321,507,277)    $10,943,935,560
~ Less Eamed Revenues                                                          441,659          22,989,178                               9,666,970                              1,334,326          ($455,424)         33,976,709

   Net Program Costs                                  6,402,297,457      4,233,313,978         154,107,050          321,053,337         112,894,611                              7,344,271      (321,051,853)     10,909,958,851

   Costs Not Attributable to Program Costs
   Less Earned Revenues Not
             Attributable to Program Costs                                                                                                  346,558                                                                      346,558

   Net Cost of Operations                            $6,402,297,457     $4,233,313,978        $154,107,050         $321,053,337        $112,548,053                             $7,344,271     ($321,051,853)    $10,909,612,293


   Statement of Changes In Net Position
   for the Period Ended September 30, 2009

   Net Position Beginning of Period                   $456,798,970     $25,810,824,027         $99,883,762             $504,921          $3,505,139        $10,019,145           $454,791                        $26,181,970,755

   Appropriations Received                                                                                           321,150,000                                                                                     321,150,000
   Expended Appropriations                                                                                           321,053,337                                                                                     321,053,337
   Other Adjustments                                                                                                     (79,334)                                                                                         (79,334)
   Appropriations Used                                                                                              (321,053,337)                                                                                   (321,053,337)

   Taxes and Non-Exchange Revenue                     2,552,288,506      2,512,584,258          73,942,971                                                   23,150,749                          (321,051,853)      4,840,894,631
   Other Financing Sources                            3,970,759,980        (68,266,278)          8,100,493                              113,205,400         (24,441,791)         8,160,631                          4,007,518,435
   Transfers In From NRRIT                                               1,553,000 ,000                                                                                                                             1,553,000,000
   Change in NRRIT Assets                                               (1,975,169,200)                                                                                                                            (1,975,169,200)

   Net Cost of Operations                            (6,402,297,457)    (4,233,313,978)        (154,107,050)        (321,053,337)      (112,548,053)                            (7,344,271)       321,051,853     (10,909,612,293)

   Change in Net Position                               120,751,029     (2,211,185,196)         (72,063,586)             17,329             857'~~1,291,042~                      _816,360                         (2,162,297,781) 
 


   Net Position End of Period                          $577,549,999    $23,399,638,829         $27,800,176             $522,250          $4,182,488         $8,728,103          $1,271,151                       $24,019,672,994 
 

      Note 17 Eannal1<ed Funds
                                                          8010               8011              8051.001            0113               8237              8051.002            8018                                Total
                                                          SSEB               RRA                 RUIA        Federal Payments     Limitation on           RUIA          Limitation on      Eliminations       Eannal1<ed
                                                                                            Beneflt Payments to RR Accounts       Admlnlstratton     Admin Expenses          OIG                                Funds
      Balance Sheet as of September 30, 2008

      Assets

      Fund Balance with Treasury                         $10.067,681         $8.210.187           $4,960,920         $504,921         $9,898,615           $298,067         $1,032,492                          $34,972,883
      tnvestments                                        782.456.367        624.855.271                                                                                                                       1,407,311,636
      NRRIT Net In\/eSted Assets                                         25.320,737,474                                                                                                                      25,320,737,474
      Taxes and Interest Receivable                     3.936.500.000        29,510,605          103,335,214                           3,868,978         10,128,996              1,409         (3,893,173)    4,079,452,029
      Other Assets                                                                                                                     1,419,844                              '143,468                            1,563,312

                  Total Assets                          4,721,024,048    25,983,313,537108,296,134                    504,921         15,187,437         10,427,063          1,177,369         (3,893,173)   30,844,037,336

      liabilities Due and Payable                       4,172,225,078       371,939,988            8,432,372                             771,682            407,918             26,534         (3,893,173)    4,549,910,399
      Other Liabilities                                   100,000,000           549,522                                               10,910,616                               696,044                          112,156,182

      Total Liabilities                                 4,272,225,078       372,4891510            8,432,372                          11,882,298            407,918            722t578         (3,893,1731     4,662,066,581

      Unexpended Appropriations                                                                                       504,921                                                                                        504,921
      Cumulative Results of Operations                   456,798~         25,610,824.027          99,863,762                           3,505,139          10,019,145           454,791                        26,181,465,834

                  Total Liabilities and Net POSition   $4,721,024,048    $25,983,313,537        $108,296,134         $504,921        $15,187,437         $10,427,063        $1,177,389        ($3,893,1731   $30,844,037,336


      Statement of Net Cost for the Period
      Ended September 30, 2008

      Gross Program Costs                              SS,124,100,298     $4,038,150,045        $104,112,719     $359,073,113       $121,394,045                            $7,582,838      ($359,509,575)   $10,394,903,483
po    less Eamed Revenues                                                        491,037          24,054,840                           9,210.607_                              400,000           (436,377)        33,718,107
IJl
      Net Program Costs                                SS,124,100,298     $4,037,659,008         $80,057,879     $359,073,113       $112,183,438                            57,182,838      ($359,071.1981   $10,361,185,376

      Costs Not Attributable to Program Costs
      Less Earned Revenues Not
                Attributable to Program Costs                                                                                            289,816                                   215                               290,031

      Net Cost of Operations                           $6112411001298     $410371859,008         saO,057,879     $359,073,113       $111,893,622                            $7,182,623      (5359.071,198)   $10,380,895,345


      Statement of Changes In Net Position
      for the Period Ended September 30, 2008

      Net Position Beginning of Period                  $450,419,400     $32,954,170,376        $100,885,579         $495,477         $6,182,923          $9,084,314          $231,590                       $33,521.269,659

      Appropriations Received                                                                                      359,150,000                                                                                   359,150,000
      Expended Appropriations                                                                                      359,073,113                                                                                   359,073,113
      Other Adjustments                                                                                                (67,443)                                                                                      (67,443)
      Appropriations Used                                                                                         (359,073,113)                                                                                 (359,073,113)

      Taxes and Non-Exchange Revenue                    2,675,562,851      2,650,226,884          72,074,657                                              23,832,959                         (359,071,198)      5,062,626,153
      Other Financing Sources                           3,454,917,017         85,942,301           7,161,405                          109,215,838        (22,898,128)         7,405,824                         3,641,744,257
      Transfers In From NRRIT                                              1,298,000,000                                                                                                                        1,298,000,000
      Change in NRRIT Assets                                              (7,339,856,526)                                                                                                                      (7,339,856,526)

      Net Cost of Operations                           (6,124,100,298)    (4,037,659,008)        (80,057,879)     (359,073,113)      (111,893,622)                           (7,182,623)      359,071,198     (10,360,895,345)

      Change in Net PosiHon                                 6,379,570     (7,343,346,349)           (821,817)             9,444        (2,677,784)           934,831           223,201                         (7,339,298,904)

      Net POSition End of Period                        $456,798,970     $25,610,824,027         $99,863,782         $504,921       $3,505,139           $10,019,145          $454,791                       $28,181,9lC1,755
18. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

All RRB direct and reimbursable obligations are incurred against Category B apportionments.
There are no RRB direct or reimbursable obligations incurred against Categories A or Exempt
apportionments.

The amounts of Category B direct and reimbursable obligations are reported on the face of the
Statement of Budgetary Resources for fiscal years 2009 and 2008.

This disclosure agrees with the aggregate of RRB direct and reimbursable obligations as
reported on the RRB’s fiscal year 2009 year-end SF-133, Report on Budget Execution and
Budgetary Resources, and lines 8A and 8B in the Statement of Budgetary Resources.


19. Terms of Borrowing Authority Used

The Railroad Retirement Solvency Act of 1983 provided for monthly advances of the Financial
Interchange (FI) from Treasury to be repaid when the FI is settled each June. Prior to 2008,
these advances were reported as nonexpenditure transfers, but are now reported as borrowing
authority. Section 7(c)(4) of the RRA provides the rules for repayment of the FI advances and
references Section 7(c)(3) for the interest rate to be used. The interest rate on the repayment of
the advances is the same as that used in the actual FI determination from the close of the prior
fiscal year until the date of transfer.


20. Legal Arrangements Affecting Use of Unobligated Balances

The portion of RRB trust fund receipts collected in the current fiscal year that exceed the
amount needed to pay benefits or other valid obligations remain in the RRB trust funds as
unobligated balances. These receipts can become available in the current year if needed for
valid obligations. RRB receipts are assets of the trust fund and available for obligation as
needed in the future.


21. Subsequent Events

No material events or transactions have occurred subsequent to September 30, 2009, that we
are aware of. We have evaluated subsequent events through November 16, 2009, the date the
financial statements were released.




                                              - 86 -
Note 22 Reconciliation of Net Cost of Operations to Budget 

For the Years Ended September 30, 2009 and 2008 

(in dollars) 

                                                                                     2009                2008
Resou'rces Used to Finance Activities:
Budgetary Resources Obligated 

 Obligations Incurred 
                                                         $11,583,308,778     $10,934,363,444
 Less: Spending Authority from Offsetting Collections and Recoveries 
             (149,701,852)       (143,310,277)
 Obligations Net of Offsetting Collections and Recoveries 
                      11,433,606,926      10,791,053,167
 Less: Offsetting Receipts 
                                                     (4,324,733,000)     (3,992,185,000)
 Net Obligations 
                                                                7,108,873,926       6,798,868,167

Other Resources
 Imputed Financing from Costs Absorbed by Others                                      8,786,495           8,559,257
 Other                                                                           (1,980,170,261 )    (7,339,856,526)
 Net Other Resources Used to Finance Activities                                  (1,971,383,766)     (7,331,297,269)

 Total Resources Used to Finance Activities                                       5,137,490,160        (532,429,102)

Resources Used to Finance Items Not Part of the Net Cost of Operations:
 Change in Budgetary Resources Obligated for Goods,
  Services & Benefits Ordered but not yet Provided                                   (1,628,418)          1,791,158
 Budgetary Offsetting Collections & Receipts That Do Not Affect Net
  Cost of Operations 
                                                                 (578,530)         (3,883,265)
 Resources That Finance the Acquisition of Assets 
                               1,974,583,258       7,339,400,228
 Other Resources or Adjustments to Net Obligated Resources 

  That Do Not Affect Net Cost of Operations                                       4,003,733,000       3,633,185,000

 Total Resources Used to Finance Items Not Part of the Net Cost of Operations     5,976,109,310      10,970,493,121

 Total Resources Used to Finance the Net Cost of Operations                      11,113,599,470      10,438,064,019

Components of the NetCost of Operations That Will Not Require or 

Generate Resources In the Current Period: 

Components Requiring or Generating Resources in Future Periods: 

 Increase in Annual Leave Liability 
                                                   311,880            132,007
 Other 
                                                                              5,443,449            197,054
 Total Components of Net Cost of Operations That Will Require or Generate 

  Resources in Future Periods                                                         5,755,329            329,061

Components Not Requiring or Generating Resources:
 Depreciation and Amortization                                                         116,755             153,520
 Other                                                                                       0               6,361
 Total Components of Net Cost of Operations That Will Not Require
  or Generate Resources                                                                116,755             159,881

 Total Components of Net Cost of Operations That Will Not Require or 

  Generate Resources in the Current Period 
                                          5,872,084            488,942

Net Cost of Operations                                                          $11,119,471,554     $10,438,552,961




                                                            - 87­
23. Adjustments to Beginning Balance of Budgetary Resources

The unobligated balance brought forward October 1, 2008 for FY 2009 requires a $214
beginning balance adjustment to accommodate a new beginning balance edit in Treasury’s
Federal Agencies’ Centralized Trial-Balance System (FACTS) II system.




                                          - 88 -
                                          UNAUDITED                                                    


Required Supplementary Information

Social Insurance

   Program Financing

Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement-survivor benefit programs. Railroad retirement taxes, which have
historically been higher than social security taxes, are calculated, like benefit payments, on a
two-tier basis. Railroad retirement tier 1 payroll taxes are coordinated with social security taxes
so that employees and employers pay tier 1 taxes at the same rate as social security taxes. In
addition, both employees and employers pay tier 2 taxes that are used to finance railroad
retirement benefit payments over and above social security levels. The tier 2 tax rate is based
on the ratio of certain asset balances to the sum of benefit payments and administrative
expenses.

Revenues in excess of benefit payments are invested to provide additional trust fund income.
The NRRIT oversees most investments, including all investments in non-governmental assets.

Additional trust fund income is derived from the financial interchange (FI) with the social security
trust funds, revenues from Federal income taxes on railroad retirement benefits, and
appropriations from general treasury revenues provided after 1974 as part of a phase-out of
certain vested dual benefits.

The financial interchange between the railroad retirement and social security systems is
intended to put the Social Security Administration (SSA) Federal Old-Age, Survivors, and
Disability Insurance (FOASI/DI) trust funds and the Centers for Medicare and Medicaid Services
(CMS) Federal Hospital Insurance (FHI) trust fund in the same position they would have been
had railroad employment been covered under the Social Security and Federal Insurance
Contributions Acts. It follows that all computations under the FI are performed according to
social security law. The amount of benefits payable under the RRA has no effect on the results.

Placing the social security trust funds in the same position they would have been had railroad
employment been covered under social security since its inception involves computing the
amount of social security payroll and income taxes relating to railroad employment and
computing the amount of additional benefits which social security would have paid to railroad
retirement beneficiaries during the same fiscal year. In the computation of the latter amount,
credit is given for any social security benefits actually paid to railroad retirement beneficiaries.
When benefit reimbursements exceed payroll and income taxes, the difference, with an
allowance for interest and administrative expenses, is transferred from the social security trust
funds to the SSEB Account. If taxes exceed benefit reimbursements, a transfer would be made
in favor of the social security trust funds.

On a present value basis, funds provided through the FI are expected to equal $79.2 billion, or
39.2% of the estimated future income of $202.1 billion.




                                               - 89 -
                                                    UNAUDITED                                                           	


      Benefits

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on year of
birth. Disability annuities can be paid on the basis of total or occupational disability. Annuities
are also payable to spouses and divorced spouses of retired workers and to widow(er)s,
surviving divorced spouses, partitioned surviving spouses, partitioned surviving divorced
spouses, divorced widow(er)s, remarried widow(er)s, children, and parents of deceased railroad
workers. Qualified railroad retirement beneficiaries are covered by Medicare in the same way
as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and
SSA. The RRB has jurisdiction over the payment of retirement benefits if the employee had at
least 10 years of railroad service, or five years if performed after 1995; for survivor benefits,
there is an additional requirement that the employee’s last regular employment before
retirement or death was in the railroad industry. If a railroad employee or his or her survivors do
not qualify for railroad retirement benefits, the RRB transfers the employee’s railroad retirement
credits to SSA, where they are treated as social security credits.

      Program Finances and Sustainability

The RRB must submit to the President and the Congress a report on the actuarial status of the
railroad retirement system. Projections are made of the various components of income and
outgo under three employment assumptions.

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2009. The figures in the table are based on the
24th actuarial valuation extended through calendar year 2083. The present values in the table
are based on estimates of income and expenditures through the year 2083. The estimates
include income and expenditures related to future participants as well as to former and present
railroad employees. The present values are computed on the basis of economic and
demographic assumptions and employment assumption II, the intermediate employment
assumption, as used in the 24th actuarial valuation. Under employment assumption II, starting
with an average 2008 employment of 234,000, (1) railroad passenger employment is assumed
to remain level at 43,000, and (2) the employment base, excluding passenger employment, is
assumed to decline at a constant annual rate of 2.0 percent for 25 years, at a reducing rate over
the next 25 years, and remain level thereafter.

Actuarial Estimates: Actuarial estimates of the long-range financial condition of the railroad
retirement program are presented here. Throughout this section, the following terms will
generally be used as indicated:

       	 	 Income: sources of income are payroll taxes, income taxes, investment income, and
            financial interchange transfers.

       	 	 Income excluding interesta: income, as defined above, excluding the investment income
            from assets of the trust fund.

a
    References to interest income in this section may be considered as referring to total investment income including
    dividends and capital gains.


                                                          - 90 -
                                                                                UNAUDITED                                                             	




           	 	 Expenditures: benefit payments and administrative expenses.

           	 	 Cashflow: either (1) income excluding interest or (2) expenditures, depending on the
                context, expressed in nominal dollars.

           	 	 Net Cashflow: income excluding interest less expenditures, expressed in nominal 

                dollars. 


The Statement of Social Insurance and the required supplementary information below are
based on actuarial and economic assumptions used in the 24th actuarial valuation extended
through calendar year 2083, the RRA, and the Railroad Retirement Tax Act. This information
includes:

           (1) actuarial present values of future estimated expenditures for and estimated income from,
               or on behalf of, current and future program participants;

           (2) estimated annual income excluding interest and expenditures in nominal dollars and as
               a percentage of taxable payroll;

           (3) the ratio of estimated annuitants to estimated full-time employees, showing the 
 

               relationship between the program’s benefit recipients and taxpayers; and 
 


           (4) an analysis of the sensitivity of the projections to changes in selected assumptions,
               which is included in recognition of the inherent uncertainty of those assumptions.

Estimates are generally based on a 75-year projection period. Estimates extending far into the
future are inherently uncertain, with uncertainty greater for the more distant years.

                                                                      Chart 1: Estimated Income and Expenditures

               $90


               $80


                                   Expenditures
               $70
                                   Income Excluding Interest
                                   Income
               $60


               $50
  (billions)




               $40


               $30


               $20


               $10


               $0
                     2009   2014       2019          2024      2029     2034    2039     2044     2049    2054     2059   2064   2069   2074   2079




Cashflow Projections – Chart 1 shows actuarial estimates of railroad retirement annual income,
income excluding interest, and expenditures for 2009-2083 in nominal dollars. The estimates
are for the open-group population, which includes all persons projected to participate in the
railroad retirement program as railroad workers or beneficiaries during the period. Thus, the
estimates include payments from, and on behalf of, those who will be employed by the railroads


                                                                                       - 91 -
                                                              UNAUDITED                                                                          


during the period as well as those already employed at the beginning of the period. They also
include expenditures made to, and on behalf of, such workers during that period.

As Chart 1 shows, annual expenditures exceed annual income through 2023. By 2024, income
is greater than expenditures. This remains true throughout the remainder of the projection
period. Without investment income, however, annual expenditures are generally greater than
annual income although this is not true between 2026 and 2032. Reasons for this pattern
include participant demographics, the assumed drop in railroad employment, and the automatic
tier 2 tax rate adjustment mechanism. The combined balance of the NRRIT, RR Account, and
SSEB Account never becomes negative largely because (i) a sufficient balance exists at the
beginning of the projection period and (ii) tier 2 tax rates respond automatically to changing
account balances.

Percentage of Taxable Payroll – Chart 2 shows estimated annual income excluding interest and
expenditures for the railroad retirement program expressed as percentages of taxable payroll.
Expenditures as a percentage of payroll increase through 2019 primarily due to the anticipated
retirement of a large percentage of the current workforce combined with the projected decline in
railroad employment. Except for the income from tier 1 payroll taxes, the sources of income
vary as a percentage of payroll.

             Chart 2: Estimated Railroad Retirement Income Excluding Interest and Expenditures as a Percent of Taxable Tier 2 Payroll



  90%


  80%


  70%


  60%


  50%


  40%


  30%


  20%

                    Expenditures
 

  10%
 
            Income Excluding Interest


   0% 

      2009   2014       2019          2024      2029   2034   2039    2044      2049     2054      2059      2064      2069     2074    2079 





Sensitivity Analysis – The projections of the future financial status of the railroad retirement
program depend on many economic and demographic assumptions including rail employment,
inflation, wage increase, investment return, age retirement, disability retirement, withdrawal,
active service mortality, beneficiary mortality, total termination, probability of spouse,
remarriage, family composition, disability freeze, service patterns, and salary scales. Because
perfect long-range projections are impossible, this section is included to illustrate the sensitivity
of the long-range projections to changes in certain key assumptions that have the greatest
impact on the results. All present values are calculated as of January 1, 2009, and are based
on estimates of income and expenditures during the projection period 2009-2083.

Employment: Average employment in the railroad industry has generally been in decline for
some years. This decline is expected to continue. Since employment is a key consideration,
projections of income and expenditures using three different employment assumptions have
been made. The Statement of Social Insurance uses employment assumption II, the


                                                                     - 92 -
                                          UNAUDITED                                                 


intermediate assumption, but this section compares results under the three assumptions. For
all three cases, the average employment for the year 2008 is equal to 234,000. Employment
assumptions I and II, based on a model developed by the Association of American Railroads,
assume that (1) passenger employment will remain at the level of 43,000, and (2) the
employment base, excluding passenger employment, will decline at a constant annual rate
(0.5 percent for assumption I and 2.0 percent for assumption II) for 25 years, at a reducing rate
over the next 25 years, and remain level thereafter. Employment assumption III differs from
employment assumptions I and II by assuming that (1) passenger employment will decline by
500 per year until a level of 35,000 is reached and then remain level, and (2) the employment
base, excluding passenger employment, will decline at a constant annual rate of 3.5 percent for
25 years, at a reducing rate over the next 25 years, and remain level thereafter. Employment
assumptions I, II, and III are intended to provide an optimistic, moderate, and pessimistic
outlook, respectively.

Under employment assumptions I and II, no cashflow problems occur throughout the entire
period. Under employment assumption III, the combined balance of the RR Account, the
NRRIT, and the SSEB Account becomes negative in 2031 and remains so for the remainder of
the period. Table 1 shows the excess of assets and the present value of income over the
present value of expenditures for the three employment assumptions.


                                       Table 1 
 

 Excess of Assets and Present Value of Income over Present Value of Expenditures for 
 

                     Three Employment Assumptions, 2009-2083 
 

                                     (in billions)

     Employment Assumption                    I             II             III

     Present Value                         $1.5            $1.1           $0.0

     Average Tier 2 tax ratea              16.5%           19.1%          21.9%


 a
     Average combined employer/employee tier 2 tax rate is calculated by dividing the
     present value of tier 2 taxes by the present value of tier 2 payroll.




                                                  - 93 -
                                                                                            UNAUDITED


                                       Chart 3a: Combined Balance of the RR Account, NRRIT and SSEB Account under Three Employment Assumptions

                $350


                $300


                $250                         Employment Assumption I
                                             Employment Assumption II
                                             Employment Assumption III
                $200


                $150
   (billions)




                $100


                 $50


                  $0


                 ($50)


                ($100)
                         2009      2014           2019          2024        2029     2034     2039      2044    2049    2054     2059    2064   2069   2074   2079




Chart 3a shows the combined balance of the accounts under each of the three employment
assumptions. Note that the combined account balance is positive throughout the entire period
for assumptions I and II but goes negative in 2031 for assumption III and remains so throughout
the remainder of the period.

Chart 3b shows the tier 2 tax rate under these employment assumptions. The tax rate reaches
the minimum in 2053 under employment assumption I but then increases again slightly in 2065
and remains level through 2083. The tax rate does not reach the minimum until 2071 under
employment assumption II. Under employment assumption III, the tax rate reaches the
maximum in 2023, remaining at that level through the remainder of the 75-year period.

                                                                         Chart 3b: Tier 2 Tax Rate under Three Employment Assumptions

  30.0%




  25.0%




  20.0%




  15.0%




  10.0%

                                          Employment Assumption I
                                          Employment Assumption II
  5.0%                                    Employment Assumption III




  0.0%
                  2009          2014           2019         2024         2029      2034     2039      2044     2049    2054     2059    2064    2069   2074   2079




The tier 2 tax rate for each year is determined by the average account benefits ratio, which is
the average for the ten most recent fiscal years of the ratio of fair market value of assets in the
RR Account and NRRIT (and for years before 2002, the SSEB Account) to the total benefits and
administrative expenses paid from the RR Account and the NRRIT. Therefore, the tier 2 tax
rate will be affected by employment assumption. The tier 2 tax rate adjustment mechanism



                                                                                                     - 94 -
                                          UNAUDITED                                                   


promotes but does not guarantee solvency. The tier 1 tax rate does not vary by employment
assumption.

Investment return: Since investments may include non-governmental assets such as equity and
debt securities as well as governmental securities, it is worthwhile to examine the effects of
future rates of investment return. In addition to the investment return of 7.5 percent used for our
projections, we show the effect on the combined accounts of an investment return of 4 percent
and an investment return of 11 percent. Table 2 shows the excess of assets and the present
value of income over the present value of expenditures for the three investment return
assumptions. If the tier 2 tax rate were fixed, the actuarial surplus would increase with
increasing investment return. However, the tier 2 tax rate adjusts to changing account
balances, resulting in the highest average tax rate under the 4 percent scenario and the lowest
average tax rate under the 11 percent scenario. Under the 7.5 percent scenario, the tax rate
adjustment mechanism keeps the system in close actuarial balance. Under the 11 percent
scenario, the tax rate is limited to a minimum value. Under the 4 percent scenario, the tax rate
reaches a maximum value and then remains at that value longer than is needed, resulting in the
highest actuarial surplus.

The tier 2 tax rate remains at the maximum longer than is needed largely because of the
10-year average in the Average Account Benefits Ratio, as required by law. Use of the ten-year
averaging effectively sacrifices some responsiveness for the sake of stability and smoothness.


                                       Table 2 
 

 Excess of Assets and Present Value of Income over Present Value of Expenditures for 
 

                  Three Investment Return Assumptions, 2009-2083
 

                                     (in billions)

  Investment Return Assumption               4%              7.5%           11%


  Present Value                              $10.7           $1.1           $1.1

  Average Tier 2 tax rate                    21.0%          19.1%           16.5%




                                              - 95 -
                                                                                     UNAUDITED


                              Chart 4a: Combined Balance of the RR Account, NRRIT and SSEB Account under Three Investment Return Assumptions


                $260

                $240                    4% Return

                $220                    7.5% Return
                                        11% Return
                $200

                $180

                $160
   (billions)




                $140

                $120

                $100

                 $80

                 $60

                 $40

                 $20

                  $0
                       2009      2014          2019     2024        2029      2034    2039      2044     2049     2054     2059      2064   2069   2074   2079




Chart 4a shows the combined account balance under the three investment return assumptions
for the projection period. At a 4 percent investment return, the account balance reaches its
lowest value in 2021, although it never becomes negative. After that it continues to increase.
With a 7.5 percent investment return, the account balance decreases through 2023 and
increases thereafter. An 11 percent investment return results in a combined balance that
increases throughout the projection period. Although the 4 percent scenario shows the lowest
account balance at the end of the projection period, the concurrent use of a 4 percent discount
rate results in the highest surplus on January 1, 2009.

Chart 4b shows the tier 2 tax rate under the same three investment return assumptions. With a 4
percent investment return, the maximum tier 2 tax rate applies from 2021 through 2042. With the
7.5 percent investment return, the maximum tax rate applies from 2026 through 2032, and the
minimum tax rate is paid starting in 2071. With an 11 percent investment return, the maximum tax
rate is never applicable, and the minimum tax rate is paid beginning in 2042. As mentioned above,
the tier 2 tax rate is determined based on the ratios of asset values to benefits and administrative
expenses, so it will be affected by investment return, but tier 1 tax rates will not.

                                                               Chart 4b: Tier 2 Tax Rate under Three Investment Return Assumptions

  30.0%




  25.0%




  20.0%




  15.0%




  10.0%
                                 4% Return
                                 7.5% Return
                                 11% Return
  5.0%




  0.0%
                 2009         2014        2019        2024        2029      2034     2039     2044      2049     2054     2059       2064   2069   2074   2079




                                                                                             - 96 -
                                                                       UNAUDITED                                                                


Ratio of Beneficiaries to Workers: Chart 5 shows the estimated number of annuitants per full-
time employee under all three employment assumptions. The average number of annuitants
per employee for employment assumption I is highest in 2009. For assumptions II and III, the
ratio is highest in 2021 and 2035, respectively. For all three employment assumptions, the
average number of annuitants per employee declines to around 1.7 by the end of the projection
period. The convergence in number of annuitants per employee at the end of the projection
period results primarily from level employment projected in the latter years under all three
employment assumptions.

                                                    Chart 5: Average Number of Annuitants per Full-Time Employee


 4.000



 3.500



 3.000



 2.500



 2.000



 1.500



 1.000                 Employment Assumption I

                       Employment Assumption II

                       Employment Assumption III

 0.500



 0.000
         2009   2014   2019           2024          2029     2034     2039      2044     2049     2054     2059    2064   2069   2074   2079





                                                                              - 97 -
     RAILROAD RETIREMENT BOARD                                                                         COMBINED 
 

     D1SAGGREGATE OF BUDGETARY RESOURCES                                                               RAILROAD 
 

     FOR THE YEAR ENDED SEPTEMBER 30, 2009                                     COMBINED 
 
         UNEMPLOYMENT 
 
        LIMITATION ON 
 

     (In dollars)                                                              RAILROAD 
 
          AND SICKNESS 
 
       THE OFFICE OF 
 

                                                                              RETIREMENT              INSURANCE 
 
           INSPECTOR 
 
         COMBINED
     BUDGETARY RESOURCES                                                       PROGRAM                 PROGRAM 
 
             GENERAL 
 
           TOTALS

     Unobligated balance. brought forward. October 1                                 $9.337.139                 ($1.516)             $302.397           $9.638.020
      Beginning Balance Adjustment                                                            0                       0                   214                  214
     Adjusted unobligated balance. brought forward. October 1                        $9.337.139                 ($1.516)             $302.611           $9.638.234

     Recoveries of prior year unpaid obligations                                       546.150                        0                42.528              588.678
     Budget authority
      Appropriation                                                             11.268.934.467              225.703.108                      0       11,494.637.575
      Borrowing authority                                                        3.661.300.000                        0                      0        3.661.300.000
      Spending authority from offsetting collections
       Earned
         Collected                                                                  10.267.655               22.710.074              1.334.326           34.312.055
         Change in receivables from Federal sources                                     52.119                        0                      0               52.119
      Expenditure transfers from trust funds                                       106,863,000                   80,000              7,806,000          114,749,000
     Subtotal                                                                   15.047.417.241              248.493.182              9.140.326       15.305.050.749

     Nonexpenditure transfers. net. antiCipated and actual                               33.917                   1.009                (42,491 )             (7.565)
     Temporarily not available pursuant to Public Law                              (271.038.739)            (34.877.995)                     0         (305.916.734)
     Permanently not available                                                   {3,395,018,713)                      0                      0       )3,395,018,713)

     TOTAL BUDGETARY RESOURCES                                                 $11 1391 12761995           $21316141680             $91442,974      $11,614,334,649

     STATUS OF BUDGETARY RESOURCES
     Obligations incurred
      Direct                                                                   $11.360.844.987             $203.919.990             $8.965.377      $11.573.730.354
      Reimbursable                                                                   9,578,424                                                            9,578,424
\0
00    Subtotal
     Unobligated balance
                                                                                11.370.423.411              203.919.990 °                    °
                                                                                                                                     8.965.377       11.583.308.778

      Apporttoned                                                                    12.658.216               9.694.690                52.237            22.405.143
     Unobli9ated balance not available                                                8,195,368                      (Ol              425,360             8,620,728

     TOTAL STATUS OF BUDGETARY RESOURCES                                       $11 1391 1276,995           $21316141680             $914421974      $11161~3341649

     CHANGE IN OBLIGATED BALANCE
     Obligated balance. net
      Unpaid obligations. brought forward. October 1                              $919.002.837               $6.698.811              $731.288         $926,432.936
       Uncollected customer payments from Federal sources. brought forward.
       October 1                                                                    {1,ooo,OOOl                                                          p,OOO,OOOl
     Total unpaid obligated balance, net                                          $918,002,837               $6,698,811 °            $731,288°         $925,432,936

     Obligations incurred. net                                                 $11.370,423,411             $203,919.990             $8,965,377      $11,583,308.778
     Gross outlays                                                             (11.331,099.205)            (198.114.941)            (8,109.652)     (11.537.323.798)
     Recoveries of prior year unpaid obligations. actual                               (546.150)                      0                (42.528)            (588.678)
     Change in uncollected customer payments from Federal sources                    (1,052.591 )                                     (721.000)          (1.773.591)

     Obligated balance. net. end of period
                                                                                                                        °
      Unpaid obligations                                                          $957.780.893              $12.503.860             $1.544.485         $971.829.238
      Uncollected customer payments from Federal sources                            {2,052,591 l                      0               {721,OOOl          {2,773,591)
     Total, unpaid obligated balance, net, end of period                          $955,728,302              $12,503,860               $823,485         $969,055,647

     NET OUTLAYS
      Gross outlays                                                             $11.331.099,205            $198.114.941             $8,109.652      $11.537,323,798
      Offsetting collections                                                       (116,130.183)            (22.790.074)            (8.419.326)        (147.339.583)
      Distributed offsetting receipts                                            {4,324,733,OOO 1                     0                              (4,324,733,ooOl

      Net Outlays                                                               ~890,236,022_              $175,324,867              ($309,674)
                                                                                                                                                °    $7,065,251,215
                 UNITED STATES RAILROAD RETIREMENT BOARD


                             OFFICE OF INSPECTOR GENERAL





To the Board Members:


The following report presents the results of the Office of Inspector General's (DIG)
audits of the financial statements of the Railroad Retirement Board (RRB) as of
and for the fiscal years ended September 30, 2009 and 2008.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheet of the RRB as of
September 30, 2009 and 2008; the related statements of net cost, changes in net
position, and budgetary resources for the years then ended; and the statements of
social insurance as of January 1,2009,2008,2007, and 2006.

We did not audit the financial statements of the National Railroad Retirement
Investment Trust (NRRIT). The net assets of the NRRIT represent approximately
80% and 82% of the total assets reported by the RRB for fiscal years 2009 and
2008, respectively. NRRIT assets represent approximately 95% and 97% of the
reported railroad retirement program's social insurance fund balance as of
January 1, 2009 and 2008. Related changes in the net value of investments held
by the NRRIT are reported as a source of financing which contributed net losses of
approximately $2 billion and $7.3 billion during FY 2009 and FY 2008 respectively.

Pursuant to the Railroad Retirement and Survivors' Improvement Act of 2001 , the
NRRIT retains the services of an independent auditor to opine on its financial
statements. With respect to the assets of the NRRIT as of September 30,2009
and 2008; and January 1,2009,2008,2007, and 2006, the financial statements of
the NRRIT were audited by other auditors whose reports have been furnished to
us, and our opinion, insofar as it relates to the amounts included for the NRRIT, is
based solely on the report of the other auditors.

In our opinion, the financial statements of the RRB referred to above, including the
accompanying notes, present fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles, the financial position of the RRB, its
consolidated net cost of operations and changes in net position, and combined
budgetary resources as of and for the fiscal years ended September 30,2009, and
2008; and the financial condition of the Railroad Retirement program as of
January 1,2009,2008,2007, and 2006.

However, misstatements may nevertheless occur in other financial information
reported by the RRB and may not be detected as a result of internal control
deficiencies described later in this report.


844 N RUSH STREET CHICAGO IL 60611-2092                      Printed on recycled paper with soy ink
                                       - 99 -
Auditor's Report                                                               Page 2


Social Insurance

As described in the statement and related notes, the statement of social insurance
presents the actuarial present value of the future income to be received, and
expenditures to be paid to or 011 behalf of participants in the Railroad Retirement
program during a period sufficient to illustrate the program's long-term sustainability.
In preparing the statement of social insurance, management considers and selects
assumptions and data that it believes provide a reasonable basis for the assertions
in the statement. However, because of the large number of factors that affect the
statement of social insurance and the fact that future events and circumstances
cannot be known with certainty, there will be differences between the estimates in
the statement of social insurance and the actual results, and those differences may
be material.

The RRB's statement of social insurance presents the fund balance of the
Railroad Retirement program and the related estimate of actuarial surplus which
is computed by adding the fund balance to the estimated excess (or shortfall) of
the present value of future income over the present value of future expenditures
for the 75 year projection period. These additional line items are presented to
ensure that a reader would not be misled about the financial condition of the
program. The program's current financing structure creates an inverse
relationship between income and program assets; thus, the financial condition of
the program cannot be understood without direct reference to the fund balance
and the related actuarial surplus or deficiency. This relationship is disclosed in
Note 15 to the financial statements.

Emphasis of Matters

NRRIT

Pursuant to the Railroad Retirement and Survivors' Improvement Act of 2001 , the
t\lRRIT is authorized to invest railroad retirement assets in a diversified investment
portfolio. As of September 30, 2009, the reported value of the net assets of the
NRRIT was approximately $2 billion lower than reported at September 30, 2008.
The RRB discusses its relationship with the t\lRRIT in Note 2 and Note 5 to the
financial statements, and describes the impact of changes in the social insurance
fund balance on actuarial projections in Note 15.

Financial Interchange

The RRB discloses transactions with related parties in Note 2 to the financial
statements. The RRB, Social Security Administration and Centers for Medicare
and Medicaid Services are parties to a financing arrangement described as a
financial interchange. Under this arrangement, transfers-in from the Social
Security Administration's Old-Age and Survivors Insurance and Disability
Insurance trust funds and transfers-out to the Federal Health Insurance trust fund




                                       - 100 -
Auditor's Report                                                                                  Page 3


represented approximately $4.0 billion (net), or about 37% of the financing sources
reported on the RRB's statement of changes in net positions for FY 2009 before
considering the reduction in the reported value of NRRIT assets. For FY 2008,
financial interchange transfers of $3.6 billion (net) represented about 35% of the
financing sources before considering the reduction in the reported value of I\lRRIT
assets.


CONSIDERATION OF INTERNAL CONTROL

In planning and performing our audit, we considered the RRB's internal control
                                          1
over financial reporting and compliance. We did this to determine our procedures
for auditing the financial statements and to comply with OMB audit guidance, and
not to express an opinion on internal control. Accordingly, we do not express an
opinion on internal control over financial reporting and compliance or on
management's assertion on internal control included in Management's Discussion
and Analysis.

With respect to previously reported control deficiencies, the RRB has made
progress strengthening its information security program but this effort is not yet
complete and remains an area of material weakness. 2 Although the agency has
implemented additional procedures to improve controls over financial reporting,
these changes were not in place for most of FY 2009. The RRB has corrected a
previously reported significant deficiency by implementing procedures for the
periodic reconciliation of the general ledger to one of the non-integrated benefit
payment systems; however, the lack of such procedures for other non-integrated
transaction flows has been identified as a material weakness in the current fiscal
year.

Our internal control work would not necessarily disclose all deficiencies in
internal control that might be material weaknesses or other significant
deficiencies. Although not considered to be material weaknesses or significant
deficiencies, we will report other matters involving internal control and its operation
to RRB management in a separate letter.


1 The definition of internal control as it relates to the basic financial statements is presented in the
footnotes on page 6.
2 A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements will
not be prevented or detected. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects the entity's ability to initiate, authorize, record, process or
report financial data reliably in accordance with generally accepted accounting principles (GAAP)
such that there is more than a remote likelihood that a misstatement of the entity's financial
statements that is more than inconsequential will not be prevented or detected. A control deficiency
exists when the design or operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to prevent or detect misstatements on a timely
basis.




                                                 - 101 -
Auditor's Report                                                                           Page 4



Material Weaknesses

Information Security

During FY 2009 the OIG evaluated the RRB's information security program
pursuant to the provisions of the Federal Information Security Management Act
(FISMA).3 OIG auditors concluded that although the RRB has implemented all
nine program elements required by FISMA and made notable progress in
addressing previously cited deficiencies, the security program, as a whole, remains
undermined by weaknesses in access control and controls over the certification
and accreditation process.

RRB information technology managers are working to address the remaining
weaknesses.

Financial Reporting

RRB financial managers have worked to strengthen internal control over financial
reporting during FY 2009. During the third quarter of FY 2009 the agency
implemented enhanced controls to address the weaknesses that, in the aggregate,
were the basis for the OIG's assessment of a material weakness during the prior
     4
year. However, because these enhanced controls were not implemented until
mid-year, they could not be relied upon to ensure the accuracy of accounting and
reporting for FY 2009 and had not been in operation for a period of time sufficient
to support an assessment of overall effectiveness.

RRB financial managers have expressed their commitment to a quality financial
reporting process and have been responsive to OIG recommendations.

Internal Control Over Non-Integrated Sub-Systems

Internal controls do not ensure the completeness of transactions originating in
non-integrated subsystems.

An organization's financial statements are presented with management's implicit
assertion that all transactions and other events and circumstances that occurred
during a specific period and that should have been recognized in that period have,
in fact, been recorded (completeness) and that liability, revenue, and expense
components are recorded at appropriate amounts (accuracy, valuation, allocation).




3 "Fiscal Year 2009 Evaluation of Information Security at the Railroad Retirement Board," DIG Report

NO.1 0-01, November 12, 2009.

4 "Fiscal Year 2008 Financial Statement Audit Letter to Management," DIG Report No. 09-02,

March 2009.





                                             - 102 -
Auditor's Report                                                           Page 5


The RRB's financial reporting structure relies on an automated general ledger
which receives information electronically from both integrated and non-integrated
subsystems that support transaction processing. The RRB's control structure is
not comprehensive with respect to the reconciliation of the general ledger to
non-integrated subsystems. As a result, errors in intermediary manual processes
may occur and go undetected indefinitely.

The OIG has previously recommended that the RRB perform reconciliations of
activity originating in non-integrated benefit payment subsystems. We also
brought this issue to management's attention in connection with our audits of
agency financial statements for FYs 2000,2001 and 2008. Although financial
managers recently implemented a reconciliation process for one major subsystem,
the current reconciliation process is not comprehensive with respect to all such
systems and transaction flows.

RRB financial managers are receptive to evaluating the feasibility of implementing
an expanded program of reconciliations with the understanding that such a
program will require extensive cross-organizational coordination and cooperation.
They have agreed to study the matter, together with program managers, in order to
identify a solution that provides for a comprehensive reconciliation process with
adequate separation of duties.


COMPLIANCE WITH LAWS AND REGULATIONS

Our tests of the RRB's compliance with selected provisions of laws and
regulations for FY 2009 disclosed no instances of non-compliance that are
reportable under U.S. generally accepted government auditing standards or
OMB guidance. However, the objective of our audit was not to provide an
opinion on overall compliance with laws and regulations. Accordingly, we do not
express such an opinion.


CONSISTENCY OF OTHER INFORMATION

The RRB's Management Discussion and Analysis, required supplementary
information, and other accompanying information contain a wide range of data,
some of which are not directly related to the financial statements. We do not
express an opinion on this information. However, we compared this information
for consistency with the financial statements and discussed the methods of
measurement and presentation with RRB officials. On the basis of this limited
work, we found no material inconsistencies with the financial statements, U.S.
generally accepted accounting principles, or with OMB guidance.




                                     - 103 -
Auditor's Report	                                                                        Page 6


OBJECTIVES, SCOPE, AND METHODOLOGY

RRB management is responsible for (1) preparing the financial statements in
conformity with U.S. generally accepted accounting principles, (2) establishing,
maintaining, and assessing internal control to provide reasonable assurance that
the broad control objectives of the Federall\l1anagers' Financial Integrity Act
                                                                            5
(FMFIA) are met, and (3) complying with applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether the
financial statements are presented fairly, in all material respects, in conformity
with U.S. generally accepted accounting principles. We are also responsible for
(1) obtaining a sufficient understanding of internal control over financial reporting
and compliance to plan the audit, (2) testing compliance with selected provisions
of laws and regulations that have a direct and material effect on the financial
statements, and laws for which OMB audit guidance requires testing; and
(3) performing limited procedures with respect to certain other information
appearing in the RRB's Performance and Accountability Report. In order to fulfill
these responsibilities, we:

    •	 examined, on a test basis, evidence supporting the amounts and

       disclosures in the proprietary and budgetary financial statements;

    •	 assessed the accounting principles used and significant estimates made
       by RRB management in preparing the proprietary and budgetary
       financial statements;
    •	 assessed the factors, data, assumptions and model used by RRB
       management to prepare the long-term actuarial projections presented in
       the statement of social insurance;
    •	 evaluated the overall presentation of the financial statements;
    •	 obtained an understanding of the entity and its operations, including its
       internal control related to financial reporting, compliance with laws and
       regulations (including execution of transactions in accordance with
       budget authority);
    •	 tested relevant internal controls over financial reporting and compliance,
       and evaluated the design and operating effectiveness of internal control;



51nternal Control as it relates to the financial statements is a process, affected by the agency's
management and other personnel, designed to provide reasonable assurance that the following
objectives are met: (1) Reliability of financial reporting - transactions are properly recorded,
processed, and summarized to permit the preparation of the Basic Statements in accordance with
generally accepted accounting principles, and assets are safeguarded against loss from
unauthorized acquisition, use, or disposition; and (2) Compliance with applicable laws,
regulations, and government-Wide policies - transactions are executed in accordance with laws
governing the use of budget authority, government-wide policies, and laws identified by OMB, and
other laws and regulations that could have a direct and material effect on the Basic Statements.



                                             - 104 -
Auditor's Report	                                                              Page 7


   •	 considered the design of the process for evaluating and reporting on
      internal control and financial management systems under the FIVIFIA;
      and
   •	 performed tests of compliance with selected provisions of laws and
      regulations, including laws governing the use of budget authority, and
      other laws and regulations that could have a direct and material effect on
      the RRB's basic financial statements:

           o	 Anti-Deficiency Act, as amended;
           o	 provisions of the Railroad Retirement Act governing financing and
              the payment of benefits;
          o	 provisions of the Railroad Unemployment Insurance Act governing
              financing and the payment of benefits; and
          o	 provisions of the Social Security Act that provide for certification of
              benefits to the RRB for payment (42 U.S.C. § 405(i)).

We considered the material weaknesses identified above in determining the
nature, timing, and extent of our audit procedures on the 2009 financial
statements.

We did not evaluate all internal controls relevant to operating objectives as
broadly defined by the FMFIA, such as controls relevant to preparing statistical
reports and ensuring efficient operations. We limited our internal control testing
to controls over financial reporting and compliance. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may nevertheless occur and not be detected by our audit. We
also caution that projecting our evaluation to future periods is subject to the risk
that controls may become inadequate because of changes in conditions or that
the degree of compliance with controls may deteriorate. We also caution that
our internal control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to the RRB.
We limited our tests of compliance to selected provisions of laws and regulations
that have a direct and material effect on the RRB's financial statements and
those required by OMB audit guidance that we deemed applicable to the RRB's
financial statements for the fiscal year ended September 30,2009. We caution
that noncompliance may occur and not be detected by these tests and that such
testing may not be sufficient for other purposes.

The NRRIT was established pursuant to the Railroad Retirement and Survivors'
Improvement Act of 2001 (Public Law 107-90). Under that law, the I\IRRIT is not
a department, agency or instrumentality of the Government of the United States.
In addition, the law specifically exempts the NRRIT from compliance with Title
31, United States Code which governs the monetary and financial operations of



                                      - 105 -
Auditor's Report                                                             Page 8


the Federal government. The law also provides that the NRRIT annually engage
an independent, qualified public accountant to audit the financial statements of
the NRRIT. Accordingly, the DIG has not audited the books and records of the
NRRIT, nor had any input into the selection of the independent accountant
retained by the NRRIT, nor provided oversight to that firm in the execution of
their responsibilities. Our opinion on the RRB's financial statements, insofar as it
relates to the amounts included for the NRRIT, is based solely on the report of
the auditor retained by the NRRIT, and our assessments of internal control and
compliance do not extend to the operations of the NRRIT.

Except to the extent that the foregoing arrangement may have affected the
planning and execution of our audit, we performed our work in accordance with
U.S. generally accepted government auditing standards and OMB audit

guidance.



RRB MANAGEMENT'S COMMENTS

RRB management thanked the DIG audit staff for their close cooperative effort in
meeting this year's financial reporting deadline. With respect to the material
weaknesses described in this report, management cited their ongoing effort to
strengthen controls over information security and financial reporting and their
commitment to address weaknesses identified by the DIG. They also expressed
their willingness to study the reported weakness in controls over non-integrated
subsystems in order to identify a solution.

The full text of management's response follows as an attachment to this report.
We did not perform audit procedures on the RRB's written response to the material
weaknesses and, accordingly, we express no opinion on the response.




~ln
Original signed by:


Inspector General
November 9, 2009, except for matters relating to
the fair value of the net assets of the NRRIT as of
September 30, 2009, as to which the date is
November 16, 2009.




                                      - 106 -
                                                                      Attachment
                                                                      Page 9
               UNITED	 STATES GOVERNMENT                                     FORM G-1I5f 1I-H21


                MEMORANDUM                               RAILROAD RETIREMENT BOARD



                                                         NOV	 16 Z009
TO	             Letty Benjamin Jay
                Assistant Inspector General for Audit

FROM	           Kenneth P. Boehne          ~./
                                           Original signed by:~
                Chief Financial Officer          .

SUBJECT:	       FY 2009 Financial Statement Audit - Auditor's Report;
                Re: Your memorandum dated November 13,2009


My office, and those of the Board Members, have reviewed the Office of Inspector
General's draft report and have the following comments.

You reported material weaknesses in your draft report dealing with information
security, financial reporting, and internal controls over non-integrated subsystems.
The Railroad Retirement Board continues to recognize that information security is
a significant challenge. We have devoted substantial effort and resources to
correct weaknesses in the agency's information security program. We will
continue to do so in order to address the weaknesses identified by the Office of
Inspector General. Regarding the financial reporting weakness, we have worked
to strengthen internal control over financial reporting during fiscal year 2009 and
have implemented enhanced controls to improve the agency's financial accounting
and reporting processes. We are committed to a quality financial reporting process
and will continue to be responsive to any additional potential improvements that
are identified. Concerning the reported weakness in internal controls over non­
integrated subsystems, agency financial managers and program managers will
continue to study the matter in order to identify a solution that provides for a
comprehensive reconciliation process with adequate separation of duties.

We again thank you and your staff for working closely and cooperatively with us
these past few months to help ensure that the RRB will be able to meet this year's
reporting deadline of November 16, 2009.

cc:	   The Board
       Executive Committee



                                     - 107 -
PAGE INTENTIONALLY LEFT BLANK
 
 

OTHER ACCOMPANYING INFORMATION
PAGE INTENTIONALLY LEFT BLANK 

                          UNITED STATES RAILROAD RETIREMENT BOARD 


                                          OFFICE OF INSPECTOR GENERAL 




                    MANAGEMENT AND PERFORMANCE CHALLENGES
                        FACING THE RAILROAD RETIREMENT BOARD

This statement has been prepared pursuant to the Reports Consolidation Act of 2000 and
the requirements of Office of Management and Budget Circular A-136 which require that
the Inspectors General identify what they consider to be the most serious management
challenges facing the agency and briefly assess the agency's progress in addressing those
challenges.

Congress created the railroad retirement system nearly 75 years ago. The Railroad
Retirement Act (RRA) created a nationwide retirement system for railroad workers to
provide income security in old age. Over the years the program has been expanded to
include disabled workers, elderly spouses and widow(er)s, children, and parents of young
children. In 1938, Congress added a nationwide system of unemployment insurance and
later a program of sickness insurance benefits. During fiscal year (FY) 2008, the
Railroad Retirement Board (RRB) paid about $10.1 billion for retirement and survivor
benefits to about 598,000 beneficiaries and about $80 million in net unemployment and
sickness insurance benefits to some 30,000 claimants.

Our identification of challenges facing RRB management is based on recent audits,
evaluations and our general knowledge of the RRB's programs and operations. The
Office of Inspector General (OIG) has identified the following areas of responsibility as
presenting serious challenges facing the agency.

       •    Providing oversight of invested program assets;
       •    Preventing fraud and abuse in the occupational disability program;
       •    Ensuring the integrity of the Railroad Medicare program;
       •    Managing for the security and privacy of information;
       •    Supporting accurate, reliable financial accounting and reporting; and
       •    Preventing and detecting improper payments.


Providing Oversight of Invested Assets of the Railroad Retirement Act Program

During FY 2008 the OIG raised concerns about the effectiveness of oversight for the
National Railroad Retirement Investment Trust (NRRlT), a multi-billion dollar
investment enterprise. 1 The legislation that created the trust precludes agency
management and its Inspector General from exercising their traditional roles as stewards
of program assets and independent watchdog, respectively.



I   On March 31, 2008, the OIG released a "Statement of Concern" discussing this issue in detail.




                                                        - 111 -
Inspector General Statement                                                                Page 2 of5
Management and Performance Challenges

December 2001 amendments to the Railroad Retirement Act (RRA) created the NRRIT,
independent of the RRB, to manage and invest railroad retirement assets in a diversified
investment portfolio in the same manner as those of private sector retirement plans. 2
Although the RRB maintains a reserve to pay benefits as they come due, more than 80%
of the agency's total assets, $25.3 billion, were entrusted to the NRRIT at the end of
FY2008.

Although the NRRIT is an independent non-governmental entity, the RRB has
enforcement authority with respect to compliance with the RRA; however, that authority
is not supported by an adequate oversight program. The RRA requires only an annual
audit of the Trust's financial statements by public accountants but does not require, or
otherwise provide for, audits of compliance with laws and regulations or evaluations of
management perfonnance which would provide RRB management with the infonnation
it needs to detennine whether any enforcement action may be necessary. An annual
financial statement audit is not adequate to support the RRB' s enforcement responsibility
because such audits are not intended to provide infonnation about all areas of risk that
could indicate the need for enforcement action.
The specific requirement for an annual financial audit and lack of provision for any other
type of audit or oversight activity has been understood by the RRB's DIG to exclude the
Trust from the DIG's audit and investigative responsibilities. No other organization,
public or private, has assumed what would otherwise be the DIG's oversight role.

Preventing Fraud and Abuse in the Occupational Disability Program

The occupational disability annuity is a unique benefit in that it is a Federal program
managed by a government agency serving workers in a single industry. The threshold
for qualification, which is lower than the standard for detennining total and pennanent
disability under the Social Security Act, makes the occupational disability program
susceptible to fraud and abuse.

Unlike workers insured under the Social Security Act, the workers covered by the RRA
may qualify for an annuity if they are disabled from work in their regular railroad
occupation. The occupational disability provision of the RRA provides an annuity to
workers in the railroad industry who have at least 20 years of service and are medically
unable to perfonn his or her regular railroad occupation. These benefits remain payable
as long as the disabled worker is unable to return to their railroad occupation even though
they may be able to perfonn other types of work.

The national spotlight was turned on the RRB's occupational disability program in
September 2008 when the New York Times reported that nearly every career employee
of the Long Island Rail Road (LIRR) applies for and receives disability benefits soon
after retirement. 3 In September 2009 the Government Accountability Office (GAO)


2Public Law 107-90, December 21,2001, codified in 45 U.S.C. § 231nO) 

3Bogdanich, Walt. "A Disability Epidemic Among a Railroad's Retirees." New York Times, 

20 Sept.2008, Shttp://www.nytimes.comlZOOB/09/ZIInyregionlZllirr.html?ref=nyregion> 





                                             - 112 -
Inspector General Statement                                                               Page 3 of5
Management and Performance Challenges

reported that in FY 2007 "LIRR workers applied for occupational disability benefits at a
rate 12 times higher than workers from the other commuter railroads" and that "the RRB
approved the claims of all workers at the same rate - nearly 100%.,,4

In October 2008, the RRB adopted Board Order 08-63 which described a five-point plan
for greater oversight of the occupational disability claims of LIRR employees. GAO
reported that the RRB had approved nearly all of the occupational disability claims
decided under the plan as of April 30, 2009. The agency has also created a new position
to provide quality control oversight to the occupational disability program nationwide,
not just the LIRR.

The entitlement to occupational disabilities is established by federal statute. That statute
also requires the RRB to establish occupational disability standards with the cooperation
of railroad labor and management. As a result, any successful reform initiative will
require negotiation by both rail labor and rail management and possibly legislative
change.

Ensuring the Integrity of the Railroad Medicare Program

In September 2009, the RRB OIG reported that more could be done to identify fraud and
abuse in the Railroad Medicare program. The U.S. Department of Health and Human
Services has stated that "[n]ot only is waste, fraud and abuse taking critical resources out
of our health care system, it contributes to the rising cost of health care for all Americans.
and harms the short-term and long-term solvency of these essential programs."

Qualified railroad retirement beneficiaries are covered under the Medicare program the
same as persons covered under the social security system. RRB contracts with a separate
carrier to process the Medicare Part B claims of its beneficiaries. During FY 2008
Railroad Medicare paid $844 million with an estimated exposure to improper payments
of about $31 million based on national averages. By comparison, Railroad Medicare
attributed only $6.3 million in savings to its Medicare Integrity Program of which 89%
was attributable to coordination of benefits with other healthcare plans, 10% was
attributed to medical review of claims and only 1%, or about $40,000, resulted from
proactive benefit integrity activities to identify fraud and abuse.

Our audit disclosed that the RRB's separate carrier's Railroad Medicare benefit integrity
unit had very limited resources with which to perform proactive fraud investigations and
data analysis. We recommended that the carrier work with the RRB and the Centers for
Medicare and Medicaid Services to obtain the budget and staff resources needed to
conduct proactive fraud investigation and data analysis. Action on that recommendation
is pending.




4United States Government Accountability Office, Review of Commuter Railroad Occupational Disability
Claims Reveals Potential Program Vulnerabilities. GAO-09-821R (Washington, D.C.; Sept. 9,2009).




                                              - 113 -
Inspector General Statement                                                                  Page 4 of5
Management and Performance Challenges

Managing for the Security and Privacy of Information

The RRB relies extensively on information technology to fulfill its benefit payment
mission. Computer processing is critical to agency operations. In addition, to fulfill its
mission, the RRB must collect and retain sensitive personally identifiable information
about its beneficiaries and employees which needs to be safeguarded from unauthorized
disclosure. Information technology security is a critical part of an effective privacy
program.

The RRB is still in the process of developing an information security management
program that fully complies with the requirements of the Federal Information Security
Management Act (FISMA) of 2002, the Privacy Act of 1974, and the related
implementing guidance.

Although the RRB is making progress, ensuring the security and privacy of agency-held
information is a significant undertaking that can be expected to present a challenge
during the near future. As the RRB moves toward FISMA compliance, it will also
strengthen its privacy program. Corrective action to strengthen the security and privacy
of information remains pending on many prior OIG audit recommendations.

Financial Accounting and Reporting

In connection with its audit of the RRB's FY 2008 financial statements, the OIG reported
a material weakness in internal control over financial reporting. 5,6 We observed that
financial accounting controls could not be relied upon to ensure that material errors
would be detected to prevent misstatements in financial reporting and that controls over
financial statement preparation were not fully effective.

During FY 2009, financial managers expressed their commitment to strengthening
controls over financial accounting and reporting by updating existing procedures and
controls as well as implementing new ones. Although progress has been made,
improvements initiated during the second half of the fiscal year could not be considered
fully effective during FY 2009 and some additional work remains to be done in this area.

Preventing and Detecting Improper Payments

The Improper Payments Information Act of2002 (IPIA) (Pub. L. No. 107-300)
established requirements for measuring and reporting improper payments in Federal
programs. Appendix C, Part I. to OMB Circular A-123, Management's Responsibility for
Internal Controls provides guidance to agencies implementing IPIA requirements.



5 Railroad Retirement Board Office of Inspector General, "Report on the Railroad Retirement Board's 

FY 2008 Financial Statements", Report #09-01, November 17, 2008. 

6 Railroad Retirement Board Office ofInspector General, FY 2008 Financial Statement Audit Letter to 

Management, Report #09-02, March 24, 2009. 





                                               - 114 -
Inspector General Statement                                                    Page 5 of5
Management and Performance Challenges

Pursuant to the IPIA, the RRB reports annually on agency progress in reducing improper
payments and has reported a reduction in the rate of RRA improper payments as
compared with outlays, dropping from 1.64% in FY 2004 to .80% in FY 2008 and a
reduction in RUIA improper payments from 2.11 % in FY 2004 to 2.00% in FY 2007 (the
last year for which RUIA data is being reported). During FY 2008, the RRB recognized
nearly $53 million in new overpayments in its retirement, survivor and disability benefit
operations of which nearly 80% were associated with routine events: the death of an
annuitant or administrative coordination of benefits with the Social Security
Administration.

Monitoring and reducing improper payments is inherently challenging in a business
environment that pays benefits of such magnitude under complex entitlement and
computational regulations. Preventing and detecting fraud in entitlement programs such
as the RRA and RUIA, adds an additional layer of complexity.




Original signed by:


Martin J. Dickman 

Inspector General 


October 16, 2009 





                                        - 115 -
                                    Management’s Comments


These are Management’s comments on the Management and Performance Challenges
identified by the Railroad Retirement Board (RRB) Inspector General.

Providing Oversight of Invested Assets of the Railroad Retirement Act Program

The Inspector General lists as a Management Challenge what he perceives to be a lack of
oversight of the investment of railroad retirement trust funds. He correctly notes that the
Railroad Retirement and Survivors’ Improvement Act of 2001 (RRSIA) created a separate entity,
the National Railroad Retirement Investment Trust (NRRIT), to handle investment of railroad
retirement assets.

The RRSIA provides that the NRRIT is to be a separate entity from the RRB and is not a
Federal agency or instrumentality. The legislation requires the NRRIT to engage a qualified
independent public accountant to conduct an annual audit of the financial statements of the
Trust. The audit report of the independent auditor is a part of the Annual Management Report
required by the legislation to be submitted to the Congress, with copies provided to the
President, the RRB, and the Office of Management and Budget (OMB). In addition, the NRRIT,
RRB, OMB and the Department of the Treasury have in place a Memorandum of Understanding
that calls for the reporting of certain information concerning the NRRIT’s activities on a monthly
basis.

The RRB exercises its oversight responsibilities with respect to the NRRIT by thorough review
by agency staff of the various reports provided by the NRRIT pursuant to the statutory
requirements and the multi-agency Memorandum of Understanding. The RRB’s General
Counsel meets with the NRRIT’s Chief Executive Officer/Chief Investment Officer and the
Counsel to the NRRIT numerous times each year to discuss NRRIT activities. Financial officials
of the RRB have frequent contact with the NRRIT. And, the three Members of the Railroad
Retirement Board meet twice a year with the Trustees and NRRIT officials concerning NRRIT
activities and investment performance of the NRRIT portfolio.

It is the position of the RRB that the agency is fulfilling its oversight responsibilities assigned by
the Congress under the RRSIA.

Preventing Fraud and Abuse in the Occupational Disability Program

The Inspector General states that the threshold for entitlement to an occupational disability
annuity under the Railroad Retirement Act, which he correctly points out is less strenuous than
the standard under the Social Security Act for total and permanent disability, makes the
program susceptible to fraud and abuse.

The Railroad Retirement Act provides two types of disability benefits for railroad employees.
The Act provides for payment of a benefit to an employee who is totally and permanently
disabled from all regular employment and the Act provides for the payment of a benefit to an
employee who has at least 20 years of railroad service or who has attained the age of 60 and
who is unable to perform his or her regular railroad occupation. The Act provides that in
determining entitlement to occupational disability, the RRB must look to standards adopted with
the cooperation of railroad employers and railroad employees. The Board Members adopted
standards, along with supporting regulations, with the cooperation of railroad employers and


                                                - 116 -
railroad employees, in 1998. We currently use those standards and regulations in adjudicating
each individual application for an occupational disability benefit. We also require specific
medical evidence to support our decisions in each case.

While the standard for occupational disability is lower than that for total and permanent
disability, approximately 70 percent of the employees awarded an occupational disability annuity
are also awarded a period of disability, which means that they meet the more strenuous total
and permanent disability standard under the Social Security Act. In fiscal year 2008, the RRB
awarded annuities to approximately 31,500 beneficiaries. Of this total, approximately 2,300
were occupational disability annuities. However, only about 690 of these beneficiaries would
not have met the more stringent total and permanent disability standard.

As the Inspector General notes, the Board adopted Board Order 08-63 last year to address a
potential issue with the number of applications for occupational disability annuity filed by former
employees of the Long Island Rail Road (LIRR). The Board Order calls for greater scrutiny of
applications filed by LIRR employees. The Order calls for additional independent medical
examinations of LIRR applicants to be conducted by independent physicians selected and paid
by the RRB. In addition, the Order calls for post-award review of cases to determine whether
beneficiaries continue to meet the requirements for entitlement. Through September 30, 2009,
117 applications were decided under the Board Order. In each of these cases, the applicants
were sent for independent medical examinations and the applications were handled by a
separate group of claims examiners. The additional scrutiny applied to these cases showed
that nearly all of those who applied for benefits met the standards adopted pursuant to the
statute. Moreover, 258 LIRR annuitants currently receiving an occupational disability annuity
were sent for 422 medical tests. Our review of 200 of these annuitants and their medical
evidence has been completed, and none of the annuitants were determined not to be disabled.

As the Inspector General notes, the RRB has also created a new position to handle quality
review of the occupational disability program data. It will be the responsibility of this employee
to review the program data and identify any anomalies that might require additional scrutiny
similar to what was done in Board Order 08-63. The Board will take additional corrective action
as necessary to ensure that the agency is meeting its mission to pay benefits to the right people
and in the right amount.

Ensuring the Integrity of the Railroad Medicare Program

We agree with the Inspector General that the agency’s Medicare carrier has had limited
resources to devote to proactive fraud investigations and data analysis. Since funding for that
program is provided by the Centers for Medicare & Medicaid Services (CMS), we have
concurred with the Inspector General’s recommendation for the RRB to work together with the
carrier to request additional funding for the Medicare Integrity Program in future years. The
carrier’s fiscal year 2010 budget request to CMS did include a request for an additional $50,000
to initiate increasing its benefit integrity activities in keeping with this recommendation.

Managing for the Security and Privacy of Information

The RRB takes its responsibility to manage the security and privacy of information very
seriously. During fiscal year 2009, its Bureau of Information Services (BIS) addressed
recommendations associated with high priority significant deficiencies. BIS completed work on
16 deficiencies that had been reported to OMB and on 7 other significant deficiencies. The



                                              - 117 -
agency’s Chief Information Officer has initiated a plan to prioritize the remaining open
recommendations, with the intent to focus on the most significant ones.

Financial Accounting and Reporting

During fiscal year 2009, the agency’s accounting staff have addressed the reported material
weakness related to internal controls over financial reporting by acting on 12 financial
statement-related audit recommendations. This includes such recommendations presented in
the OIG’s Letter to Management, Report Number 09-02, dated March 24, 2009. Most of the
implementing actions taken are being evaluated by the OIG auditors during their audit of the
fiscal year 2009 financial statements.

Preventing and Detecting Improper Payments

We agree that monitoring and reducing improper payment rates is challenging. The agency has
made concerted efforts to pay out only those benefits due and all the benefits due. As a result,
we have increased efforts to recognize and prevent overpayments caused by excess earnings
after retirement, and focused efforts on paying out additional benefits due as a result of changes
to service and compensation records. The results of those efforts are reflected in reductions in
rates of improper payments since our earlier reports. We will continue to focus on reducing
improper payments in the coming year.




                                              - 118 -
                Improper Payments Information Act (IPIA) Reporting Details


I. Briefly describe the risk assessment(s), performed subsequent to completing the full
program inventory. List the risk-susceptible programs (i.e., programs that have a
significant risk of improper payments based on OMB guidance thresholds) identified
through risk assessments. Be sure to include the programs previously identified in the
former Section 57 of Circular A-11 (now located in Circular A-123, Appendix C). Please
highlight any changes to its risk assessment or its risk assessment results that occurred
since its last report.

The RRB administers two benefit payment programs: Retirement and Survivor Benefits
(referred to as RRA) and Railroad Unemployment Insurance Benefits (referred to as RUIA).
Both were designated as “high risk” under the Former Section 57 of Circular A-11. Therefore, in
previous reports, we have been measuring and reporting the level of improper payments for
both programs in our Performance and Accountability Reports.

In January 2009, the Office of Management and Budget granted relief from reporting the RUIA
program improper payments due to the consistently low level of error over several years.
Barring any unexpected changes to the program or the rate, the next RUIA program improper
payments report will be included in the FY 2012 Performance and Accountability Report.

The agency used the process described below to calculate the amount of RRA improper
payments made in fiscal year 2008.

                   Results of Fiscal Year 2008 Improper Payment Review

                                                                              Action Plan or
                Improper Payment Amt.          Improper Payment Rate
 Program                                                                         Targets
                     >$10 million                      >2.5%
                                                                                Needed?
RRA                        Yes                             No                        No


II. Briefly describe the statistical sampling process conducted to estimate the improper
payment rate for each program identified. Please highlight any changes to its statistical
sampling process that have occurred since the last report in this section.

The agency has an established methodology for identifying improper payments in the RRA
benefit payment program. It is based on determining both the known overpayments and
underpayments, which have since been recovered or paid out, and estimating those which
result from adjudicative error, but have not been identified or corrected. It also uses information
from quality assurance reviews. These reviews employ statistical sampling to study railroad
retirement awards. Also included are projections of improper payments from audits and special
studies. This year, we have modified our approach to include estimates of manual work based
on pending referrals as of September 30, 2008. Using this revised approach, we are now
reporting estimates of a backlog of referrals resulting from changes in service and
compensation records which could not be handled through the automated system.




                                              - 119 -
III. 	Describe the Corrective Action Plans for:

a. Reducing the estimated rate and amount of improper payments for each type of root
cause of error. (e.g. Administrative and Documentation errors, Authentication and
Medical Necessity errors, and Verification and Local Administration errors). This
discussion must include the corrective action(s) most likely to significantly reduce future
improper payments due to each type of root cause of error. If efforts are ongoing, it is
appropriate to include that information in this section, and to highlight current efforts,
including key milestones.

The root causes of error in the RRA program are summarized according to OMB’s root causes
in the table below.

           Root Cause of Error               Estimated Rate           Estimated Amount
   Administrative and Documentation               18.7%                     $14,758,116
   Authentication and Medical Necessity            4.4%                       3,478,363
   Verification and Local Administration          76.9%                      60,747,552
   Total                                          100%                      $78,984,031

Corrective Actions:

Administrative and Documentation: These errors result from improper handling by the
agency’s automated systems or its personnel. Planned corrective actions include:
 development of an enhanced automated retirement payment system to replace the current
   legacy system that processes Retirement Applications, planned for October 2010,
 development of an interface between systems to ensure accurate use of military service in
   the calculation of benefits, and
 creation of a Medicare premium collection database which is targeted for July 2010.

Authentication and Medical Necessity: Very few of the agency’s improper payments fall into
this category. There are no planned corrective/preventative actions.

Verification and Local Administration: These errors result from changes coming from
outside the agency, particularly changes in the beneficiary’s status which affects entitlement or
eligibility either temporarily or permanently, and changes in service and compensation typically
due to work. Our agency’s challenge is to obtain the information and process it as quickly as
possible.

The initiatives to minimize this specific group of improper payments are:

	 	 We implemented a system (called RESCUE) which evaluates employer-reported changes to
     employee service and compensation records and adjusts annuities, if needed.
       o	 	 The initial implementation of this process in fiscal year 2006 handled the evaluation
            of record changes posted in January 2006. In fiscal year 2007, the system evaluated
            adjustments posted prior to January 2006. This initiative identified specific RRA
            improper underpayments and paid out additional benefits due. Therefore, this
            resolved many of the improper payments that have been included in previous years’
            estimates. However, there is a significant manual workload that resulted from this



                                             - 120 -
              initiative. As of September 30, 2008, there were 15,728 of these referrals (12,881 for
              active cases and 2,847 for terminated cases) on hand. These backlogged cases are
              handled whenever any other work needs to be done on the case. RESCUE referrals
              are also processed using overtime funds as the RRB budget permits.
         o	 	 This system is being run several times a year so that annuity adjustments are made
              timely and properly for those that can be handled automatically. Those that cannot
              be handled automatically have resulted in significant manual workloads. These
              referrals are considered part of the current workload. As of September 30, 2008,
              there were 16,652.
         o	 	 The agency uses overtime funding in the short term, and is hiring and training new
              claims examiner staff who will eventually be able to handle these complex
              workloads. This is a long-term process which will take several years before the new
              hires can make an impact on these workloads.
	 	 A special manual project to resolve a backlog of unverified Social Security Numbers (SSN)
     of railroad employees was completed in fiscal year 2009. This ensures that the correct
     earnings are recorded to the correct SSN which serves as a basis of the calculation of
     benefits.
	 	 A manual project is underway to resolve a backlog of inconsistencies related to the SSN on
     records of auxiliary beneficiaries. (The spouse cases are completed; corrections to
     children’s and widow(er)’s records are being handled.) This allows the agency to match to
     the SSA earnings database to identify earnings and to match to files containing death
     information.
	 	 A multiphase process is underway which allows users to enter any annuitant’s earnings
     information online, and store the information in a database. This system (called SPEED)
     allows the RRB to adjust annuity payments for earnings on a timely basis, which minimizes
     any underpayments or overpayments that may result from changes in earnings. Phase Four
     was completed in fiscal year 2009; additional phases are being developed to automatically
     record and adjust the annuity as a result of changes in working status. In the meantime,
     improper payments may result due to the necessity to handle these cases manually.

b. Instructions for grant-making agencies. Not applicable to RRB.


IV. 	Program improper payment reporting.

a. 	 The table below is required for each reporting agency.

              Improper Payment (IP) Reduction Outlook FY 2007 – FY 2012
                                      ($ in millions)

               FY 07                        FY 08                           FY 09
                          FY 07   FY 07                  FY 08   FY 08                 FY 09   FY 09
  Program    $ Outlays                    $ Outlays                       $ Outlays
                          IP %     IP $                  IP %     IP $                 IP %     IP $
              (actual)                     (actual)                      (estimated)

 RRA         $9,812.5     0.95    $92.7   $10,049.9      0.79    $79.0   $10,537.3     0.79    $82.8




               FY 10                         FY 11                          FY 12
                          FY 10   FY 10                  FY 11   FY 11                 FY12    FY 12
 Program     $ Outlays                     $ Outlays                      $ Outlays
                          IP %     IP $                  IP %     IP $                 IP %     IP $
            (estimated)                   (estimated)                    (estimated)

 RRA         $10,784.8    0.79    $84.8   $10,925.7      0.79    85.9    $11,112.9     0.79    87.3




                                               - 121 -
   Note: The absolute value of the over and under-paid dollars and the rates is shown—the figures are
   not netted.

   At the time this report was prepared, the latest actual data available was for fiscal year 2008
   (shown in bold in the chart). The estimates for fiscal year 2009 through 2012 are based on
   the December 2008 OMB budget review estimates.

b. 	 Discuss your agency’s recovery of improper payments, if applicable. Include in your
     discussion the dollar amount of cumulative recoveries collected beginning with
     FY 2004.

   Despite all the agency’s best efforts to prevent improper payments, some will always occur,
   due to lack of timely information, etc. In overpayment situations, the agency is diligent in its
   recovery efforts. The RRB’s account receivable balance for the RRA program at the end of
   fiscal year 2008 was $44,874,374. This balance includes debts classified as currently not
   collectible. We estimate that approximately 77.7 percent of these receivables will be
   collected and that the remaining 22.3 percent will eventually be closed as uncollectible. The
   RRB’s collection program is in full compliance with the Debt Collection Improvement Act of
   1996. For the period of fiscal years 2004 through 2008, the RRB recovered $128,219,444 in
   RRA program receivables. Recoveries are made through offset of future benefits,
   reclamation from the financial institution of benefits erroneously paid after the death of a
   beneficiary, and direct payment from debtors. Fraudulent payments are referred to the
   Office of Inspector General for prosecution through the Department of Justice. Delinquent
   accounts are referred to the Department of the Treasury for cross-servicing and offset of
   Federal payments.


V. 	Recovery auditing reporting.

This does not apply to RRB’s benefit programs.


VI. Describe the steps the agency has taken and plans to take (including time line) to
ensure that agency managers (including the agency head) are held accountable for
reducing and recovering improper payments.

Paying benefits accurately and timely, and providing prudent stewardship over agency trust
funds are the agency’s two strategic goals. Agency managers have links to those goals in their
performance plans.


VII. Agency information systems and other infrastructure.

     a. 	 Describe whether the agency has the information systems and other
          infrastructure it needs to reduce improper payments to the levels the agency
          has targeted.

         In order to prevent and reduce the already low levels of improper payments the
         Railroad Retirement Act program generates, information systems need to be
         developed or modified as described in the project initiatives discussed above.


                                               - 122 -
     b. 	 If the agency does not have such systems and infrastructure, describe the
          resources the agency requested in its most recent budget submission to
          Congress to obtain the necessary information systems and infrastructure.

         The agency requested fiscal year 2010 funding for System Modernization, which will
         contribute to achieving the agency’s target architecture and to meeting its performance
         goals, including accuracy of benefit payments and stewardship of the trust funds. The
         modernization process will help reduce redundancy, improve accuracy and speed, and
         transition our computing environment to more modern technologies and
         methodologies.


VIII. Describe any statutory or regulatory barriers which may limit the agencies’
corrective actions in reducing improper payments and actions taken by the agency to
mitigate the barriers’ effects.

None.


IX. Additional comments, if any, on overall agency efforts, specific programs, best
practices, or common challenges identified, as a result of IPIA implementation.

The RRB has made concerted efforts to reduce improper payments over the years. Payment
accuracy rates are at consistently high levels and the return on investment for program integrity
activities has been high as well. Both have been set as annual performance goals and reported
each year since the Government Performance and Results Act has been in effect. The agency
monitors progress on implementing recommendations from the quality assurance process, and
is vigilant about pursuing OIG recommendations which impact the quality and timeliness of
payments. The agency has also worked closely with the OIG in referring potential fraud cases
for its investigation and prosecution. However, continued loss of experienced staff and the long
lead time to hire and train staff to handle the complicated manual work generated as a result of
systems limitations presents an ongoing challenge to making further significant reductions in the
levels of improper RRA payments. The agency hopes to be able to maintain adequate staffing
so that it can continue this important effort.




                                             - 123 -
 Summaries of Financial Statement Audit and Management Assurances

Summary of Financial Statement Audit

Audit Opinion                                              Unqualified
Restatement                                                   No

     Material Weaknesses            Beginning         New             Resolved    Consolidated      Ending
                                     Balance                                                        Balance
Information Technology Security          1                                                            1
Financial Reporting                      1                                                            1
Non-Integrated Subsystems                              1                                              1

Total Material Weaknesses                2                                                            3


Summary of Management Assurances

                 Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                   Qualified

     Material Weaknesses          Beginning     New        Resolved     Consolidated   Reassessed    Ending
                                   Balance                                                           Balance

Information Technology Security      1                                                                    1

Financial Reporting                  1                                                                    1
Non-Integrated Subsystems                        1                                                        1

Total Material Weaknesses            2                                                                    3


          Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance Systems conform




                                                 - 124 -
APPENDICES
PAGE INTENTIONALLY LEFT BLANK 

                                   Appendices
Glossary of Acronyms and Abbreviations

A

ACSI                       American Customer Satisfaction Index
AMS                        American Management Systems, Inc.
ARRA                       American Recovery and Reinvestment Act of 2009

B

BCP                        Business Continuity Plan
BIA                        Business Impact Analysis
BIPA                       Benefits Improvement and Protection Act of 2000
BIS                        Bureau of Information Services
BPD                        Bureau of the Public Debt
BRM                        Business Reference Model

C

CHRIS 	                    Comprehensive Human Resources Integrated System
CMS 	                      Centers for Medicare & Medicaid Services
CNC	 	                     Currently Not Collectible
COA 	                      Change of Address
COOP 	                     Continuity of Operations Plan
CPI-W	 	                   Consumer Price Index for Urban Wage Earners and Clerical
                           Workers

D

DCIA                       Debt Collection Improvement Act of 1996
DOJ                        Department of Justice
DOL                        Department of Labor

E

ERS                        	Employer Reporting System

F

FAIR Act                   Federal Activities Inventory Reform Act
FASAB                      Federal Accounting Standards Advisory Board
FBWT                       Fund Balance With Treasury
FECA                       Federal Employees’ Compensation Act
FFS                        Federal Financial System
FHI                        Federal Hospital Insurance
FI                         Financial Interchange
FICA                       Federal Insurance Contributions Act
FMFIA                      Federal Managers’ Financial Integrity Act
FMS                        Financial Management Service
FY                         Fiscal Year
FOASI/DI                   Federal Old-Age and Survivors Insurance/Disability Insurance
FTE                        Full-time Equivalent




                                         - 127 -
G

GAO      Government Accountability Office
GISRA    Government Information Security Reform Act
GPRA     Government Performance and Results Act
GSA      General Services Administration

H

HIPAA    Health Insurance Portability and Accountability Act

I

IAE      Integrated Acquisition Environment
IPIA     Improper Payments Information Act
IRM      Information Resources Management
IRS      Internal Revenue Service
ISSO     Information System Security Officer
IT       Information Technology

M

MAC      Medicare Administrative Contractor
MCR      Medicare Contracting Reform
MCRC     Management Control Review Committee
MEDCOR   Medicare Correction System
MMA      Medicare Prescription Drug, Improvement and Modernization
         Act of 2003
MOU      Memorandum of Understanding

N

N/A      Not Applicable
NRRIT    National Railroad Retirement Investment Trust

O

OIG      Office of Inspector General
OMB      Office of Management and Budget
OPM      Office of Personnel Management

P

P&AR     Performance and Accountability Report
PBSC     Performance-based Service Contracting
PDP      Prescription Drug Plan
P&F      Program and Financing
PIN      Personal Identification Number

Q

QRRB     Qualified Railroad Retirement Beneficiary




                     - 128 -
R

RR              	Railroad Retirement
RRA 	            Railroad Retirement Act
RR Account 	     Railroad Retirement Account
RRB 	            Railroad Retirement Board
RRS Account 	    Railroad Retirement Supplemental Account
RRSIA 	          Railroad Retirement and Survivors’ Improvement
                 Act of 2001
RRTA 	           Railroad Retirement Tax Act
RUI	             Railroad Unemployment Insurance
RUIA 	           Railroad Unemployment Insurance Act
RUSI	            Railroad Unemployment and Sickness Insurance

S

SBR             Statement of Budgetary Resources
SCHIP           State Children’s Health Insurance Program
SFFAS           Statement of Federal Financial Accounting Standards
SPEED           System Processing Excess Earnings Data
SSA             Social Security Administration
SSEB            Social Security Equivalent Benefit

T

TOP             Treasury Offset Program
Treasury        Department of the Treasury
Trust           National Railroad Retirement Investment Trust
TSP             Thrift Savings Plan

U

USPS 	          United States Postal Service

V

VAN 	           Virtual Area Network




                            - 129 -
Railroad Retirement Board
Board Members, Inspector General, and Executive Committee



                                Board Members

        Chairman                                  Michael S. Schwartz
        Labor Member                              V. M. Speakman, Jr.
        Management Member                         Jerome F. Kever


                          Office of Inspector General

        Inspector General                         Martin J. Dickman


                             Executive Committee

        Director of Administration/Senior         Henry M. Valiulis
          Executive Officer
        General Counsel                           Steven A. Bartholow
        Chief Financial Officer                   Kenneth P. Boehne
        Director of Programs                      Dorothy A. Isherwood
        Chief Information Officer                 Terri S. Morgan
        Chief Actuary                             Frank J. Buzzi




                                      - 130 -
